<html>
<title> - TREATMENT, EDUCATION, AND PREVENTION: ADDING TO THE ARSENAL IN THE WAR ON DRUGS</title>
<body><pre>[Senate Hearing 107-222]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-222

                 TREATMENT, EDUCATION, AND PREVENTION: 
                   ADDING TO THE ARSENAL IN THE WAR 
                                ON DRUGS

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 14, 2001

                               __________

                           Serial No. J-107-6

                               __________

         Printed for the use of the Committee on the Judiciary

                                _______

                  U.S. GOVERNMENT PRINTING OFFICE
76-915                     WASHINGTON : 2002

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JEFF SESSIONS, Alabama               RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                CHARLES E. SCHUMER, New York
MITCH McCONNELL, Kentucky            RICHARD J. DURBIN, Illinois
                                     MARIA CANTWELL, Washington
                      Sharon Prost, Chief Counsel
                     Makan Delrahim, Staff Director
         Bruce Cohen, Minority Chief Counsel and Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Biden, Hon. Joseph R., a U.S. Senator from the State of Delaware.    35
Cantwell, Hon. Maria, a U.S. Senator from the State of Washington    65
DeWine, Hon. Mike, a U.S. Senator from the State of Ohio.........    23
Durbin, Hon. Richard J., a U.S. Senator from the State of 
  Illinois.......................................................    26
Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin......................................................    66
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......     1
Kyl, Hon. Jon, a U.S. Senator from the State of Arizona..........    33
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     6
Thurmond, Hon. Strom, a U.S. Senator from the State of South 
  Carolina.......................................................    66

                               WITNESSES

DuPont, Robert, M.D., former Director, National Institute on Drug 
  Abuse, former White House drug czar, and President, Institute 
  for Behavior and Health, Inc., Washington, DC..................    38
Hewitt, Edyie, former Director, Vermont Federation of Families 
  for Children's Mental Health, East Wallingford, VT.............    40
Leshner, Alan I., Director, National Institute on Drug Abuse, 
  National Institutes of Health, Department of Health and Human 
  Services, Washington, DC.......................................    15
Marshall, Donnie R., Administrator, Drug Enforcement 
  Administration, Department of Justice, Washington, DC..........     9
O'Connor, Carroll, Actor and Drug Prevention and Treatment 
  Advocate, Los Angeles, CA......................................    36
Walcott, Debra, Recovering Drug-Addicted Youth, Lake Ronkonkoma, 
  NY.............................................................    48
Walton, A. James, Jr., Commissioner, Department of Public Safety, 
  State of Vermont, Waterbury, VT................................    43
Warner, Paul M., United States Attorney, District of Utah, Salt 
  Lake City, UT..................................................    12

                       SUBMISSIONS FOR THE RECORD

Califano, Joseph A., Jr., President, National Center on Addiction 
  and Substance Abuse, Columbia University, New York, NY, and 
  former Secretary of Health, Education, and Welfare, statement 
  and attachment.................................................    67
Carney, Jan K., M.D., Commissioner of Health, State of Vermont, 
  statement......................................................    71

 
TREATMENT, EDUCATION, AND PREVENTION: ADDING TO THE ARSENAL IN THE WAR 
                                ON DRUGS

                              ----------                              


                       WEDNESDAY, MARCH 14, 2001

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:05 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Orrin G. 
Hatch, Chairman of the Committee, presiding.
    Present: Senators Hatch, DeWine, Leahy, Biden, and Durbin.

STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM THE STATE 
                            OF UTAH

    Chairman Hatch. Good morning. I am very pleased to welcome 
you all to today's hearing on the vital role of drug prevention 
and treatment in our Nation's comprehensive drug control 
policy.
    I believe all of our witnesses today will agree with me 
that we need a comprehensive strategy embracing both demand and 
supply reduction in our struggle against drug abuse. I also 
believe that if we are to win this war on drugs in America, we 
need a stronger national commitment to the demand reduction 
component of our strategy. This is a bipartisan view which I am 
proud to say is shared by my colleague and ranking Democratic 
member, Senator Leahy.
    Now, let there be no misunderstanding. We must and we will 
continue our vigilant defense of our borders and our streets 
against those who make their living by manufacturing or selling 
these harmful drugs. But the time has come to increase the 
resources we devote to prevent people from using drugs in the 
first place and to break the cycle of addiction for those whose 
lives are devastated and consumed by these substances. Only 
through such a balanced approach can we fully remove the 
scourge of drugs from our society.
    Last month, Senators Leahy, DeWine, Biden, Thurmond and I 
introduced the Drug Education, Prevention, and Treatment Act of 
2001, which embodies this balanced approach. While the bill 
furthers our law enforcement efforts by increasing penalties 
for those who involve minors in drug crimes, among other 
unlawful acts, the bulk of the legislation advances our 
prevention and treatment efforts.
    According to national surveys, since 1990 the number of 
first-time users of marijuana has increased by 63 percent, of 
cocaine by 37 percent, of hallucinogens, including ecstasy, by 
91 percent, and of stimulants by 165 percent. Last year, annual 
use of ecstasy among 10th and 12th-graders rose sharply, an 
increase of 33 and 35 percent, respectively.
    Additionally, a large portion of the new heroin initiates 
are youth who are smoking, sniffing, or snorting heroin. In 
fact, a full quarter of the estimated 471,000 persons who used 
heroin for the first time between 1996 and 1998 were under age 
18. This should alarm all of us about the future of our youth.
    In the face of these dismal statistics, some cynics may ask 
what difference will another drug bill make. To them, I say 
that this bill will make a lot of difference. I am proud to say 
that since its introduction, numerous organizations, political 
officials, and concerned Americans have contacted our Committee 
to praise the bill.
    At a press conference held prior to introducing the bill, 
prevention and treatment experts standing side by side with law 
enforcement officials, regardless of party affiliation, spoke 
in unison about how the various prevention and treatment 
consequences of this bill will help lower drug abuse in 
America.
    According to a report recently released by the National 
Center on Addiction and Substance Abuse at Columbia University 
in 1998, States spent $81.3 billion, about 13 percent of total 
State spending, on substance abuse and addiction. Only $3 
billion of this, however, was spent on prevention and 
treatment. The remaining $78 billion was spent, in the words of 
the study's authors, ``to shovel up the wreckage of substance 
abuse and addiction.''
    The report urges us as policymakers to reexamine our 
priorities and shift our attention to drug prevention and 
treatment. This bill does just that. And I hasten to add it 
does so without undermining in any way our commitment to supply 
reduction. Indeed, this bill, it can be said, ultimately will 
help us to cut supply by reducing the demand for drugs among 
those who are the most consistent and addicted users, those who 
may want to break the vicious cycle of addiction but are 
physically unable to do so without the treatment programs 
authorized by this bill.
    Let me emphasize, however, that while this legislation will 
prove enormously helpful, it cannot substitute for our most 
effective tool for preventing drug abuse, and that is good 
parenting. Demand reduction starts with educating all of 
America's children about the harmful, destructive nature of 
drugs, and that education must start at home.
    According to the 1999 PRIDE survey, students whose parents 
never or seldom talk to them about drugs are 36.5 percent more 
likely to use drugs, in contrast with students whose parents 
talk to them often or a lot about drugs. They are 33.5 percent 
less likely to use drugs. Parents, grandparents, priests, 
rabbis, pastors, teachers, sports heroes, celebrities, and 
everyone else involved in our children's lives need to take an 
active role in educating our children about the dangers of 
drugs.
    Unless children are given the knowledge and truth of how 
drugs will ruin their health and their futures, they are 
vulnerable to the lies of those who are peddling drugs. Sadly, 
studies reveal that many children will never have conversations 
with their parents, let alone other adults, about drug abuse. 
Some children have parents who are addicted to drugs, some have 
parents who are imprisoned, and some have parents who just 
don't understand how vital it is for them to talk to their 
children about drug use.
    This fact alone represents one important reason why 
community organizations need to be involved in educating both 
parents and children about the dangers of drug abuse. We need 
effective education and prevention programs in our schools and 
communities. Even for children blessed with dedicated, 
concerned parents, school and community-based programs are 
vitally important. According to the 1999 PRIDE survey, students 
who never or seldom join in community activities are 52.6 
percent more likely to use drugs.
    I don't know if there is any law that can stop a teenager 
from saying yes to that first puff of a marijuana joint, that 
first line of cocaine, that first tab of ecstasy, or that first 
injection of heroin. If I knew what this law was, I would 
dedicate my career to passing it, as I am sure would every 
Senator on this Committee.
    The fact is there is no simple answer to these problems. 
That means we all must redouble our efforts to do everything we 
can to decrease the odds that our youth will fall prey to drug 
abuse and increase the odds that they will live healthy, 
productive lives.
    This legislation marks a sustained commitment to prevention 
and education. The bill, for instance, provides resources to 
public and non-profit private entities to carry out school-
based programs about the dangers of using illicit drugs. It 
would also provide counseling, training, and mentoring services 
to America's most at-risk children, those in low-income and 
high-crime communities who have a parent or legal guardian who 
is in jail or in prison.
    In that regard, I am sponsoring, along with Senator Clinton 
in the Senate and Congressmen Charlie Rangel and J.C. Watts in 
the House, a dinner on May 8 for the Dream Academy, which is to 
bring caring adult mentors and tutors into the lives of 
children of prisoners, a high percentage of whom ultimately 
wind up in crime themselves.
    So we are going to try to get that going as we have gotten 
the Boys and Girls Clubs of America going. It is already up and 
running, but we need to help it more. We have already raised 
around $1 million for that program. So I hope some of you will 
want to participate and come to that.
    I might add another important provision of this bill 
answers the call to treat drug addicts while they are under the 
supervision of our criminal justice system. As many Americans 
have come to realize, a large number of criminals commit crimes 
to feed their drug habits, and if we can break the addiction, 
we will see a significant increase in public safety. It makes 
sense, then, to devote resources to treating criminal addicts 
before they are turned loose on our streets.
    Of course, there are some who believe we will never be able 
to conquer abuse and the only answer is to legalize drugs. I, 
along with a strong majority of the American population, do not 
buy into this unfortunate rhetoric. We need to remain steadfast 
in our commitment to enforcing our laws, while at the same time 
investing in programs that are compassionate and offer those 
who are addicted to drugs an opportunity to return to society 
in a productive manner.
    I look forward to hearing from our panelists their 
suggestions based on their own experience and expertise about 
what works, what doesn't, and what can be done. In particular, 
I am interested in listening to any suggestions you may have 
for Senator Leahy and me and other members of this Committee to 
improve this legislation.
    I would ask that my entire written statement be included in 
the record, without objection.
    [The prepared statement of Senator Hatch follows:]

Prepared Statement of Chairman Orrin G. Hatch, a U.S. Senator from the 
                             State of Utah

    Good Morning. I am pleased to welcome you all to today's hearing on 
the vital role of drug prevention and treatment in our nation's 
comprehensive drug control policy.
    I believe all of our witnesses today will agree with me that we 
need a comprehensive strategy embracing both demand and supply 
reduction in our struggle against drug abuse.
    I firmly believe that if we are to win the war on drugs in America, 
we need a stronger national commitment to the demand reduction 
component of our strategy. This is a bipartisan view, which I am proud 
to say is shared by my colleague and Ranking Democratic member, Senator 
Leahy.
    I am also encouraged that President Bush has indicated on several 
occasions, and in the plan he unveiled last Fall, that he also believes 
in such a comprehensive drug control strategy.
    Let there be no misunderstanding. We must, and will, continue our 
vigilant defense of our borders and our streets against those who make 
their living by manufacturing or selling these harmful drugs.
    But the time has come to increase the resources we devote to 
prevent people from using drugs in the first place and to break the 
cycle of addiction for those whose lives are devastated and consumed by 
these substances. Only through such a balanced approach can we fully 
remove the scourge of drugs from our society.
    Last month, Senators Leahy, DeWine, Biden, and Thurmond and 1, 
introduced the Drug Education, Prevention and Treatment Act of 2001, 
which embodies this balanced approach.
    While the bill furthers our law enforcement efforts by increasing 
penalties for those who involve minors in drug crimes, among other 
unlawful acts, the bulk of the legislation advances our prevention and 
treatment efforts.
    Now, some may be asking why should we pass another drug bill? The 
answer is quite simple: too many Americans--including far too many 
young people continue to use these harmful substances.
    According to national surveys, since 1990, the number of first time 
users of marijuana has increased by 63 percent, of cocaine by 37 
percent, of hallucinogens, including ecstasy, by 91 percent, and of 
stimulants by 165 percent. Last year, annual use of ecstasy among 10th 
and 12th graders rose sharply, an increase of 33 percent and 55 percent 
respectively.
    Additionally, a large portion of the new heroin initiates are youth 
who are smoking, sniffing, or snorting heroin. In fact, a full quarter 
of the estimated 471,000 persons who used heroin for the first time 
between 1996-1998 were under age 18. This should alarm us all about the 
future of our youth.
    The alarming statistics continue. By the 8th grade--that is around 
the age of 13,--over 50 percent of our youth have consumed alcohol, 
over 40 percent have smoked cigarettes, and over 20 percent have smoked 
marijuana. And by the time of graduation, around the age of 18, over 80 
percent have consumed alcohol, over 60 percent have smoked cigarettes, 
and over 50 percent of our youth have used an illicit drug.
    In the face of these dismal statistics, some cynics may ask what 
difference will another drug bill make? To them I say that this bill 
will make a lot of difference.
    I am proud to say that since its introduction, numerous 
organizations, political officials, and concerned Americans have 
contacted the Committee to praise the bill. At a press conference held 
prior to introducing the bill, prevention and treatment experts, 
standing side-by-side with law enforcement officials, regardless of 
party affiliation, spoke in unison about how the various prevention and 
treatment components of this bill will help lower drug abuse in 
America.
    This legislation bespeaks our commitment to do more to prevent and 
treat substance abuse. Such efforts, it is safe to say, will prove 
worthwhile.
    According to a report recently released by the National Center on 
Addiction and Substance Abuse at Columbia University in 1998, States 
spent $81.3 billion--about 13 percent of total state spending on 
substance abuse and addiction. Only $3 billion of this, however, was 
spent on prevention and treatment. The remaining $78 billion was spent, 
in the words of the study's authors, ``to shovel up the wreckage of 
substance abuse and addiction.'' The report urges us, as policymakers, 
to reexamine our priorities and shift our attention to drug prevention 
and treatment.
    This bill does just that, and, I hasten to add, it does so without 
undermining in any way our commitment to supply reduction. Indeed, this 
bill, it can be said, ultimately will help to cut supply by reducing 
the demand for drugs among those who are the most consistent and 
addicted users--those who may want to break the vicious cycle of 
addiction, but are physically unable without the treatment programs 
authorized by this bill.
    Let me emphasize, however, that while this legislation will prove 
enormously helpful, it cannot substitute for our most effective tool 
for preventing drug abuse: good parenting. Demand reduction starts with 
educating all of America's children about the harmful, destructive 
nature of drugs, and that education must start at home. According to 
the 1999 PRIDE survey, students whose parents never or seldom talk to 
them about drugs are 36.5% more likely to use drugs; in contrast, 
students whose parents talk to them often, or a lot, about drugs are 
33.5% less likely to use drugs.
    Parents, grandparents, priests pastors, rabbis, teachers, sports 
heroes, celebrities, and everyone else involved in a child's life need 
to take an active role in educating our children about the dangers of 
drugs.
    Drug abuse knows no boundaries. It doesn't discriminate on the 
basis of gender, race, age, or class. It is truly an equal opportunity 
destroyer.
    Parents need to stop deluding themselves into believing that moving 
to the suburbs, away from the temptations and evils of the inner 
cities, will prevent drug dealers from reaching their children. They 
need to stop thinking that it is always the other family's kid who is 
using drugs.
    Unless children are given the knowledge and truth of how drugs will 
ruin their health and future, they are vulnerable to the lies of those 
who are peddling drugs.
    Sadly, studies reveal that many children will never have 
conversations with their parents about drug use. Some children have 
parents who are addicted to drugs, some have parents who are 
imprisoned, and some have parents who just don't understand how vital 
it is for them to talk to their children about drug use.
    This fact alone represents one important reason why community 
organizations need to be involved in educating both parents and 
children about the dangers of drug abuse.
    We need effective education and prevention programs in our schools 
and communities. Even for children blessed with dedicated, concerned 
parents, these school- and community-based programs are vitally 
important. Indeed, according to the 1999 PRIDE survey, students who 
never or seldom join in community activities are 52.6% more likely to 
use drugs.
    Additionally, students who report never taking part in gangs are 
90.8% less likely to use drugs. It is clear that the more children hear 
the truth about what drug abuse and addiction can do to them, the more 
likely they will turn their backs on drug use and lead productive 
lives.
    I don't know if there is any law that can stop a teenager from 
saying ``yes'' to that first puff of a marijuana joint, that first line 
of cocaine, that first tab of ecstasy, or that first injection of 
heroin.
    If I knew what this law were, I would dedicate my career to passing 
it as, I am sure, would every Senator of this Committee . The fact is 
there is no magical or simple answer to this problem. That means we all 
must redouble our efforts to do everything we can to decrease the odds 
that our youth will fall prey to drug abuse and increase the odds that 
they will live healthy, productive lives.
    This legislation marks a sustained commitment to prevention and 
education. The bill, for instance, provides resources to public and 
nonprofit private entities to carry out school-based programs about the 
dangers of using illicit drugs. It would also provide counseling, 
training, and mentoring services to America's most at-risk children-
those in lowincome and high-crime communities who have a parent or 
legal guardian who is in jail or prison.
    Another important provision of this bill answers the call to treat 
drug addicts while they are under the supervision of our criminal 
justice system. As many Americans have come to realize, a large number 
of criminals commit crimes to feed their drug habits, and if we can 
break the addiction, we will see a significant increase in public 
safety. It makes sense, then, to devote resources to treating criminal 
addicts before they are turned loose on our streets.
    Of course, there are some who believe we will never be able to 
conquer drug abuse and the only answer is to legalize drugs. I, along 
with a strong majority of the American population, do not buy into this 
unfortunate rhetoric.
    We need to remain steadfast in our commitment to enforcing our 
laws, while at the same time investing in programs that are 
compassionate and offer those addicted to drugs an opportunity to 
return to society in a productive manner.
    I look forward to hearing from our panelists their suggestions, 
based on their own experience and expertise, about what works, what 
doesn't, and what can be done. In particular, I am interested in 
listening to any suggestions you may have for Senator Leahy and me to 
improve this legislation.

    Chairman Hatch. Senator Leahy, we will turn to you.

  STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM THE 
                        STATE OF VERMONT

    Senator Leahy. Thank you very much, Mr. Chairman. I agree 
with you that the hearings we are holding today are important, 
not just because we are focusing on the Drug Abuse Education, 
Prevention, and Treatment Act, the bill that you and I 
introduced along with Senators Biden, DeWine, and Thurmond--
probably as broad a political spectrum as any legislation that 
will be introduced this year, and that shows that the Committee 
has reached a bipartisan consensus that we need a comprehensive 
approach to our drug problems.
    I have long supported efforts to reduce the demand for 
drugs. I was struck, though, in the film ``Traffic'' when the 
drug czar, played by Michael Douglas, questioned the lack of 
emphasis placed on drug treatment. I know a number of members 
of the Senate proved their acting ability and Academy Award 
stature in that--
    Chairman Hatch. I wasn't acting.
    [Laughter.]
    Chairman Hatch. That is why they accepted it. I wasn't 
acting.
    Senator Leahy. I was glad to see that your language was 
better than some in the film, Mr. Chairman, not that I would 
expect otherwise.
    Chairman Hatch. Thank you.
    Senator Leahy. To be serious for a moment, though, and this 
is a comment that I hear all over my own State of Vermont, the 
question was how can we fight a war on drugs when the enemies 
are drug users who are members of ordinary American families. 
It is like when we tell Colombia you have got to stop growing 
coca, but yet in this the most wealthy nation on Earth we are 
willing to spend billions upon billions of dollars to buy it. 
It is almost as though we blame other people for our problem.
    In his recent visit to Mexico, President Bush frankly 
admitted that the reason that drugs are trafficked into the 
United States from Mexico is because there is a strong demand 
among Americans for the product. Law enforcement does an 
excellent job in combatting drug abuse, but law enforcement 
can't solve this problem by itself. We have to acknowledge that 
only a three-pronged approach, involving treatment and 
prevention and law enforcement, can work.
    No community is immune from the ravages of drug abuse. I 
spent an evening recently in one of the small cities in 
Vermont. I talked with 200 Vermonters in the city of Rutland. 
We talked about the pressing problem in my State of heroin. 
Vermont has one of the lowest crime rates in the Nation, but we 
are experiencing serious problems because of drug abuse. We 
sometimes think of a State like ours as being an idyllic Norman 
Rockwell type of place, but we show that no part of America is 
immune.
    I was pleased that so many Vermonters--parents and students 
and teachers and concerned community members, as well as 
professionals from our State's prevention, treatment, and 
enforcement communities, and addicts--came out and participated 
in this town meeting discussion about the way Vermont's heroin 
problem is affecting our lives.
    A woman named Siobahn Bosely courageously shared the story 
of her addiction to heroin and how she overcame it. She 
expressed her strong support for methadone, a treatment that 
helped get her life back on track. By participating in this 
methadone treatment program, she was able to have a child that 
did not have a heroin addiction, and she now lives free of the 
drug.
    The bill that Senator Hatch and I have introduced will help 
women like Ms. Bosely by funding residential drug treatment 
centers for mothers so that women can get treatment, but also 
raise their children at the same time, something that is a 
reality in parts of our country.
    We were also joined at the town meeting by representatives 
of one of Vermont's few treatment programs, who explained how 
difficult it is for Vermonters who need treatment to find it. 
We will address that problem by devoting resources to improving 
treatment in rural States and in economically depressed areas.
    Law enforcement officials, including State police officers, 
local sheriffs, and police chiefs, said that we need both to 
increase support for law enforcement and to do more to assist 
prevention and treatment efforts. As one who served 8 years in 
law enforcement, I know exactly what they are saying.
    Teachers and school counselors asked at the meeting for 
greater support of prevention and education programs in our 
schools. I believe we should increase our efforts both to 
educate our young people about the dangers of drugs and to 
provide after-school programs to keep our kids busy. This bill 
will do both.
    I invited Edyie Hewitt, one of the people who spoke at the 
town meeting, to testify here today about how treatment 
opportunities have fallen far short of our needs in Vermont. 
She spoke about that, and we also had the Governor of our 
State, a medical doctor, sitting there listening, too.
    As the Rutland Daily Herald editorialized a few months ago, 
``Agencies that treat addictions'' need ``a boost in resources 
and manpower.'' Those who work to prevent drug abuse from 
occurring in the first place need our strong support.
    I invited the Commissioner of Public Safety of Vermont, 
James Walton, here to testify about how treatment and 
prevention programs can assist law enforcement in its critical 
duties. He has been a tremendous help to Vermont by being 
supportive of a comprehensive approach to our drug problems in 
the past. I worked with his office when we developed this bill, 
and I thank him for being here.
    The Drug Abuse Education, Prevention, and Treatment Act 
contains numerous grant programs to aid States and local 
communities. Of particular interest to residents of my State--
and it would be the same, Senator Hatch, in rural parts of your 
State or, Senator Durbin, the rural parts of yours--is that it 
establishes drug treatment grants for rural States and 
authorizes money for residential treatment centers for mothers 
addicted to heroin, methamphetamines, or other drugs.
    This legislation helps States and communities reduce drug 
use in prisons through testing and treatment, an effort I 
proposed in the Drug-Free Prisons Act which was introduced last 
year. It would authorize drug courts, another step I proposed 
in the Drug-Free Prisons Act, and juvenile drug courts.
    Finally, the bill directs the Sentencing Commission to 
review and amend penalties for a number of drug offenses 
involving children. It instructs the Sentencing Commission to 
amend its guidelines to provide for a necessary sentencing 
enhancement for criminals who distribute drugs to minors in 
order to lure a minor into prostitution or keep them in such 
criminal activity.
    Instead of imposing mandatory minimums, however, we have 
invested discretion in the Sentencing Commission to determine 
appropriate penalties. A study by the RAND Corporation found 
that mandatory minimum drug sentences are not justifiable on 
the basis of cost-effectiveness at reducing cocaine 
consumption, cocaine expenditures, or drug-related crime.
    I am concerned about this because it is very easy for us 
all to say we are tough on crime, we are against crime, as 
though anybody is going to be for crime. But sometimes just the 
arbitrary sentences that we as legislators have imposed have 
backfired. We continue to propose additional mandatory minimums 
even though we find mounting evidence of prison overcrowding 
and we find that in many States the costs of keeping the 
prisons are crowding out money for schools and other things. So 
we asked for a new study of this issue, including whether 
mandatory minimums have a disproportionate impact on any racial 
or ethnic groups.
    Finally, I would like to comment on the inclusion of 
charitable choice language in this legislation to allow 
religious groups to compete. Although the language in this bill 
mirrors language that has previously passed Congress, I have 
some serious reservations about it, and some of my colleagues 
share those reservations. I applaud Chairman Hatch for agreeing 
to hold a hearing on charitable choice next month, and we can 
look closer into that.
    I would like to place, Mr. Chairman, a number of items in 
the record--Jan Carney, the Vermont Commissioner of Health, her 
comments, and an op ed piece written by Joseph Califano.
    Chairman Hatch. Without objection, we will put those in the 
record.
    In fact, we will put the statement of Hon. Joseph A. 
Califano, Jr., before the Senate Judiciary Committee of today's 
date--he is out of the country and wanted to testify, so we 
will put his statement in the record.
    In the editorial that appeared in the Washington Post, 
Secretary Califano said, ``In research, we need a national 
institute on addiction that combines the current fragmented 
institutes on drug abuse, illegal drugs, nicotine, and alcohol 
abuse and alcoholism. Such a combination would strengthen our 
research efforts and provide a better return for our tax 
dollars.''
    I hope that our colleagues who testify here today will 
address that particular suggestion because we do have NIDA, the 
National Institute on Drug Abuse, and SAMHSA, the Substance 
Abuse and Mental Health Services Administration, and we might 
want to find some way of making those even more effective in 
this area than they are today.
    I would like to introduce our first panel of witnesses. 
This panel will discuss how drug treatment, education, and 
prevention fit into the Federal Government's comprehensive 
approach to the war on drugs.
    We are very pleased to have on our first panel of witnesses 
Donnie Marshall, the Administrator of the United States Drug 
Enforcement Administration. Mr. Marshall began his law 
enforcement career in 1969 as a special agent with the Bureau 
of Narcotics and Dangerous Drugs, the predecessor agency of the 
DEA. After a distinguished career as an agent, Mr. Marshall was 
confirmed last year as Administrator of the Drug Enforcement 
Administration, making him the first DEA agent to climb through 
the ranks to become head of the Administration. In my opinion, 
we are very fortunate to have him running the DEA, and I want 
to thank him in particular for rearranging his busy schedule in 
order to testify at today's hearing.
    We would also like to welcome Paul Warner, who is one of 
the great United States Attorneys. He is the United States 
Attorney for Utah. Mr. Warner's aggressive efforts to prosecute 
drug cases and gang crime, as well as his willingness to 
embrace alternative solutions such as drug courts and drug 
treatment programs, have resulted in a significant decrease in 
the rate of drug-related crime in my home State of Utah. We are 
very proud of the work that he is doing there and that he has 
done.
    Finally, we would like to welcome Dr. Alan Leshner, 
Director of the National Institute on Drug Abuse at the 
National Institutes of Health. Dr. Leshner's institute supports 
over 85 percent of the world's research on the health aspects 
of drug abuse and addiction. Dr. Leshner has been director of 
the institute since February 1994, a tenure that has been 
marked by authoritative research into the cause of drug abuse 
and creative approaches toward the treatment of drug addiction.
    So we say good morning to each of you and welcome you to 
our hearing on ``Treatment, Education, and Prevention: Adding 
to the Arsenal in the War on Drugs.''
    Mr. Marshall, we will take you first.

     STATEMENTS OF DONNIE R. MARSHALL, ADMINISTRATOR, DRUG 
    ENFORCEMENT ADMINISTRATION, UNITED STATES DEPARTMENT OF 
                   JUSTICE, WASHINGTON, D.C.

    Mr. Marshall. Thank you, Senator Hatch, Senator Leahy, 
members of the Committee, and thanks for the invitation to be 
here. Good morning. I really think it is a very important 
opportunity for me to share my views on drug education, 
prevention, and treatment, and how that relates and interacts 
with law enforcement.
    I also want to thank you, Mr. Chairman, you, Senator Leahy, 
and this entire Committee for your unyielding support to the 
courageous men and women of the Drug Enforcement Administration 
and to drug law enforcement in general. I want to thank the 
Committee also for previous legislation that has given us many 
of the tools that we need to do a better job in carrying out 
our mission.
    Our mission, of course, is primarily to enforce the 
controlled substances laws and to bring to justice those people 
responsible for poisoning the citizens of this country. But I 
have very long said and very vocally said that this fight 
cannot be won through law enforcement alone. There must be a 
holistic approach to what I think is a very complex global 
problem.
    I would like to submit for the record an op ed piece which 
I wrote for the Dallas Morning News in October of 2000 which 
outlines in a bit more detail than I have time for here my 
viewpoints on this holistic approach.
    Chairman Hatch. Without objection, we will put that in the 
record.
    Mr. Marshall. DEA has in place a 5-year strategic plan that 
addresses the problems posed by illicit drug availability and 
abuse, and provides for a comprehensive and balanced approach. 
There is no doubt that interdiction and enforcement, coupled 
with education, prevention, and treatment, are, in fact, the 
vital, essential elements for reducing illegal drug supply and 
demand in this country.
    Now, there are a lot of people in this country perhaps who 
would argue that demand drives supply. But from my perspective, 
the equation is really not quite that simple. I am the first to 
admit that as a law enforcement person I have some very strong 
feelings in that regard, but I also know that I am not alone in 
my belief in strong law enforcement.
    I want to take just a moment to share with you a quote from 
a Johns Hopkins-trained historian, Jill Jonnes. Ms. Jonnes has 
devoted a lot of years of her life to studying America's 
experience with drug abuse and she reported those findings in a 
very good book a couple of years ago, a book called Hep-Cats, 
Narcs, and Pipe Dreams. She wrote, and I quote, ``The first and 
foremost factor that affects the levels of drug use is 
availability. Drugs like opiates and cocaine are so seductive 
that supply alone creates demand.''
    What she learned through years of research is kind of a 
similar conclusion that many drug agents have come to through 
years of experience, and that is that to a very large degree 
supply does drive demand. Where drugs are available, abuse and 
addiction always rise. We have seen that phenomenon with 
Colombian and Mexico-based traffickers. They have used that 
concept to drive demand. They marketed Colombian heroin very 
aggressively during the mid-1990's, and many new users were 
drawn to that heroin because the high purity led to the fact 
that it could be inhaled rather than injected. They thought it 
wouldn't be addictive, but very soon they ended up as common 
junkies.
    We have seen the same phenomenon with the club drug 
ecstasy, which is aggressively marketed as a harmless love 
drug. And, in fact, the promoters of that drug are setting up 
parties which are advertised as alcohol-free, but in reality 
they are venues where ecstasy and other drugs are openly sold.
    Now, I want to reiterate--and I will be brief; I see the 
red light is on--there is no single solution to this very 
complex challenge that we face. This is going to take entire 
communities working together and realizing that it is 
everyone's responsibility.
    Personally, for my part, on the demand side I volunteer in 
the Boy Scouts of America's law enforcement Explorer program 
and in traditional scouting, and I see firsthand how dedicated 
prevention strategies can positively affect our youth. Parents, 
teachers, religious community leaders, as well as law 
enforcement play a vital role in our National drug prevention 
strategy.
    I mentioned earlier that DEA's primary mission is law 
enforcement. Education, prevention, and treatment are long-term 
solutions, and law enforcement must remain a strong partner for 
this approach to have a positive impact. I look forward to 
working with this Committee, with the entire 107th Congress, 
and with our new administration in helping to minimize the 
burden that has been placed on our society by this tragic 
issue.
    Thank you.
    [The prepared statement of Mr. Marshall follows:]

     Prepared Statement of Donnie R. Marshall, Administrator, Drug 
         Enforcement Administration, U.S. Department of Justice

    Chairman Hatch, Ranking Member Leahy, and Members of the Committee, 
good morning and thank you for the opportunity to appear before the 
Committee regarding Treatment, Education and Prevention. Mr. Chairman, 
I would like to begin by thanking you and the Committee for your 
unyielding support of the Drug Enforcement Administration (DEA) and to 
drug law enforcement as a whole. And also to thank you and the 
Committee for previous legislation that has given us the tools to carry 
out our mission.
    DEA's primary mission is to enforce the controlled substance laws 
and to bring to justice those responsible for poisoning the citizens of 
this country, but I have long said this fight can not be won through 
law enforcement alone. There must be a ``holistic `` approach to a 
global problem. DEA has in place a five-year strategic plan, which 
addresses the problems posed by illicit drug availability and abuse and 
provides for a comprehensive balanced approach. There is no doubt that 
interdiction and enforcement, coupled with education, prevention and 
treatment, are the essential elements for reducing the supply and 
demand of illicit drugs in this country.
    Many will argue that demand drives supply. But the equation is not 
quite that simple. I am the first to admit that I have very strong 
feelings in this regard. And I also know that I am not alone in my 
belief in strong law enforcement. I would like to take a moment to 
share with you, a quote from Johns Hopkins trained historian, Jill 
Jonnes. Ms. Jonnes has devoted many years of study to America's 
experience with drug abuse and reported her findings in the book, Hep-
Cats, Narcs, and Pipe Dreams. She wrote ``the first and foremost factor 
that affacts the levels of drug use is availability. Drugs like opiates 
and cocaine are so seductive that supply creates demand.''
    What she learned through years of research is the same conclusion 
that virtually any drug enforcement agent has drawn through years of 
experience. To a very large degree, supply does drive demand. Where 
there are drugs, abuse and addicition always.
    Colombian and Mexican-based traffickers used this concept of supply 
driving demand when they aggressively marketed low prive, high purity 
Colombian heroin during the mid-90s. Many people were drawn to herein 
use because this high purity heroin could be inhaled or snorted in a 
similar fashion as cocaine. Since they wee not using needles many were 
naive enough to think it would not become addictive. They found, 
however, that it was addictive and soon became traditional junkies. 
THis heroin had a profound impact on East Coast metropolitan areas 
where we observed an increase in heroin-related deaths.
    Similarly, the club drug, Ecstasy is being marketed as the ``Love 
Drug''. The 2000 ``Monitoring the Future Study'' shows in 1999 and 
again in 2000, exstasy use among 10<SUP>th</SUP> and 12<SUP>th</SUP> 
graders rose sharply, bringing annual prevalence up to 5.4% among 
10<SUP>th</SUP> graders and 8.2% among 12<SUP>th</SUP> fraders. This 
study also revealed use among 8<SUP>th</SUP> graders rose to 3.1%. 
Unscrupulous promoters are setting up parties known as ``Raves'' which 
are advertised as alcohol- free, but in reality are venues where 
Ecstasy and other club drugs such as GHB and Rohypnol can be easily 
purchased by misinformed teenagers.
    Even if the well informed are less inclined to abouse drugs, the 
young people of our nation continue to be adversely affected by their 
mere presence in the drug trafficking arena. El Paso Intelligence 
Center (EPIC) statistics revealed that in 1999, 921 children were 
present at clandestine laboratory seizures. In 2000, this figure rose 
to 1,362. As you are aware, clandestine laboratory operators utilize 
hazardous and explosive chemicals, which put innocent children at great 
risk. As our most precious commodity, our children deserve every 
safeguard possible.
    There is no single solution to the complex challenge we currently 
face in reducing drug abuse. This will take entire communities working 
together; realizing it is everyone's responsibility. I personally 
volunteer in the Boy Scouts of America's Explorer Program and in 
traditional Scouting. I see firsthand how dedicated prevention 
strategies can positively affect our youth. Parents, teachers, 
religious and community leaders as well as law enforcement officers 
have a role to play in our national drug prevention strategy.
    Even though DEA is an enforcement agency we have a small but 
excellent Demand Reduction Program that focuses on drug prevention, 
education, and awareness. We have established a proactive program, 
which educates community leaders about current drug threats and 
provides information on prevention and perception as it relates to 
adolescent drug use.
    In closing I would like to reiterate what I stated earlier in this 
testimony and on many other occasions. And that is my strong support 
for a ``holistic'' approach to the drug problem. This involves a 
partnership of enforcement, prevention, education and treatment. I also 
mentioned earlier that DEA's primary mission is enforcement. Education, 
prevention and treatment are long term solutions and law enforcement 
must remain a strong partner for this approach to have a positive 
impact.
    I look forward to working with you and 107<SUP>th</SUP> Congress, 
as well as our new Administration, in minimizing this burden that has 
been placed on our society. Thank you.

    Chairman Hatch. Thank you, Mr. Marshall.
    Mr. Warner, we will turn to you.

 STATEMENT OF PAUL M. WARNER, UNITED STATES ATTORNEY, DISTRICT 
                 OF UTAH, SALT LAKE CITY, UTAH

    Mr. Warner. Thank you, Mr. Chairman. Good morning, Mr. 
Chairman, Senator Leahy, and members of the Committee. I have 
the honor of being the United States Attorney for the District 
of Utah. I greatly appreciate the opportunity to testify before 
the Committee on the subject of prevention, education, and 
treatment in the area of drug abuse. My comments will be from a 
prosecutor's perspective who has been dedicated to enforcing 
the Nation's drug laws.
    At the outset, I believe it is important to note that I am 
a prosecutor, not a social worker. I am also not a physician or 
a professional educator. These are not my areas of expertise 
and I claim none, as such. Nevertheless, I have been a 
prosecutor for a quarter of a century, working in the military, 
State and Federal systems. I do have a solid background in 
dealing with our Nation's drug problem from a criminal 
enforcement perspective.
    I believe it is both fair and safe to say that we will 
never prosecute our Nation's drug problem out of existence. We 
have tried to do that since the 1960's and we have yet to 
succeed. Yet, I hasten to add that vigorous and aggressive 
criminal prosecution of illegal drug activity in our country 
should continue to remain as a cornerstone of our National drug 
control strategy and policy.
    Legalization of drugs simply is not the answer and sends 
the wrong message. Nevertheless, my experience suggests that a 
multidisciplinary approach to our Nation's drug problem holds 
the greatest hope for success. This would include active and 
coordinated programs of prevention, education, and treatment, 
rehabilitation, and criminal enforcement.
    While prevention, education, and treatment programs may be 
the carrot, criminal enforcement remains the stick. I believe 
both the carrot and the stick are necessary for an effective 
drug reduction program. This is the principle behind a very 
successful State drug court program that is operating in Salt 
Lake City. Drug-addicted individuals are given the opportunity 
of participating in education and treatment programs, but they 
know that if they fail to successfully participate in and 
complete such programs, the hammer of the criminal law sanction 
is hanging over their heads. The reality is that such an 
approach is often necessary to keep addicted people away from 
drugs long enough for them to overcome their problems.
    Sadly, we regularly see repeat drug offenders in the 
criminal justice system. Mere incapacitation through 
incarceration only temporarily solves the problem. Recidivism 
rates are extremely high upon release from prison. Drug-
addicted individuals often quickly return to drug use and find 
themselves back in the revolving door of the criminal justice 
system. Treatment and rehabilitation programs could 
significantly help in breaking this tragic cycle of drug abuse.
    At the same time, I must caution that there are those in 
our country who are simply looking at the drug trade as a 
lucrative business. They sell their misery with no thought, 
safe it be for huge profits. For those individuals, lengthy 
prison sentences still make good sense.
    Please keep in mind that most criminal investigative and 
prosecutive resources in our Nation go to the supply side of 
our country's drug problem. We are going after those who 
produce, provide, and traffic illegal drugs, for which there is 
seemingly an unending demand. Prevention, education, and 
treatment programs would go a long way toward reducing the 
demand for these illegal drugs. If we are going to effectively 
fight the drug problem in our Nation, it is my belief that both 
supply and demand must be attacked.
    Many of us in the criminal justice system who have been 
around for a while have received letters and calls from people 
we have prosecuted for drug offenses. They write to thank us 
for putting them in prison. That may sound almost unbelievable, 
but they tell us that they probably would have been dead 
because of their drug abuse but for the treatment and 
rehabilitation programs they received while in prison.
    Unfortunately, there are far too few of these quality 
programs to go around. Therefore, not everyone who goes to 
prison for drug-related crimes gets the help they need and they 
become part of the revolving door cycle I previously described. 
How much better and cheaper it would be to have quality 
education and prevention programs in our schools and elsewhere, 
hopefully stopping the problem before it ever gets started. 
Likewise, treatment options need to be provided to those 
already addicted.
    In conclusion, Mr. Chairman, I have unfortunately seen far 
too many lives ruined by the scourge of illegal drugs. Many of 
those people could have greatly benefited from appropriate 
prevention, education, and treatment programs. It is my strong 
belief that integrating these programs into our National drug 
control strategy, while maintaining a vigilant and aggressive 
prosecution component, provides us with our greatest 
opportunity of success in fighting our Nation's drug problems.
    Thank you, Mr. Chairman, and I would be pleased to answer 
questions at the appropriate time.
    [The prepared statement of Mr. Warner follows:]


Statement of Paul M. Warner, United States Attorney for The District of 
                                  Utah

    Good morning, Mr. Chairman, Senator Leahy, and Members of the 
Committee. And thank you, Chairman Hatch, for that kind introduction. I 
have the honor of being the United States Attorney for the District of 
Utah, and I greatly appreciate the opportunity to testify before the 
Committee on the subject of prevention, education, and treatment in the 
area of drug abuse. My comments will be from a prosecutor's prospective 
who has been dedicated to enforcing the nation's drug laws. At the 
outset I believe it is important to note that I am a prosecutor, not a 
social worker. I am also not a physician or a professional educator. 
These are not my areas of expertise, and I claim none as such. 
Nevertheless, I have been a prosecutor for a quarter of a century, 
working in the military, state, and federal systems. I believe I do 
have a solid background in dealing with our nation's drug problem from 
a criminal enforcement perspective.
    I believe it is both fair and safe to say that we will never 
prosecute our nation's drug problem out of existence. We have tried to 
do that since the 1960's, and we have yet to succeed. Yet, I hasten to 
add that vigorous and aggressive criminal prosecution of illegal drug 
activity in our country should continue to remain as a cornerstone of 
our national drug control strategy and policy. Legalization of drugs 
simply is not the answer and sends the wrong message. Nevertheless, my 
experience suggests that a multi-disciplinary approach to our nation's 
drug problem holds the greatest hope for success. This would include 
active and coordinated programs of prevention, education, treatment, 
rehabilitation, and criminal enforcement. While prevention, education, 
and treatment programs may be the carrot, criminal enforcement remains 
the stick.
    I believe both the carrot and the stick are necessary for an 
effective drug reduction program. This is the principle behind a very 
successful state drug court program that is operating in Salt Lake 
City. Drug addicted individuals are given the opportunity of 
participating in education and treatment programs, but they know that 
if they fail to successfully participate and complete such programs, 
the hammer of the criminal law sanction is hanging over their heads. 
The reality is that such an approach is often necessary to keep 
addicted people away from drugs long enough for them to overcome their 
problems.
    Sadly, we regularly see repeat drug offenders in the criminal 
justice system. Mere incapacitation through incarceration only 
temporarily solves the problem. Recidivism rates are extremely high 
upon release from prison. Drug addicted individuals often quickly 
return to drug use and find themselves back in the revolving door of 
the criminal justice system. Treatment and rehabilitation programs 
could significantly help in breaking this tragic cycle of drug abuse. 
At the same time, I must caution that there are those in our country 
who are simply looking at the drug trade as a lucrative business. They 
sell their misery with no thought save it be for huge profits. For 
those individuals, lengthy prison sentences still make good sense.
    Please keep in mind that most criminal investigative and 
prosecutive resources in our nation go to the supply side of our 
country's drug problem. We are going after those who produce, provide, 
and traffic in illegal drugs, for which there is seemingly an unending 
demand. Prevention, education, and treatment programs would go a long 
way towards reducing the demand for these illegal drugs. If we are 
going to effectively fight the drug problem in our nation, it is my 
belief that both supply and demand must be attacked.
    Many of us in the criminal justice system who have been around for 
a while have received letters and calls from people we have prosecuted 
for drug offenses. They write to thank us for putting them in prison. 
That may sound almost unbelievable. But they tell us that they probably 
would have been dead because of their drug abuse, but for the treatment 
and rehabilitation programs they received while in prison. 
Unfortunately, there are far too few of these quality programs to go 
around. Therefore, not everyone who goes to prison for drug related 
crimes gets the help they need, and they become part of the revolving 
door cycle I previously described. How much better and cheaper it would 
be to have quality education and prevention programs in our schools and 
elsewhere, hopefully stopping the problem before it ever gets started. 
Likewise, more treatment options need to be provided to those already 
addicted.
    In conclusion, Mr. Chairman, I have unfortunately seen too many 
lives ruined by the scourge of illegal drugs. Many of these people 
could have greatly benefitted from appropriate prevention, education, 
and treatment programs. It is my strong belief that integrating these 
programs into our national drug control strategy, while maintaining a 
vigilant and aggressive prosecution component, provides us with our 
greatest opportunity of success in fighting our nation's drug problems.
    Thank you, Mr. Chairman. I would be pleased to answer any questions 
from the Committee at this time.

    Chairman Hatch. Thank you, Mr. Warner.
    Dr. Leshner, we are looking forward to hearing your 
testimony.

 STATEMENT OF ALAN I. LESHNER, DIRECTOR, NATIONAL INSTITUTE ON 
DRUG ABUSE, NATIONAL INSTITUTES OF HEALTH, DEPARTMENT OF HEALTH 
              AND HUMAN SERVICES, WASHINGTON, D.C.

    Mr. Leshner. Good morning, Mr. Chairman and members of the 
Committee. I am really delighted to be here and to have an 
opportunity to discuss how recent tremendous advances in 
science are beginning to bring us as a Nation to a more 
sophisticated and effective discussion about how to deal with 
drug abuse and addiction. I am particularly pleased to say that 
at last science, rather than ideology or intuition, is 
beginning to drive the national discourse on these issues.
    NIDA's comprehensive research portfolio has brought us an 
array of impressive tools, both for prevention and for 
treatment. For example, there are a variety of studies that 
have shown us that drug addiction and treatment can be 
effective in reducing drug use by up to 60 percent, reducing 
criminal behavior by 40 percent or more, and reducing the 
spread of infectious disease.
    Those kinds of findings and the mechanisms for implementing 
them are more and more being put to use and practice, and more 
and more being used to inform policy. As just one example, a 
very broad array of scientific findings is fueling the blending 
of public health and public safety approaches that is moving us 
toward developing more comprehensive strategies that I believe 
will more effectively help us deal with this problem throughout 
this country.
    I would like to make a comment about treatment, in 
particular. I think it is very important for everyone to 
understand that treatments for addiction have been found to be 
just as effective as treatments for other chronic, relapsing 
diseases such as asthma, hypertension, and diabetes.
    Comprehensive analysis was published in October in the 
prestigious Journal of the American Medical Association that 
made this case extremely well. When the investigators compared 
success rates, treatment compliance, dropout rates, and relapse 
rates among these illnesses, they found them all to be 
virtually the same for addiction as for these other disorders. 
Providing treatment for addicts is not only the right thing to 
do, but it also serves as a preventive measure for the public 
health and public safety consequences that so often accompany 
addiction.
    Recognizing addiction as a chronic, relapsing disease of 
the brain emphasizes why not just anything called treatment 
will do. To truly reap the personal and societal benefits of 
treatment, it must be comprehensive and must attend to the 
whole person and not just the individual's drug use. Treatment 
must adhere to science-based principles, whether it is being 
delivered in a community setting or a criminal justice setting.
    Continuous care opportunities across the recovery process 
is also crucial for success. This is particularly relevant in 
criminal justice settings. Studies in Delaware and elsewhere 
have found that treating drug users while they are under 
criminal justice control and providing treatment and other 
services as they transition to the community can reduce drug 
use and later recidivism to criminality by 50 to 70 percent. 
Importantly, if the after-care component is left out, the 
effects of treatment virtually disappear.
    NIDA-supported research is not only helping us deal with 
already addicted individuals, but is also improving our ability 
to prevent the initial voluntary act of taking drugs. I won't 
take time now to go through an array of recent findings, but I 
think most people know that in 1997 we published the first-ever 
``Science-Based Guide to Drug Addiction and Treatment.'' And 
just in the short time since then, enough new findings about 
how to effectively prevent drug abuse and addiction have been 
generated. In August of this year we will hold the next major 
national research conference on prevention that will lead to 
the update of this very widely used set of guidelines.
    I would like to say, however, that we do have an array of 
effective prevention programs in place. We do know how to do 
this, but we do have to adhere to science-based principles.
    Without taking any longer--I see the red light--my written 
statement contains a long array of examples of how science is 
changing the national discourse and how it is giving us the 
tools by which we as a society can develop real-life practical 
solutions to reduce the devastating and costly effects caused 
by drug abuse and addiction for all Americans.
    I thank you, Mr. Chairman.
    [The prepared statement of Mr. Leshner follows:]

 Statement by Alan I. Leshner, Ph.D., Director, National Institute on 
  Drug Abuse, National Institutes of Health, Department of Health and 
                             Human Services

    Mr. Chairman, and Members of the Committee, it is a great pleasure 
to be here today to share with you what we have been learning from 
science about the nature of drug abuse and addiction, and their 
prevention and treatment. Scientific advances supported by the National 
Institute on Drug Abuse (NIDA) are coming at an extraordinary rate and 
are significantly influencing the way this Nation approaches drug abuse 
and addiction. We are seeing science, rather than ideology, intuition, 
or common sense, beginning to drive the national discourse on these 
issues.
    As you and members of this Committee are well aware, drug abuse and 
addiction take a tremendous toll on our Nation and their consequences 
are pervasive throughout every aspect of society. Drug use is a major 
factor in crime and delinquency, and in some communities, drug use is 
now the major vector for the spread of HIV/AIDS, tuberculosis and 
hepatitis. The good news in this grim and extremely costly scenario is 
that scientific advances both in the laboratory and in the clinical 
setting are providing us with tools to slow the drain of drugs on 
society. For purposes of today's discussion, my comments will be 
directed to all substances of abuse with the exception of alcohol, 
whose purview is that of another NIH Institute.
    Research has brought us to the conclusions that drug abuse is a 
preventable behavior and that addiction is an eminently treatable 
disease. We have gained greater insight into why people use drugs in 
the first place. For example, we now know there are at least two major 
categories of drug users, and, importantly, they are clearly 
distinguishable. One group includes people who are simply novelty 
seekers, using drugs solely for their sensational effects. The second 
group is using drugs as if they are anti-anxiety or antidepressant 
substances, trying to compensate for untreated mental disorders like 
depression or for terrible living situations such as dysfunctional 
families. The prevention and treatment approaches directed at each 
group differ significantly. For individuals selfmedicating, for 
example, attention must be paid to the underlying mental disorder or 
emotional state, as well as to the substance of abuse. Similarly in 
prevention, messages must be developed that are targeted to the 
individual's motivation to use drugs.
    We have learned in tremendous specificity the biological mechanisms 
by which drugs of abuse exert their psychoactive effects. Two decades 
of research have spelled out in great detail the brain mechanisms by 
which each drug of abuse changes mood, perception, or emotional state. 
Moreover, although each drug has its unique way of changing the brain, 
they all also share critical common characteristics. Virtually every 
drug of abuse, including nicotine, marijuana, cocaine, heroin, and 
methamphetamine, elevates levels of the neurotransmitter dopamine in 
the brain pathways that control the experience of pleasure.
    Prolonged use of these drugs eventually changes the brain in 
fundamental and longlasting ways, explaining why people cannot just 
quit on their own, why treatment is essential. In effect, drugs of 
abuse take over, or ``highjack'' the brain's normal pleasure and 
motivational systems, moving drug use to the highest priority in the 
individual's motivational hierarchy, which overrides all other 
motivations and drives. These brain changes, then, are responsible for 
the compulsion to seek and use drugs that we have come to define as 
addiction. Moreover, these brain and behavioral changes persist long 
after the individual has stopped using drugs. As one example, just last 
week, researchers reported in the American Journal of Psychiatry that 
methamphetamine abusers who were drug-free for up to eleven months 
still had significant memory and coordination deficiencies that were 
directly tied to brain changes produced by their prior drug use. (SEE 
FIGURE I)
    Findings like these not only increase our understanding of 
addiction but also help point us to even more effective new treatments. 
In fact, NIDA has already developed and brought to the clinic an array 
of both behavioral and pharmacological treatments for addiction and has 
demonstrated their effectiveness in clinical trials. Numerous studies 
have shown that addiction treatments are just as effective as those for 
other illnesses. One very important analysis recently published in the 
Journal of the American Medical Association (JAMA, October 4, 2000) 
clearly shows that addiction treatments work just as well as treatments 
for other chronic, relapsing illnesses such as asthma, hypertension, 
and diabetes. In this analysis, treatment compliance, drop-out rates, 
and relapse rates were similar for all four diseases. In short, 
addiction treatment success rates are comparable to those for other 
chronic illnesses.
    Our research also shows that comprehensive treatments that focus on 
the whole individual, and not just on drug use, have the highest 
success rates. These programs provide a combination of behavioral 
treatments, medications, and other services, such as referral to 
medical, psychological, and social services. The array of services 
provided must be tailored to the needs of the individual patient.
    Scientific discoveries are also fueling the development of more 
successful strategies to deal with addicted criminal offenders. The 
core phenomenon is that untreated addicted offenders have extremely 
high rates of post-release recidivism both to drug use and to 
criminality. However, providing science-based treatments while 
offenders are under criminal justice control can dramatically reduce 
recidivism, again both to drug use and to later crime. Thus, 
understanding addiction as a treatable, chronic illness has beneficial 
ramifications for our national drug control efforts. The blended public 
health/public safety approach of dealing with addicted offenders 
benefits not only the patient, but the family and community as well.
    Perhaps the most visible example of the blending of public health 
and public safety approaches can be seen by the growing number of drug 
courts that have been established over the years. More than 600 drug 
courts, which mandate and arrange for treatment, monitor progress, and 
arrange for other necessary services as needed, are currently operating 
across the country. NIDA is currently supporting research that is 
looking at the effectiveness of some of the different drug court 
approaches that are being utilized.
    To truly reap the benefits of this blended public health/public 
safety approach it is imperative that we adhere to science-based 
principles of effective drug treatment. Not just anything called 
treatment will do. For example, studies in states such as Delaware and 
New York have shown that comprehensive treatment of drug-addicted 
offenders, when coupled with treatment after release from prison, can 
reduce drug use by 50 to 70% when compared to those who are untreated. 
Treated offenders are also 50-60% less likely to end up back in prison. 
These findings hold true for at least four years after release. 
However, if the after-care component is left out, the effects of in-
prison treatment are dramatically reduced. In addition, the treatment 
provided must be comprehensive. It must attend to all the needs of the 
individual and help return him or her to becoming a fully productive 
member of society. This means that a continuum of care is crucial for 
success, including offering treatment and services to individuals as 
they transition to the community. .
    In the same way that we have developed and sent to the field 
general principles that define effective addiction treatment, we are 
now laying out the principles of effective corrections-based treatment 
which should be available within the year. In the interim, we recommend 
that the corrections systems use our widely acclaimed publication 
Principles of Effective Drug Addiction Treatment as a guide in 
developing and evaluating programs.
    Research has also shown that drug addiction treatment programs that 
adhere to scientific principles benefit not only the patient and his 
immediate community, but the larger society as well. Besides reducing 
criminality, as I just mentioned, our studies have established that 
drug treatment reduces the spread of infectious diseases such as HIV 
and hepatitis C, and restores the ability of addicted individuals to be 
functioning, contributing members of society. Science-based treatments 
are also extremely cost effective, since they can save millions of 
dollars that would have been spent on the public health and safety 
consequences of drug abuse and addiction.
    NIDA-supported science is not only helping us to deal with already 
addicted individuals, but is also steadily improving our ability to 
prevent the initiation of drug use. You may recall that in March 1997 
we published the first-ever science-based guide to drug abuse 
prevention, Preventing Drug Use Among Children and Adolescents, that 
spelled out the principles that account for effective drug abuse 
prevention programs. Subsequent research has provided important details 
for effectively implementing those principles in diverse American 
communities and populations. Thus, we are currently updating the book 
to reflect new findings, and we plan to release it at our National 
Prevention Conference later this summer.
    Advances in the prevention arena showing great promise to help 
prevent initial drug use are coming from researchers closely studying 
what makes people more susceptible or vulnerable to a potential drug 
problem. No single, unique factor determines which individuals will use 
drugs; rather, drug abuse appears to develop as the result of a variety 
of genetic, biological, emotional, cognitive, and social risk factors.
    As researchers continue to identify risk and protective factors, 
the challenge becomes to understand how these factors interact to make 
individuals more or less vulnerable to not only initially trying drugs, 
but also abusing drugs and/or going on to become addicted to drugs.
    As with treatment programs, tailoring prevention programs to an 
individual's needs is critical. For example, researchers who are 
specifically targeting programs to youth who may be more vulnerable to 
drug use are showing promising results. NIDA-supported scientists 
recently reported that they could reduce marijuana use among a targeted 
group of teens by focusing on their specific underlying emotional 
styles. We have learned that this kind of motivation-directed message 
targeting is critical to the success of prevention efforts. By 
developing and targeting prevention interventions such as public 
service announcements to specific teen personality-types who are 
sensation-seekers, researchers were able to reduce marijuana use by 
over 25%.
    These research findings, which can help reduce the Nation's overall 
drug use, are being shared with the broadest audiences possible. NIDA 
has an aggressive media and education campaign to disseminate our 
research findings and to educate the public about what science is 
teaching us about addiction. One example of this can be seen in a 
recent outreach activity in which we developed and mailed a ``NIDA 
Clinical Toolbox'' to nearly 12,000 drug treatment programs around the 
country. The toolbox provides treatment professionals with a wealth of 
materials on new and effective approaches to help patients with drug-
related problems.
    Another example of how we are disseminating and sharing our 
research findings can be found in the way we have established our 
National Drug Abuse Treatment Clinical Trials Network (CTN). Through 
our CTN, which now consists of 14 research centers geographically 
distributed across the country who work with over 80 different 
community treatment providers, we are able to rapidly disseminate new 
research findings. Each Center, working with its partner community 
treatment providers, has established specially designed clinical 
research training programs and clinical education programs for local 
treatment providers. Because of the scope of the CTN, NIDA is confident 
it has created the infrastructure and enthusiasm that will enable the 
quickest implementation of new therapies and intervention strategies 
possible across the entire Nation. This clinical trials network will be 
central to achieving our millennial goal of improving the quality of 
drug abuse treatment throughout the Nation using science as the 
vehicle.
    I hope the examples I have provided in this statement demonstrate 
NIDA's commitment to having science replace ideology, intuition and 
common sense as the primary basis for our national discourse on drug 
abuse and addiction. The advances that continue to emerge from our 
research portfolio are providing us with renewed hope that we will be 
able to prevent initial drug use and have a full clinical toolbox of 
treatments to offer those who do become addicted.
    Thank you for the opportunity to testify before this Committee. I 
will be happy to respond to any questions you may have.

[GRAPHIC] [TIFF OMITTED] T6915.001


    Chairman Hatch. Well, thank you, Dr. Leshner. We appreciate 
you being here.
    I am going to turn to the Ranking Member first for any 
questions that he might have and then we will go to Senator 
DeWine.
    Senator Leahy. Thank you, Mr. Chairman.
    Some of the questions I will submit for the record, but I 
would ask Mr. Marshall--and we are always delighted to have you 
here--do you think our drug problem could be overcome without 
an approach that includes drug education and prevention 
programs and drug treatment programs?
    Mr. Marshall. No, I do not think it can be overcome without 
a holistic approach, and I have been very vocal on that. I 
think that if you count on law enforcement alone to solve the 
problem, you will not be successful. If you count on education, 
prevention, and treatment without the law enforcement element, 
similarly you will not be successful. A holistic approach is 
what we must have, and I am convinced deeply in my heart and 
soul that it will work and that we can have a substantial 
impact by doing a holistic approach to it.
    Senator Leahy. A quarter of a century ago when I was a 
prosecutor and the problem was nowhere near as acute as today, 
I felt that was the best way. And at least from what I have 
observed in those areas where that kind of a holistic approach 
has been taken, it has worked the best.
    We will go into some of the law enforcement issues, but 
taking some of the drug treatment and education programs, what 
have you found to be the most effective?
    Mr. Marshall. Well, I think there are a number of different 
things in education and treatment. You have to remember that 
education and demand reduction is only kind of a collateral 
part of DEA's mission.
    DEA does a number of things. We try to go out to 
communities and educate community leaders and parents and 
coaches and drugs in the workplace, and we find that most of 
those programs are very effective. I believe that DEA's role 
there and law enforcement's role in treatment is really to work 
within the criminal justice system and present drug users into 
the criminal justice system so that, with the supervision of 
the criminal justice system, the treatment programs have a 
better chance of success.
    Now, generally in the array of demand reduction and 
education and prevention programs that work, I am very fond of 
several. I think that the Boy Scouts of America has a very good 
program, and I think that the reason that that program is good 
is that it weaves drug abuse messages or demand reduction 
messages into a total character program.
    Boys and Girls Clubs of America, I think, is a very 
effective program, and I think the reason for that is that it 
weaves the message into a number of other things such as after-
school alternatives, adult mentors, and things of that sort. 
There are many programs out there that work, and I think that 
one of the other panelists, perhaps Dr. Leshner, made the point 
that there is no single education or prevention or treatment 
program that works for everyone. I think that many of these 
programs have to be tailored for a particular audience.
    Senator Leahy. You mentioned Dr. Leshner. Let me ask you, 
doctor--and you probably are as experienced in this issue as 
anybody who is apt to testify here. Let me ask you this 
question. If you have somebody who has a drug addiction, what 
are the odds of that person recovering from that drug addiction 
if they don't have any kind of formal treatment?
    Mr. Leshner. The odds are extremely poor. It is a myth that 
millions of people simply stop their drug use on their own once 
they have been addicted. In fact, in contrast to popular 
belief, between 3 and 7 percent of nicotine addicts who try to 
quit on their own in any 1 year succeed. So we know that 
because addiction is a chronic, relapsing brain disease, people 
can't just cut it out on their own. That is why we have to have 
effective treatment strategies.
    Senator Leahy. So somebody just doesn't suddenly wake up 
and say glory, alleluia, I want to make a better person of 
myself and walk out clean and sober?
    Mr. Leshner. That is absolutely correct, sir.
    Senator Leahy. Now, let's take one more step. Suppose you 
have somebody with a drug problem and whatever other problems 
that occur, and they end up being arrested, and they end up 
going to jail. So they have got this history of drug use, 
history of addiction, and maybe they are arrested for burglary, 
or maybe they are arrested for some crime which involves drugs 
or not. Whatever it is, they have a history of drug use and 
they have a history of addiction and they go to jail.
    In your experience, does the day come when the warden says, 
OK, you have served your time, here is $20 for the bus trip, go 
and sin no more? Are they just going to be able to walk out or 
do they need some kind of a program to transition them back 
into society?
    Mr. Leshner. The best data are that untreated addicts, no 
matter how long they have been in prison, tend to recidivate; 
they tend to relapse. In fact, a best estimate is that 
somewhere over 80 percent of untreated addicted individuals 
within a year after release will go back to drug use, and 70 
percent of those individuals will be re-arrested.
    On the other hand, if you provide appropriate treatment, 
including after-care--if you provide appropriate treatment, you 
switch those numbers; that is to say that you can reduce the 
later drug use by over 70 percent of the individuals and you 
can, in fact, go from a 70-percent re-arrest rate to a 30-
percent re-arrest rate. So from that point of view, the 
scientific data are absolutely fueling the blending of public 
health and public safety approaches.
    Senator Leahy. It seems to be a pretty good investment for 
society to have those after-incarceration treatment programs, 
then.
    Mr. Leshner. I think you need the entire continuum, yes, 
sir.
    Senator Leahy. I realize my time is up. But, Mr. Warner, I 
have often said that you have the best job in America, U.S. 
Attorneys do.
    Mr. Warner. I believe that is correct.
    Senator Leahy. I couldn't get appointed U.S. Attorney, the 
job I really wanted, so I had to go to the Senate.
    Tell me this: Do you disagree with what either Mr. Marshall 
or Dr. Leshner have said?
    Mr. Warner. Not at all. My experience, of course, is not 
based on scientific study, but is more anecdotal just by virtue 
of seeing people come through our criminal justice system. We 
see the repeat offenders, as I indicated in my testimony. Those 
who don't have the treatment, those who don't have these 
programs that have been discussed, tend to recycle.
    The distinction that I make, quite frankly, is that the 
motivator of the criminal justice sanction, that being 
incarceration motivating people not to want to commit crime, 
just doesn't seem to play the same way with an addict as it 
does with the rest of the people who are in the system. It is 
not sufficient in and of itself to prevent them from going back 
to their drug use.
    Senator Leahy. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Hatch. Senator DeWine?

STATEMENT OF HON. MIKE DEWINE, A U.S. SENATOR FROM THE STATE OF 
                              OHIO

    Senator DeWine. Mr. Chairman, thank you very much. Let me 
first thank you for holding this hearing. All three members of 
the panel have stated, and I certainly believe, that when we 
deal with the drug problem in this country we must use a 
holistic approach because there is a synergistic relationship, 
between the law enforcement and treatment components of drug 
prevention. While the coercive effect of criminal sanctions do 
deter some people from drug use, for other, they don't work.
    As we continue the ongoing debate about our national drug 
problem, we need to avoid arguing over whether or not we really 
need treatment versus education or law enforcement or whether 
we need interdiction prior to the drugs even getting into this 
country. We need to implement all four of those components, and 
we need to do so consistently.
     The problem is consistency. Unfortunately, as Americans, 
we are a society seeking instant gratification and we want very 
fast results. Because of this impatience, we get bored 
sometimes with the battle that we are involved in. We call it a 
war but maybe we shouldn't because, as Americans, we normally 
think of wars as finite: we get in; we get out; we win; and we 
go home. On the contrary, the war on drugs is a long-term 
commitment that we have to make. We must continue the battle 
indefinitely.
    So, Mr. Chairman, I thank you for holding this hearing. I 
thank the members of this panel, and I have read the testimony 
of the members of the other panel and appreciate their 
testimony very, very much.
    Let me make one additional statement in regard to the 
necessity of a holistic approach. Anti-drug education has and 
should continue to be part of our comprehensive approach, but 
it must be implemented consistently. In the past, it has been 
inconsistent. Sometimes we do a good job, sometimes we don't.
    The only national program that reaches our school children 
is the Safe and Drug-Free Schools Act. Sometimes this is the 
only program and provides the only money that is spent on 
education component to a holistic approach to drug prevention 
in our schools. I have been a critic of that program, and I 
hope a constructive critic, because I think that while some 
schools are implementing the program advantageously, in some 
cases the schools are not doing a very good job.
    Despite this, I think it is important, Mr. Chairman, as we 
debate the Education Bill on the floor shortly, that we strive 
to keep Federal dollars flowing to every school distinct in 
this country to develop anti-drug programs.
    Having said that, we clearly also need to give them some 
assistance. Grant recipients need to be critical and implement 
only those programs that do, in fact, work. I believe that the 
education bill language that will be on the floor in the next 
several weeks addresses this concern and will improve our 
current program.
    Let me be very candid. There are some people in Congress 
who are arguing we should totally abolish this program, Mr. 
Chairman, give the money to the states in block grants, and 
just hope and pray that the local schools use that money for 
anti-drug efforts. I think that such grants would be a mistake. 
We need to continue to earmark that money. However, we need to 
allow recipients more flexibility while at the same time giving 
them have more accountability, and ensuring that they are 
funding scientifically driven and programs so that we know how 
the programs work and what results to expect.
    Now, having said that, let me just ask you, Dr. Leshner, 
one question in the brief time I have remaining. You have made 
a very interesting point regarding the success rate of drug 
treatment, which I believe is probably about as good as 
treating asthma, a problem that I am personally familiar with.
    Maybe that is a little discouraging, but it is also 
inspiring to know that we can bring about results. We all know 
of people who, have succeeded in these programs and we all know 
of people who, time and again, have washed out and simply have 
not made it.
    Let me ask you, with that premise, to analyze overall how 
we are doing in regard to drug treatment from two perspectives. 
First is the issue of availability for people who want to have 
drug treatment, who would get into a program, but cannot 
because of income, lack of resources, or availability of 
programs.
    The second issue relates to quality of treatment for those 
who are in a program, what is your assessment--and if any of 
the other witnesses want to comment on this--what is your 
assessment of the quality of programs that do exist in this 
country? Where people are able to access programs, how good are 
those programs? What is the range? If you could, address these 
two issues separately.
    Mr. Leshner. There is no question that we have an array of 
extremely effective drug treatment programs in this country, 
and I can't give you a real proportion of those that are 
wonderful and those that are not. But just like any other 
health care system, the drug addiction treatment health care 
system varies in quality.
    However, I will say that I am very struck that more and 
more treatment programs are adhering to science-based 
principles, and we as the source are constantly called upon. We 
published about a year ago the first-ever ``Science-Based Guide 
to Drug Addiction and Treatment.'' I check the counters every 
morning--I am a little obsessional--and 160,000 people have 
downloaded this little booklet off our Web site, in addition to 
the 300,000 copies we sent out. So there is no question that 
the tools are there and more and more people are using them. In 
addition to that, we recently established the National Drug 
Abuse Treatment Clinical Trials Network that is a diffusion 
mechanism to help diffuse science-based treatment into practice 
in the community.
    So the answer to that question, sir, is we are doing well. 
We have a very good treatment system. The problem is always 
going to be the availability of good treatment. We estimate 
that about 5 million people need treatment in this country. Not 
all of them want treatment, obviously, but I think everyone 
agrees that there is a treatment gap and there is a tremendous 
need to bridge that treatment gap. You know, it is a value 
decision how close we can come to achieving that, but there is 
a substantial gap between those who need treatment and those 
who get treatment.
    Senator DeWine. And to take it down to the practicality and 
what Congress has to look at, what the public has to look at, 
and what the public demands, I think what I am hearing you say 
is, by and large, you think that the treatment money we are 
spending is pretty well spent.
    Mr. Leshner. This analysis in JAMA that came out in October 
was very impressive, and all the studies that have been done 
that look at treatment programs generically across the country 
tell us that we have not a perfect, of course, but we have an 
extremely effective drug addiction treatment system in this 
country. We, of course, need to monitor it. We, of course, can 
do better, just like any other illness, and we are working on 
it.
    Senator DeWine. My time is up. Thank you very much.
    [The prepared statement of Senator DeWine follows:]

  Statement of Hon. Mike DeWine, a U.S. Senator from the State of Ohio

    Mr. Chairman, thank you for holding this important hearing on our 
nation's antidrug policy. In our continuous fight against illicit drugs 
in this country, it is becoming increasingly clear that we need a 
comprehensive anti-drug strategy-one that involves adequate treatment 
for addicts and the elimination of both the demand for and supply of 
drugs. To be effective, our drug control strategy needs to be a 
coordinated effort that directs resources and support among three key 
areas:
<bullet> (1) Demand reduction, which consists of prevention, treatment, 
        and education programs. These are administered by all levels of 
        government--federal, state, and local--as well as by non-profit 
        and private organizations;
<bullet> (2) Domestic law enforcement, which again, has to be provided 
        by all three levels of government; and
<bullet> (3) International eradication and interdiction efforts, which, 
        unlike the first two, are the sole responsibility of the 
        federal government.
    To help build a national anti-drug policy that balances these 
elements, I have joined with you, Mr. Chairman, as well as Ranking 
Member Leahy and Senators Biden and Thurmond, to introduce the `` Drug 
Abuse Education, Prevention, and Treatment Act of 2001.'' This bill is 
a comprehensive approach designed to balance drug supply and demand 
reduction by increasing resources for prevention and treatment.
    It begins to address rapidly rising drug use in rural areas, where 
more accessible treatment is necessary.
    It tackles the need for treatment in our jails and prisons, which 
would help reduce the societal costs of both addiction and crime.
    And, among other things, it provides vital funding of for drug-free 
school programs that teach children early on about the dangers of drug 
use.
    As you know, Mr. Chairman, more children today are using and 
experimenting with drugs--many, many more. A particularly disturbing 
story ran in the Cincinnati Enquirer (2/22/01) recently about teenage 
drug use. In the story, Vu Mai, a 17-year-old senior at Glen Este High 
School, explained how readily available drugs are to teens. `` Pot is 
`easy to get,` '' he said. `` `There are about five people I could go 
to.'' '
    The sad fact is that when drugs are cheap and plentiful, kids buy 
them and kids use them. According to the ``2000 Monitoring the Future 
Study,'' since 1992:
<bullet> Overall drug use among 10th graders has increased 53 percent;
<bullet> Marijuana and Hashish use among 10th graders has increased 88 
        percent;
<bullet> Heroin use among 10th graders has increased 83 percent; and
<bullet> Cocaine use among 10th graders has increased 109 percent.
<bullet> According to the National Center on Addiction and Substance 
        Abuse (CASA) at Columbia University, individual states spend 
        113 times more to clean up the devastation of substance abuse 
        and addiction among our children than on prevention and 
        treatment.
    Drug dealers are targeting children not just in our urban areas, 
but in rural America, as well. According Center on Addiction and 
Substance Abuse, eighth graders in rural America are:
<bullet> 83 percent likelier than those in urban centers to use crack 
        cocaine;
<bullet> 50 percent likelier to use cocaine; and
<bullet> 34 percent likelier to smoke marijuana.
    These statistics represent an assault on our children, on our 
families--and on the future of our country. To begin turning this 
tragic trend around, I recently reintroduced the ``Safe and Drug-Free 
Schools Act of 2001.'' This program is the primary federal source of 
drug and violence prevention efforts in 97 percent of America's 
schools. Both the Safe and Drug-Free Schools bill and the Drug 
Education, Prevention, and Treatment bill provide states the resources 
and flexibility they need to target drug and violence prevention 
dollars where they are needed most.
    Additionally, I want to thank Chairman Hatch and Ranking Member 
Leahy for including in the Drug Education, Prevention, and Treatment 
bill two important provisions which I included in last year's stalled 
Juvenile Justice bill. First, the bill incorporates a coordinated 
services component, which authorizes funds for existing Juvenile 
Justice and Delinquency and Prevention programs to encourage federal, 
state, and local agencies (including schools) and private children 
service providers to coordinate the delivery of mental health and/or 
substance abuse services to children at risk. Such grants will help 
leverage limited federal, state, and community-based adolescent 
services, which in turn, will help fill the large unmet need for 
adolescent mental health and substance abuse treatment.
    Second, the Jail-Based Substance Abuse Treatment provision in the 
bill builds on what I proposed in the Juvenile Justice bill by 
authorizing $100 million in additional funding for residential 
substance abuse treatment programs, outpatient treatment programs, and 
aftercare treatment services in state and local prisons and jails.
    Mr. Chairman, we need initiatives like these because drug use and 
drug abuse have become all too pervasive. Drugs are on our streets. 
They are in our schools. And, they are in the hands of our children. 
That's why we must get to our kids before the drug dealers do. We must 
get drugs out of our schools. We must prevent drugs from ever entering 
our country. And, we must restore balance to our national anti-drug 
policy.
    I look forward to hearing from our witness today about the 
prevention, treatment, and education aspect of drug control.

    Chairman Hatch. Thank you, Senator.
    Senator Durbin?

 STATEMENT OF HON. RICHARD J. DURBIN, A U.S. SENATOR FROM THE 
                       STATE OF ILLINOIS

    Senator Durbin. Thank you, Mr. Chairman. First, let me say 
that I want to commend you on this bill. I think that it 
addresses an aspect of this problem, which is often overlooked 
and discounted. I think it is a good bill. There are some 
sections that I may want to address with the Chairman to try to 
change in one way or the other, but I really think the import 
of the bill is positive.
    In my home State of Illinois, in 1987, we had 500 people 
incarcerated in our State prison system for the possession of a 
thimble-full of cocaine. Today, we have 9,000. It has gone from 
500 to 9,000. The average incarceration is a little less than a 
year for a drug crime in the Illinois prison system. There is 
no drug treatment for prisoners in the system.
    The system obviously brings in addicts and releases 
addicts, but they are better-skilled addicts when they leave. 
They have picked up some criminal skills, they have made some 
contacts. They may be part of a gang. They go out a little 
better-versed, I guess, in being a successful addict, if you 
could use that terrible term. They go out looking for a fix and 
for a victim to finance the fix.
    It strikes me as so short-sighted that we would spend over 
$20,000 a year to incarcerate them and turn them loose on 
society still addicted, still looking for another hit, looking 
for another victim to finance that hit.
    One of the things which I have suggested, Mr. Chairman, and 
I hope I can convince you to add in this bill, is a residential 
treatment program for pregnant and post-partum women. I have 
found in my experience in traveling around my State and other 
cities that pregnant women who are addicted are the first 
people we should really try to bring into a safe atmosphere 
where they can go through rehab so that their babies are born 
healthy and that they have a chance to turn their lives around. 
In the city of Chicago, Haymarket House, Monsignor McDermott's 
House, has been exceedingly successful in this area.
    I would also like to ask the members of the panel if they 
are familiar with the RAND study that was done talking about 
the effectiveness of drug treatment and rehab. Dr. Leshner, are 
you familiar with that?
    Mr. Leshner. I am. There have been an array of studies. The 
RAND study is one of them that I would argue actually 
emphasizes the kind of blended comprehensive approach; that is 
that included in any approach to dealing with the drug problem 
in this country has got to be attention to the health side of 
it. There has to be attention to prevention and daily 
treatment, and that RAND study demonstrated the cost-
effectiveness of treatment.
    I do want to say that there have been people who have 
interpreted that study as justification for pitting public 
health versus public safety approaches, and I believe that that 
is a serious mistake. Any approach, including the most dramatic 
public health approach, asks us to limit the availability of 
the virus. You know, it tells us to limit the availability of 
the agent. So I think my choice of how to interpret a study 
like that is to show that treatment is a very good investment.
    Senator Durbin. I think you have made a very important 
point because I think our first obligation as elected officials 
is to try to provide safe schools, safe neighborhoods, safe 
communities. That necessarily involves the work that is being 
done by law enforcement, by prosecution of criminals, and the 
incarceration of dangerous people away from our populations, 
people who are trying to live normal and happy lives.
    But I think the RAND study and others suggest that perhaps 
we have not invested as much as we should on the treatment 
side. The figures I have been given suggest that the Federal 
investment in treatment services is about $3.1 billion a year, 
the Federal investment in enforcement about $9 billion a year. 
Not to take a penny away from enforcement, but to help them I 
would like to suggest we have to put more into treatment 
because if the RAND study is correct, these approaches using 
treatment are much more effective in trying to rid our society 
of these addicts who go on to commit more crimes in support of 
their habits.
    The RAND study found that for every additional dollar 
invested in substance abuse treatment, we save taxpayers $7.46 
in societal cost. The same study found that additional domestic 
law enforcement costs 15 times as much as treatment to achieve 
the same reduction in societal cost. Not to take the money away 
from law enforcement, the point that you have made, but if we 
have an incremental dollar to be spent here, I think we should 
look at the most effective way to spend it for the taxpayers 
because this is clearly a scourge on our society.
    Let me, if I can, address one other aspect that comes up. 
Our new Attorney General and this administration have talked 
about the issue of profiling and the obvious wrongdoing of some 
law enforcement agencies when it comes to the arrest and 
conviction of minorities in America. This is very graphic when 
it comes to drug crimes.
    In my home State of Illinois, I am sad to report we have 
some terrible statistics in terms of the people who are 
incarcerated. Ninety percent of drug offenders admitted to 
State prisons in Illinois are African-Americans, the highest 
percentage in the country. While African-Americans make up 15 
percent of Illinois' population, they constitute 65 percent of 
the prison population. At the Federal level, the figures are 
not as stark, but they are dramatic.
    Could you address the issue of profiling and the 
enforcement of drug crimes in America? Mr. Warner, have you had 
any experience in this field?
    Mr. Warner. Senator, I guess my comments are anecdotal in 
nature based on just my experience. You know, I am fond of 
telling people I am an equal opportunity prosecutor. Obviously, 
we prosecute people that commit crime and we are kind of color-
blind in that respect. Obviously, likewise, we prosecute those 
who are brought to us from the law enforcement agencies.
    I think that profiling is an issue that is much broader 
than just the drug problem--
    Senator Durbin. It is.
    Mr. Warner.--although we certainly see it in that arena 
relative to highway stops and others, particularly where in 
Utah we have major freeways where drugs are being transported.
    I suspect that profiling is an issue that needs to be 
focused on. The reality is, however, that many of the people 
that we see in Utah, as an example, that are involved in the 
trafficking have Latino-Hispanic backgrounds because some of 
the sources of our drugs are coming up from Mexico. In that 
sense, we sort of prosecute those who are bringing it.
    Senator Durbin. Can I ask Mr. Marshall from the DEA 
viewpoint if you have any comments on that? That will be my 
last question on the whole question of profiling and minority 
arrests in drug crimes.
    Mr. Marshall. Senator, thank you. I want to say right from 
the start I have been very outspoken in public appearances and 
internally within my agency and in all of our interactions with 
State and local law enforcement agencies on this issue of 
racial profiling. Racial profiling certainly is unethical, it 
is wrong, it is immoral, and it is illegal. On top of that, it 
is not good investigative technique. What we need to do in law 
enforcement, and what I think by and large we do in law 
enforcement is we target criminals, not ethnic groups.
    Now, having said all of that, I want to kind of reiterate 
what U.S. Attorney Warner said about the origins of the drug 
trade. It is a fact that many of our drugs originate in places 
like Colombia, Peru, Bolivia, with transit countries being 
through Mexico, the Dominican Republic, Haiti, and those kinds 
of places. So I think that that in some way accounts for the 
high number perhaps of Latino arrestees for drug trafficking.
    But I always caution people in the drug investigations 
arena and in the highway interdiction arena that in addition to 
being unethical and immoral, if an officer does, in fact, focus 
on ethnic groups instead of targeting criminals, they are 
giving up a very good investigative tool because we see time 
and time and time again that the Mexico-based organizations, 
the Colombia-based organizations, the Nigerian-based 
organizations don't limit themselves to using any particular 
racial or ethnic or gender group as drug couriers or money 
couriers.
    For instance, we had a major investigation a couple of 
years ago where a Mexico-based organization was using white 
middle-aged male truck drivers, 18-wheelers, as their couriers. 
So to focus on ethnic groups and racial groups is wrong, 
immoral, illegal, and bad police technique. I try to spread 
that message wherever I go.
    Senator Durbin. Thank you. Thanks, Mr. Chairman.
    Chairman Hatch. Thank you, Senator.
    Dr. Leshner, I know you have got to leave so I would like 
to ask one or two questions of you before you do leave.
    In 1987, Dr. David Hamburg spoke at the annual meeting of 
the National Academy of Sciences' Institute of Medicine. Dr. 
Hamburg, of course, is the greatly esteemed former president of 
the Institute of Medicine, as well as being the former 
president of the Rockefeller Foundation. At the 1987 meeting, 
he challenged his peers in the Nation's research established to 
give greater priority to conducting research into drug abuse, 
both the biological and behavioral elements.
    Now, let me just ask you this: Are we getting the best and 
the brightest in the scientific community to pursue drug abuse 
research?
    Mr. Leshner. I have to say that particularly in the last 5 
years we have seen a phenomenal increase in interest and 
activity in the scientific community. Drug addiction research 
is now the hottest area of neuroscience research.
    Chairman Hatch. So you are getting the best and the 
brightest?
    Mr. Leshner. Absolutely, we are.
    Chairman Hatch. Are you getting a fair share of the 
research pie at NIDA, at the National Institute on Drug Abuse?
    Mr. Leshner. I have to be careful because my bosses think 
that I never think we get enough, no matter how much we get.
    Chairman Hatch. Well, I have to agree with you. I don't 
think you get enough either.
    Mr. Leshner. Thank you, sir. I can tell you that we have 
had very strong bipartisan support, particularly from the 
Senate and from the House. Could we use more? Of course.
    Chairman Hatch. Well, let me just ask you one last 
question.
    I have other questions I will submit in writing to all 
three of you, and to the other witnesses as well.
    Former Secretary of Health, Education and Welfare, now HHS, 
Joseph A. Califano, Jr., said that, quote, ``In research, we 
need a national institute on addiction that combines the 
current fragmented institutes on drug abuse, illegal drugs and 
nicotine, and alcohol abuse and alcoholism. Such a combination 
would strengthen our research efforts and provide a better 
return for our tax dollars.''
    Do you agree with that comment?
    Mr. Leshner. Well, my Institute supports every drug of 
abuse, legal and illegal, with the exception of a primary focus 
on alcohol. When it is poly drug abuse, we do study alcohol and 
we do work closely with the National Institute on Alcohol Abuse 
and Alcoholism.
    Chairman Hatch. So you feel that NIDA and SAMHSA are 
perfectly capable of taking care of these problems and doing 
the research that is necessary?
    Mr. Leshner. I think there is no question that NIH is doing 
an outstanding job of dealing with the research on these 
problems.
    Chairman Hatch. You take time and think it through, look at 
this bill and give the Committee any suggestions that you might 
have as to how we might improve this bill, how we might give 
you more tools and more emphasis and more help to do your job 
there so that you can convince Mr. Califano and others who are 
deep thinkers in this area that what we have can be beefed up 
and made better, and let's see what we can do to help you.
    Mr. Leshner. Thank you, sir, I appreciate it.
    Chairman Hatch. Would you do that for us?
    Mr. Leshner. Absolutely.
    Chairman Hatch. We would like you to do it real soon 
because we are going to move this bill, if we can, and that is 
what we would like to do.
    Mr. Leshner. Yes, sir.
    Chairman Hatch. We will excuse you, Dr. Leshner. We know 
you have to leave.
    Mr. Leshner. Thank you. I apologize to the Committee.
    Chairman Hatch. We understand, and we will excuse you at 
this time.
    To the other two witnesses who are here, before you leave I 
would like to ask this question. A recent study funded by the 
Robert Wood Johnson Foundation indicates that drug use, alcohol 
consumption, and smoking costs the United States more than $400 
billion a year in health care claims, lost productivity, and 
criminal justice expenses.
    These findings echo a report recently released by the 
National Center on Addiction and Substance Abuse at Columbia 
University in 1998 which found that the States spent $81.3 
billion, fully 13.1 percent of total State spending, on 
substance abuse and addiction.
    Especially distressing to me are statistics showing that 
young people are becoming less aware of the risks of drug 
abuse, and that they are increasingly using designer drugs such 
as ecstasy under the illusion that such drugs are not harmful 
or addictive.
    What is the DEA and the U.S. Attorney's office doing to 
spread the word that these drugs are, in fact, quite harmful? 
We will start with you, Mr. Marshall. Be very quick because I 
have got to make a vote.
    Mr. Marshall. Senator, DEA is doing a lot. We work a lot 
with police groups and we try to capitalize on their ability to 
get the word out in the community. We try to work with 
community coalitions. We work with CADCA, we work with the 
Partnership for a Drug-Free America.
    One of our most unique programs, however, is that we have a 
program called the Mobile Enforcement Teams, where we go in and 
from a law enforcement perspective we focus on drug crime in a 
community. We have a follow-up MET II program, which is a 
demand reduction and education type program. After we clean the 
violent drug criminals off of the streets of a particular 
community, we go in and we work with community leaders.
    We work with clergy, we work with professional groups. We 
work with the mayors, the elected officials, the business 
community, and we try to help them find resources and show them 
how to marshal their community's resources to keep that 
community drug-free once we have made the initial sweep to try 
to get the criminal element out of there.
    We do a lot more, Senator, but in the interests of time I 
will supplement that in writing.
    Chairman Hatch. Thank you, Mr. Marshall.
    I was going to ask you to comment, too, Mr. Warner, but let 
me ask you this question. The movie ``Traffic''' is a very 
troubling movie. I don't bring it up because I had a small 
cameo part in it, for which I have been chewed up a little bit. 
But on the other hand, to be honest with you, I have watched 
that movie twice and other than the profanity in that movie, 
that movie is a pretty profound movie.
    Personally, as parents, if we had teenage children, if we 
were concerned about their getting involved in drugs, I think I 
would take them to see that movie because I have had kids come 
out of there and say ``I will never touch another drug,'' 
because they see the real depths of degradation, and that movie 
depicts it about as well as I have ever seen. I mean, it is 
worthy of the Academy Award nominations it has received.
    Mr. Warner, that movie depicts law enforcement officers and 
prosecutors as brave public servants in a largely futile effort 
to stop the flow of drugs into this country.
    I will have both of you answer this. Many have seized upon 
this to say we cannot win this war. What do you think?
    Mr. Warner. Well, with all due respect to the movie, 
Senator, I don't believe it is a futile effort. I certainly 
believe that it can be discouraging; it has been discouraging 
at times. But the point has been made here time and again today 
in a variety of ways that a continuing, aggressive, vigorous 
enforcement component to this effort is absolutely necessary.
    I think what we have all learned, however, is that we have 
to attack both supply and demand, and this has been stated in a 
variety of ways today. My belief is that we continue to 
aggressively attack the supply side through criminal 
enforcement. That is absolutely essential. It is the right 
message. It is the right thing to do, in my opinion. I think 
that, quite frankly, it is essential if we are going to get on 
top of the problem.
    It is not enough to merely treat the addict because we have 
to remember, as I suggested in my earlier testimony, that there 
are those who are in the drug trade as a business; they are 
there to make big money. If those people go unchecked and if 
they aren't aggressively pursued and if they aren't prosecuted 
and incarcerated, the demand continues to exist with unabated 
supply.
    Chairman Hatch. Mr. Marshall?
    Mr. Marshall. Senator, yes, I thought it was a very 
realistic movie, and I thought that it did a wonderful job of 
framing many of the issues about the drug problem. It did, in 
fact, portray law enforcement in a very heroic light, and I 
want to comment that I am forever grateful, and the American 
people should be grateful to our law enforcement people, 
particularly the courageous men and women who work for me in 
the Drug Enforcement Administration, but law enforcement in 
general. I think it did a very good job of portraying that. I 
think it did a very good job of framing many of the issues.
    I took my own 15-year-old and 16-year-old sons to see this 
movie, and they had a similar reaction. They said that they 
didn't really realize how vulgar and how gritty and how violent 
the drug world was, and the consequences that drug abuse has 
for young people.
    Chairman Hatch. Even as children of the leader of the Drug 
Enforcement Administration?
    Mr. Marshall. They commented that, ``Dad, we know more 
about it than most people because of your job,'' but they were 
very impressed. I was troubled, though, by a couple of aspects 
in the movie. I was struck by the Michael Douglas character's 
exit speech from the drug czar job where he said if this is a 
war on drugs, many of our family members are the enemy.
    That troubles me a great deal because it implied that drug 
law enforcement is waging war on our families. And there could 
be nothing farther from the truth. Who is waging war on our 
families are the ruthless and predatory drug trafficking 
organizations that market their poisons to weak and vulnerable 
people and young people who don't have the tools to make 
intelligent decisions. In fact, those are the people who are 
waging wars against our families, and American law enforcement 
is hopefully waging a good fight against those drug traffickers 
and seeing that they in some way are held accountable to the 
American people for their ruthless and predatory practices 
against our families.
    The other thing that troubled me was the portrayal--and I 
don't want you to misinterpret this as an anti-treatment 
statement, but it portrayed treatment as the only solution. The 
movie, I think, left the message that we should give up on law 
enforcement and go into treatment as the sole solution.
    As I have mentioned throughout my testimony, that is the 
absolute wrong thing to do. We must do law enforcement, 
education, prevention, and treatment in tandem. If we do that, 
we can have a measurable and significant and lasting impact on 
this problem.
    Chairman Hatch. Compared to the 1970's, we actually are 
winning this war, but we have a long way to go still. I think 
your testimony has been very good, both of you.
    Stephen Gaghan, the screenwriter of ``Traffic,'' hoped to 
be here today, but he wasn't able to be. He has informed the 
Committee that he will be submitting written testimony. Perhaps 
at a future hearing, we will have him testify.
    I am going to recess for a few minutes so I can go and 
vote. When we come back, Carroll O'Connor, who has a lot of 
experience in this area and for whom I have a lot of respect, 
is going to be one of our witnesses, and we have some other 
excellent witnesses on our second panel.
    I think this first panel has been great, and I want to 
thank you both for being here.
    I will put Senator Kyl's statement in the record.
    [The prepared statement of Senator Kyl follows:]
  Statement of Hon. Jon Kyl, A U.S. Senator from the State of Arizona
    Mr. Chairman, I would like to thank you for holding this important 
hearing.
    I would also like to thank all the witnesses who are here to share 
their personal experiences and expertise on drug treatment, education 
and prevention. I especially would like to recognize Mr. Donnie 
Marshall and the excellent work of his agency, the DEA, in fighting 
drugs, especially with regard to methamphetamine.
    The subject of today's hearing is particularly important to me, 
because of the proliferation of drug activity in my home state of 
Arizona.
    Arizona has been described as being one the nation's ``hot drug 
corridors.''
<bullet> Last seek, the DEA and U.S. Customs agents discovered a second 
        drug tunnel in three days in an Arizona border community. The 
        agents seized 2,200 lbs. of marijuana and 600 lbs. of cocaine.
<bullet> Earlier this year, Phoenix police discovered guns, 48.5 lbs of 
        meth and 794 lbs. of marijuana in a drug major bust.
<bullet> Last year, law enforcement (U.S. Customs and Phoenix Police) 
        arrested the infamous ``Sammy the Bull'' Gravano for running 
        the largest ecstacy ring in the history of Arizona. Officers 
        seized 20,000 ecstacy pills and indicted 52 individuals.
    This hearing is also important to highlight the disturbing trend of 
youth drug abuse.
    Approximately half of Arizona public high school students have used 
illicit drugs in their lifetime, according to the ONDCP. Moreover, 
5,000 Arizona juveniles were arrested for drug violations in 1999.
     I hope this hearing will help us find solutions to the growing 
problem of illicit drugs in our communities. Education, prevention, and 
treatment are all important parts of that solution.
    To that end, I want to conclude my remarks by sharing a success 
story in the area of treatment.
    The Treatment Assessment Screening Center (TASC) is a private, non-
profit organization in Phoenix that provides education and treatment 
alternatives to people who are arrested for recreational drug use.
<bullet> Drug offenders who participated in the TASC program reduced 
        their recidivism rate from 54% to 22%.
    This encouraging statistic shows that treatment can be an effective 
tool in addressing the drug problem. I look forward to hearing more 
success stories and testimonials during today's hearing.

    Chairman Hatch. With that, we will recess until I can get 
back from this next vote.
    [The Committee stood in recess from 11:19 a.m. to 11:35 
a.m.]
    Chairman Hatch. We are happy to begin the second part of 
this hearing on treatment, education, and prevention, and I am 
pleased to introduce our second panel of witnesses. This panel 
is going to discuss the importance of drug prevention and 
treatment programs in our communities, and how each of their 
lives have been affected by drug abuse.
    Our first witness is Dr. Robert DuPont. Dr. DuPont was the 
first Director of the National Institute on Drug Abuse. He also 
served as the White House drug czar in both the Nixon and Ford 
administrations. Currently, Dr. DuPont is President of the 
Institute for Behavior and Health, and a clinical professor of 
psychiatry at Georgetown University. We are fortunate to have 
the benefit of someone with the breadth of experience and 
knowledge that Dr. DuPont can bring to this hearing and this 
topic.
    Our second witness is Ms. Edyie Hewitt. Ms. Hewitt is the 
former Director of the Vermont Federation of Families for 
Children's Mental Health. Ms. Hewitt has a lengthy and 
impressive record in the area of drug education and treatment, 
particularly with respect to children and parenting. So we are 
very glad to have you with us.
    Next, we will hear from Mr. Jim Walton. Mr. Walton is 
Commissioner of the Department of Public Safety in Waterbury, 
Vermont. In that position, Mr. Walton has developed important 
insights into drug addiction and its impact on our communities.
    In addition, we have Ms. Debra Walcott. Ms. Walcott is 
nearing completion of an 18-month drug treatment program at the 
Phoenix House in New York. Ms. Walcott began using illegal 
drugs at an early age, which eventually contributed to her 
arrest and conviction on criminal charges. She was offered drug 
treatment as an alternative to jail, an opportunity that she 
appears to have made the most of, and we are very proud of you 
for that. So we welcome you and we thank you for being willing 
to come and testify today and to help us to understand this 
issue better than we do.
    Finally, an old friend testifying by remote television link 
is Mr. Carroll O'Connor. Mr. O'Connor is a well-respected 
actor, one of the truly great ones, best known for his role as 
Archie Bunker in the television series ``All in the Family.''
    I want you to know, Carroll, that Elaine and I watch those 
repeats all the time and we just howl all the way through.
    Mr. O'Connor. Good.
    Senator Leahy. I might say, Mr. Chairman, you can't avoid 
watching those repeats. They are on about every hour on the 
hour.
    Chairman Hatch. You must get a lot of residuals there, I 
tell you.
    In 1995, Mr. O'Connor's son Hugh killed himself after a 
long battle with substance abuse. That was a great tragedy in 
the lives of those who knew Hugh. Since that time, Mr. O'Connor 
has been a tireless advocate, raising public awareness 
regarding the societal costs of drug addiction.
    So I would like to welcome each of you here this morning.
    Senator Biden. Mr. Chairman?
    Chairman Hatch. Senator Biden?
    Senator Biden. May I ask unanimous consent that my opening 
statement be placed in the record as if read, and apologize to 
the first panel for not being here at this very important 
hearing, but I am happy to be here now and I am glad we are 
focusing on treatment, which we have been arguing over in some 
of these reports over the past 15 years works.
    I thank the Chair and will put my statement in the record.
    Chairman Hatch. We will do that, without objection, and 
make the comment that Senator Biden has worked with all of us 
through the years to help us to understand this issue better. 
He is one of the true authorities on the Committee and we 
appreciate the work that he has done, along with others on this 
Committee.
    [The prepared statement of Senator Biden follows:]

 Statement of Hon. Joseph R. Biden, Jr., A U.S. Senator from the State 
                              of Delaware

    Mr. Chairman, I want to thank you for calling this hearing on 
substance abuse, one of our nation's most pervasive problems. We have 
worked together through the years on drug treatment, prevention and 
enforcement, and I am glad to be working with you again on the Drug 
Abuse Education, Prevention and Treatment Act to invest $900 million a 
year in demand reduction programs.
    We have nearly 15 million drug users in this country, four million 
of whom are hard-core addicts. We all know someone--a family member, 
neighbor, colleague, or friend--who has become addicted to drugs or 
alcohol.
    Abuse of illicit drugs and alcohol has far reaching consequences, 
causing or exacerbating many--if not most--of our social ills. 
Substance abuse is public safety problem, a public health problem, and 
a public expenditure problem.
    There is an undeniable correlation between substance abuse and 
crime--80 percent of the two million men and women behind bars today 
have a history of drug and alcohol abuse or addiction or were arrested 
for a drug-related crime.
    Illegal drugs are responsible for thousands of deaths each year, 
and they fuel the spread of a number of communicable diseases, 
including AIDS and Hepatitis C, as well as some of our worst social 
problems, including child abuse, domestic violence, and sexual assault.
    We all pay the price for this--drug abuse and addiction cost this 
nation $110 billion in law enforcement and other criminal justice 
expenses, medical bills, lost earnings and other costs each year.
    The bottom line is: substance abuse is a problem that we simply 
cannot afford to ignore.
    We tend to stereotype drug abuse as an urban problem, but the 
steadily growing number of heroin and methamphetamine addicts in rural 
villages and suburban towns shows that this is simply not the case. The 
reality is that addiction is a disease that does not discriminate by 
neighborhood, age, gender, socio-economic status, race, or creed.
    Drugs are in nearly every town and schoolyard in this country. And 
I'm not just talking about marijuana--I'm talking about incredibly pure 
heroin; a benign-looking little pill called Ecstasy that can damage 
regions of the brain responsible for thought and memory; and 
methamphetamine, a drug which is made from hazardous chemicals 
including battery acid, lye, ammonia gas, and hydrochloric acid.
    Every year since 1989, I have issued reports calling for a three-
pronged approach to the drug problem: enforcement, prevention, and 
treatment. We have certainly made some headway and have clearly shown 
our commitment to dealing with the problem, but in my opinion, 
treatment and prevention always get the short end of the stick.
    The Drug Abuse Education, Prevention and Treatment Act invests 
nearly $900 million a year--nearly $625 million for drug treatment and 
nearly $250 million for prevention programs--to bolster demand 
reduction efforts and reduce the criminal justice, health care, and 
human costs associated with substance abuse.
    Let me just highlight a few of the key provisions in the bill.
    This legislation provides funding to treat prisoners before release 
so they do not return to our streets with the same addiction problem 
that got them into trouble in the first place. This is not ``soft''; it 
is smart crime prevention policy as the Key and Crest programs in 
Delaware have shown--because drug addicts commit somewhere between 89 
and 191 crimes per year to sustain their habits.
    The bill also provides funding for drug treatment in rural and 
economically depressed areas because the latest research shows that 
kids in rural areas are more likely than kids in large urban areas to 
use certain kinds of drugs, including methamphetamine and cocaine. The 
bill also addresses the critical need for adolescent drug treatment by 
providing an additional $150 million a year to treat some of the 1.2 
million kids who need drug treatment but are not getting it.
    And, recognizing that if someone gets through age 21 without 
smoking, abusing alcohol, or using drugs, they are unlikely ever to 
have a substance abuse problem, we provide $225 million a year for 
prevention programs in this bill.
    I know we are on the right track because all the right people have 
endorsed the bill, including Joe Califano, whose organization is 
responsible for cutting-edge research on the societal impact of 
substance abuse and addiction; Dr. Herb Kleber, the first Director of 
Demand Reduction in the Drug Czar's office and one of the nation's 
leading experts on drug treatment; and Dr. Robert Dupont, who is with 
us today and has been at the forefront of this issue since the Nixon 
Administration.
    I know we are on the right track because all the right people have 
endorsed the bill, including Joe Califano, whose organization is 
responsible for cutting-edge research on the societal impact of 
substance abuse and addiction; Dr. Herb Kleber, the first Director of 
Demand Reduction in the Drug Czar's office and one of the nation's 
leading experts on drug treatment; and Dr. Robert Dupont, who is with 
us today and has been at the forefront of this issue since the Nixon 
Administration.
    Law enforcement understands that treatment and prevention are key. 
That is why this bill has the support of the Fraternal Order of Police, 
the National Sheriff's Association, the National District Attorney's 
Association, and the National Crime Prevention Council. And the bill 
also has the support of the people who are out there running prevention 
programs--the Boys and Girls Clubs, the DARE program, and the Community 
Anti-Drug Coalitions of America.
    Mr. Chairman, I want to take a minute to address a critical issue. 
People sometimes ask me why we are spending more money on drug 
treatment when it ``doesn't work''? Let me make it clear--drug 
treatment does work. Drug addiction is a chronic relapsing disease. And 
as with other chronic relapsing diseases--such as diabetes, 
hypertension and asthma--there is no cure, although a number of 
treatments can effectively control the disease.
    According to an article published in the Journal of the American 
Medical Association in October, the rate of adherence to the treatment 
program and the relapse rate are similar for drug addiction and other 
chronic diseases -meaning that treatment for addiction works just as 
well as treatment for other chronic relapsing diseases.
    Many of the programs that we pass off as treatment in this 
country--like 28-day programs are nothing more than extended detox 
sessions. Studies show that the longer an addict spends in treatment, 
the greater the chances that the treatment will be successful. That 
means at least several months in treatment; anything less is setting 
the patient up for failure.
    Sadly, only two million of the estimated five million people who 
need drug treatment are receiving it.
    That is why it is so important that the Drug Abuse Education, 
Prevention and Treatment Act takes steps to close this ``treatment 
gap'' by targeting drug treatment to rural and economically depressed 
areas, funding adolescent treatment and residential treatment centers 
for women with children, and increasing funding for the National 
Institute on Drug Abuse--whose brilliant scientists conduct 85 percent 
of the world's research on drug abuse--to conduct clinical trials on 
new treatments for addiction.
    Mr. Chairman, I believe that we have crafted a good piece of 
legislation. Strong treatment and prevention programs are a vital part 
of a comprehensive drug strategy. Forestalling drug abuse and treating 
it when it occurs are sensible policies: they save money, prevent 
crime, and spare lives.
    I look forward to hearing from our witnesses this morning.

    Chairman Hatch. We will start with you, Mr. O'Connor. We 
really appreciate your being here and we appreciate your being 
willing to testify, and we look forward to hearing your 
testimony at this time.

 STATEMENT OF CARROLL O'CONNOR, ACTOR AND DRUG PREVENTION AND 
          TREATMENT ADVOCATE, LOS ANGELES, CALIFORNIA

    Mr. O'Connor. Thank you, Senator. I am honored by your 
invitation to be here. I am deeply involved in our war on 
drugs, but only as a wounded victim of it, without expertise in 
the conduct of it. I am presuming here simply to speak for 5 
million other victims, or should I say 10 million? Is there a 
true number? We only know that there is hardly a family in 
America on any level of life that has not been wounded slightly 
or severely or fatally by the assault of the drug empire upon 
our country.
    The loved ones of insensate addicts like my own poor son 
write to me everyday imploring my help, as if I being well-
known might persuade our leaders to protect and defend them in 
this war, or at the very least help them care for their wounded 
and dying.
    This Committee by this legislation is now directing serious 
attention to the care of the wounded and dying. This is a good 
bill. This war against the drug empire is a good war, and 
except for some who call it a lost war who would legalize drugs 
and turn the country over to the invader, the American people 
are not clamoring to withdraw from this war. This war is raging 
in the streets around them.
    They tell me in their letters that they don't understand 
why we are not fighting this war and winning it. They 
understand that they are spending billions to raise blockades 
and sanctions against so-called enemy countries like Libya and 
Cuba, and to fly bomber patrols over Iraq to prevent the Iraqis 
from making chemical weapons to use against us.
    But they know that the only country in the world attacking 
us daily with the poisons it makes is Colombia, the key country 
in the drug empire; Colombia which says to us ``control your 
own deadly habits, we don't create them, we merely supply them. 
Meanwhile, can you let us have $2 billion and some American 
troops to deal with our rebels down here?''
    If this is an unsophisticated picture of our foreign 
relations, it is nevertheless starkly real to our despairing 
people. The picture might better be presented to some other 
Committee of the Congress, but it is impossible to leave it out 
of any consideration of the drug war.
    I cannot guess how many of our people will receive the 
proposals advanced by this good legislation, and I am afraid 
that the expenditures here proposed for treatment and 
rehabilitation are not going to be enough by half. I would have 
said that we needed new, free rehabilitation centers in all of 
the major counties of our 50 States. How many, 200, 300? At 
what cost? Perhaps $1 billion--that is a low guess--just to 
start the program.
    Addicts cannot help themselves. They have to learn control, 
to re-regulate brain cells in expert medical facilities, places 
with living facilities closely available that will receive them 
without delay when they are ready to offer themselves.
    Our people are not ungenerous, but they are not well 
informed. Care and rehabilitation of thousands and thousands of 
junkies is not something they are ready to pay for on a grand 
scale. But that must be done, and now when we are at the flood 
tide of our National wealth is the only possible time to do it.
    Thank you.
    [The prepared statement of Mr. O'Connor follows:]

                     Statement of Carroll O'Connor

    Good morning. My dear senators, I'm honored by your invitation to 
be here. I'm deeply involved in our war on drugs but only as a wounded 
victim of it, without expertise in the conduct of it. I am presuming 
here simply to speak for five million other victims. Or should I say 
ten million? Is there a true number? We only know that there is hardly 
a family in America, on any level of life, that has not been wounded 
lightly or severely or fatally by the assault of the drug empire upon 
our country.
    The loved ones of insensate addicts, like my own poor son, write to 
me every day imploring my help, as if I, being well-known, might 
persuade our leaders to protect and defend them in this war, or at the 
very least help them care for their wounded and dying. This Committee, 
by this legislation, is now directing serious attention to the care of 
the wounded and dying. This is a good bill. This war against the drug 
empire is a good war, and except for some who call it a lost war, who 
would legalize drugs and turn the country over to the invader, the 
American people are not clamoring to withdraw from this war.
    This war is raging in the streets around them. They tell me in 
their letters that they don't understand why we are not fighting this 
war and winning it. They understand that they are spending billions to 
raise blockades and sanctions against so-called enemy countries like 
Libya and Cuba, and to fly bomber patrols over Iraq to prevent the 
Iraqis from making chemical weapons to use against us, but they know 
that the only country in the world attacking us daily with the poisons 
it makes is Colombia, the key country in the drug empire; Colombia 
which says to us ``Control your own deadly habits; we don't create 
them, we merely supply them. Meanwhile can you let us have two billion 
dollars and some American troops to deal with our rebels down here?''
    If this is an unsophisticated picture of our foreign relations, it 
is nevertheless starkly real to our despairing people. The picture 
might better be presented to some other Committee of the congress, but 
it is impossible to leave it out of any consideration of the drug war. 
I cannot guess how our people will receive the proposals advanced by 
this good legislation, and I am afraid that the expenditures here 
proposed for treatment and rehabilitation are not going to be enough by 
half. I would have said that we needed new, free rehabilitation centers 
in all of the major counties of our fifty states. How many? Two 
hundred, three hundred? At what cost? Perhaps a billion? a low guess? 
just to start the program.
    Addicts cannot help themselves; they have to learn control, to re-
regulate brain cells in expert medical facilities, places with living 
facilities closely available that will receive them without delay when 
they are ready to offer themselves. Our people are not ungenerous but 
they are not well informed. Care and rehabilitation of thousands and 
thousands of junkies is not something they are ready to pay for on a 
grand scale. But that must be done, and now when we are at the flood 
tide of our national wealth is the only possible time to do it.

    Chairman Hatch. Well, thank you, Mr. O'Connor. We really 
appreciate your taking time to do this for us, and you 
understand the true depths of difficulty that come from the 
drug culture and we are just very grateful to you. This is the 
second time that I remember having you before the Committee and 
we are just very pleased to have you here.
    Mr. O'Connor. Thank you, sir.
    Chairman Hatch. Thank you.
    We will turn to Dr. Robert DuPont, then, at this time and 
we will take your testimony.

  STATEMENT OF ROBERT DUPONT, M.D., FORMER DIRECTOR, NATIONAL 
  INSTITUTE ON DRUG ABUSE, FORMER WHITE HOUSE DRUG CZAR, AND 
PRESIDENT, INSTITUTE FOR BEHAVIOR AND HEALTH, INC., WASHINGTON, 
                              D.C.

    Dr. DuPont. Thank you, Senator. It is my privilege to be 
here. I am very grateful for this opportunity. My first 
appearance before a Senate Committee occurred 32 years ago, 
before Senator Thomas Dodd, and I have spent the last 33 years, 
1 year before that, in the field of drug abuse prevention.
    The single concept that I have organized my whole career 
around has been demand reduction, the use of prevention and 
treatment to reduce the number of drug users and their use of 
drugs, and also the money that is spent on drugs.
    I am one of ten former White House drug czars, and I am 
proud to say I am the only one who has a daughter named 
Caroline. I think about this movie ``Traffic'' about a drug 
czar with a daughter Caroline. My daughter was 5 at the time 
that I was the drug czar and she takes some exception to the 
characterization in that movie of a drug czar's daughter by the 
name of Caroline.
    In any event, one of the hallmarks of today's debates about 
drug policy is the argument that we have failed in our current 
policy. I would like to call the attention of the Committee to 
two simple, basic statistics about where we are.
    The first is that in terms of the number of illicit drug 
users, that number peaked in this country in 1979, at 25 
million. The current number is just under 15 million. That is a 
40-percent reduction. For someone to say we have failed in our 
balanced efforts--it strikes me they have to deal with the fact 
that you have got a 40-percent reduction.
    Then if you look at the money spent, the money spent by 
illicit drug users since 1988 has decreased 46 percent, from 
$115 billion to $62 billion. How many other problems have we 
had in the United States that have declined by those kinds of 
numbers and are still called a failure? I think that is a very 
big question to me.
    My own drug czar experience was under the Nixon and Ford 
administrations, and you will recall that it was under the 
Nixon administration for the first time that treatment became a 
part of the Federal strategy. And that was the highest level of 
treatment; it was about 40 percent of all money spent, and it 
has been called the Camelot era. But people don't realize you 
don't spend percentage, you spend dollars. The total amount of 
dollars spent in those years was less than $1 billion, so it 
was $400 million spent on treatment. Now, it is $3.1 billion, 
so the treatment money has gone way up compared to what it was 
in that time.
    I would just like to end my remarks with two points. One is 
to wholeheartedly support S. 304. I think it is right in terms 
of the content. It is a sophisticated response that is 
comprehensive and I support it completely. But even more than 
the issue of the content is the message that it sends, and it 
sends a message that is very important at this time in drug 
policy about the priority given to demand reduction. That is 
very important about this.
    Then, finally, there are two areas where significant demand 
reduction can be achieved way beyond what we have achieved so 
far, and I would like to call the Committee's attention to 
these two areas for future hearings and interest.
    The first is almost all drug use begins during the teenage 
years, 12 to 20. What we need is a national effort to identify 
young people who are using drugs that are illegal, including 
tobacco and alcohol, and to create consequences that will 
convince them not to use. The fact that that use goes on 
unrecognized and without consequences during the teenage years 
is a failure not of youth in America, but of adult stewardship. 
And I am talking about widespread use of testing, linked to 
consequences that are not punitive, but are consequential and 
that would educate and inform and convince young people not to 
use.
    The second suggestion I have is the criminal justice system 
contains the heaviest consumers of illegal drugs. There should 
be a national effort to test every single person out in the 
community from the criminal justice system for illicit drug use 
and escalating consequences for continued drug use as a 
condition of release.
    Those two ideas would do more to reduce demand for drugs 
than anything else we might think of, I believe, and the first 
has to do with initiation, has to do with the people coming 
into the drug problem, and blocking that, stopping that, 
because once a young person gets to be 20, the odds of starting 
drug use at that point are very, very low and falling rapidly. 
The other approach is the biggest consumers of drugs are in the 
criminal justice system and making sure that that group of 
people does not use illicit drugs while they are released in 
the community.
    Thank you very much, sir.
    Chairman Hatch. Well, thank you, Doctor. That was very 
interesting.
    Ms. Hewitt, we will turn to you.

STATEMENT OF EDYIE HEWITT, FORMER DIRECTOR, VERMONT FEDERATION 
  OF FAMILIES FOR CHILDREN'S MENTAL HEALTH, EAST WALLINGFORD, 
                            VERMONT

    Ms. Hewitt. Good morning. Thank you, Senator Leahy and 
Senator Hatch, for inviting me here today. I am here to support 
the Drug Abuse Prevention and Treatment Act of 2001.
    My name is Edyie Hewitt. I am the former Director of the 
Vermont Federation of Families for Children's Mental Health, 
and I am the mother of three sons who have mental health and 
substance abuse issues. All three of my sons have been 
incarcerated for drug-related crimes to support their 
addictions. I want to talk to you today about two of my sons, 
Theodore, 25, and Tony, 21.
    Theodore and Tony were arrested on September 21st of 2000 
in Rutland, Vermont, for selling heroin, along with 10 other 
people. This made front-page news in our local paper, the 
Rutland Herald. My two sons were made to look like major drug 
dealers when, in fact, they were indicted for selling small 
amounts of heroin in order to support their own drug addiction.
    I knew my sons were using heroin, but there was no 
treatment available to them in our community to help them. I am 
not here to tell you that they were not wrong for what they 
did. I am here to ask you for your help to help them break 
their addictions by providing the necessary treatment and 
after-care support that are needed to help them break their 
addiction to heroin.
    I have advocated for years to get the necessary support for 
my three sons. It started when my eldest son Theodore, at the 
age of 15, reached out to ask for help. He had a drug and 
alcohol screening done by a local mental health center. The 
mental health center decided that he should go to Huntington 
Lodge--this is an adolescent treatment facility--due to his 
drug addiction. This facility did not work for my son, and I 
called every treatment facility in Vermont and New Hampshire 
trying to find a placement for him.
    Finally, after many phone calls, Maple Leaf Farm, a 
residential placement in Chittenden County, agreed to interview 
him. His interviewers had then decided that he was depressed 
and that they couldn't help him. I then brought him back to 
school, and I was told he would need to be tutored for the rest 
of the year instead of rejoining his class because he had 
admitted to having a drug problem and seeking treatment. 
Students with alcohol problems were not treated that way, but I 
was told that alcohol was one thing and drugs were another.
    I have told you this story because we are still in the same 
mind set. This was 10 years ago, and we are still in the same 
mind set and still lack the necessary treatment for drug 
addiction, especially heroin addiction. My son Tony will be 
released on March 19th, and I have actively sought treatment 
for him for when he is released.
    At first, I received the run-around from treatment centers. 
I was told that his caseworker needed to make the call, and 
then I was told that Probation and Parole needed to make the 
call. After the heroin town meeting that Senator Leahy hosted 
in Rutland last month, my son was allowed to call a treatment 
facility and have an interview over the phone. He is scheduled 
to go to treatment on March 19th for 14 days. Imagine being 
addicted to drugs for 7 years and having 14 days of treatment. 
There is a 14-day timeframe due to limited availability and 
health insurance issues.
    Although some 12-step programs may be able to help him, he 
really needs more intensive services to address not only his 
substance abuse problems, but his mental health issues as well. 
My son had the fear of returning to the community due to the 
lack of support. He will be homeless, jobless, and penniless. 
So, again, I am asking you to help me help my son, because we 
lack the resources in our community to support his staying away 
from heroin.
    We need to create programs that are community-based and 
offer true rehabilitation services for recovering heroin 
addicts. At this time, Vermont is still in a controversial 
battle over methadone clinics in our State, and right now we 
still do not have one. So how many more people will be 
incarcerated? In Rutland County, there have been 20 arrests in 
the past few months. And how many more people will die? In 
Rutland County, there have been 9 heroin-related deaths in the 
last 2 years from this addiction because they have to wait to 
be treated.
    Did you know that Vermont's correctional centers are 
overcrowded and we are in the process of building another 
facility? Did you also know that 85 percent of the population 
in our correctional facilities are people between the ages of 
18 and 24, and 75 percent of the population of these people 
have substance abuse issues?
    We also need to stop the revolving door of punishment. When 
a person is arrested for addiction-related crimes, they all too 
often are jailed and not treated and then are released back 
onto the street without treatment or proper support or after-
care. This process leads addicts into more addiction-related 
crimes, with the potential to again be punished instead of 
treated.
    I am encouraged by the bill's emphasis on improving 
treatment in jails and prisons. We need to offer the chance for 
true rehabilitation by providing the necessary treatment and 
after-care support that are needed when they are needed. We do 
not need more prisons. We need more treatment, and now. We have 
to create programs that have a continuous wrap-around approach 
for people with substance abuse addictions, including 
detoxification units, residential and outpatient treatment, 
halfway houses, and after-care programs at a community-based 
level.
    It is time that the divisions of corrections, substance 
abuse, and mental health in States like Vermont work together 
and have adequate funding to meet the needs of people with 
substance addiction. We are all in this together, and we need 
to provide the best possible outcome that is necessary for our 
young people to break the disease of addiction. We have to 
start viewing substance addiction as a public health concern in 
Vermont and other rural States because it is. We have to deal 
with this issue now, because our communities and our children 
are depending upon us.
    [The prepared statement of Ms. Hewitt follows:]

   Statement of Edyie Hewitt, Former Director, Vermont Federation of 
                 Families for Children's Mental Health

    Thank you Senator Leahy and Senator Hatch for inviting me here 
today. I am here to support the Drug Abuse Education, Prevention and 
Treatment Act of 2001.
    My name is Edyie Hewitt, I am the former director of the Vermont 
Federation of Families for Children's Mental Health and I am the mother 
of three sons who have mental health and substance abuse issues. All 
three of my sons have been incarcerated for drug-related crimes to 
support their addictions. I want to talk to you today about two of my 
sons, Theodore, 25, and Tony, 21.
    Theodore and Tony were arrested on September 21, 2000 in Rutland, 
Vermont, for selling heroin, along with ten other people. This made 
front-page news in our local paper the Rutland Herald. My two sons were 
made to look like major drug dealers when in fact they were indicted 
for selling small amounts of heroin in order to support their own drug 
addictions. I knew my sons were using heroin, but there was no 
treatment available to help them in our community. I am not here to 
tell you that they were not wrong for what they did, I am here to ask 
for your help to help them break their addictions by providing the 
necessary treatment and after-care supports that are needed to help 
them break this addiction to heroin.
    I have advocated for years to get the necessary supports for my 
three sons. It started when my eldest son, Theodore, at the age of 15, 
reached out to ask for help. He had a drug and alcohol screening done 
by a local mental health center. The mental health center decided that 
he should go to Huntington Lodge, an adolescent treatment facility, due 
to his drug addiction. This facility did not work for my son, and I 
called every treatment facility in Vermont and New Hampshire trying to 
find a different place for him. Finally, after many phone calls Maple 
Leaf Farm, a treatment facility in Chittenden County, agreed to 
interview him. His interviewers there decided that he was just 
depressed, and that they couldn't help him. I then brought him back to 
school and was told he would need to be tutored the rest of the year 
instead of rejoining his class, because he had admitted to having a 
``drug problem'' in seeking treatment. Students with alcohol problems 
were not treated that way, but 1 was told that alcohol was one thing 
and drugs were another. I have told you this story because alter 10 
years we are still in the same mind set and still lack the necessary 
treatment for drug addiction, especially heroin addiction.
    My son Tony will be released on March 19 and I have actively sought 
treatment for him, when he is released. At first I received a run-
around from treatment centers. I was told that his caseworker needed to 
make the call, and then I was told that the probation, and parole 
department needed to make the call. After the Heroin Town Meeting that 
Senator Leahy hosted in Rutland last month, my son was allowed to call 
a treatment facility and have an interview over the phone. He is 
scheduled to go to treatment on March 19 for 14 days. Imagine being 
addicted to drugs for 2 years and then having 14 days of treatment. 
There is a l4-day time frame due to limited availability and health 
insurance issues. Although some 12-step programs may be able to help 
him, he ready needs more intensive services to address not only his 
substance abuse problem, but his mental health issues as well. My son 
has fear of returning to the community due to the lack of supports; he 
will be homeless, jobless, and penniless.
    So again, I am asking you to help me to help my son because we lack 
the resources in our community to support his staying away from heroin. 
We need to create programs that are community-based and offer true 
rehabilitation services for recovering heroin addicts.
    At this time, Vermont is still in a controversial battle over 
methadone clinics in our state, and right now we still do not have one 
clinic in place. So how many more people will be incarcerated (in 
Rutland County there have been 20 arrests in the past few months) and 
how many more people will die (in Rutland County there have been 9 
heroin-related deaths the past two years) from this addiction because 
they have to wait to be treated?
    Did you know that Vermont's correctional centers are overcrowded 
and we are in the process of building another facility? Did you also 
know that 85 percent of the population in our correctional facilities 
are people between the ages of 18 to 24, and 75 percent of these people 
have substance abuse issues?
    We also need to stop the revolving door of punishment. When a 
person is arrested for addiction related crimes, they all too often are 
jailed and not treated, and then are released back out on to the street 
without treatment or proper supports or aftercare. This process leads 
addicts into more addiction-related crimes, with the potential to again 
be punished instead of treated. I'm encouraged by this bill's emphasis 
on improving treatment in jails and prisons.
    We need to offer the chance for true rehabilitation by providing 
the necessary treatment and after-care supports that are needed, when 
they are needed. We do not need more prisons, we need more treatment 
and now. We leave to create programs that have a continuous wrap-around 
approach for people with substance abuse addictions, including 
detoxification units, residential and outpatient treatment, halfway 
houses, and aftercare programs at a community-based level.
    It is time that the Divisions of Corrections, Substance Abuse, and 
Mental Health in states like Vermont work together and have adequate 
funding to meet the needs of people with substance addiction. We are 
all in this together and we need to provide the best possible outcome 
necessary for our young people to break the disease of addiction. We 
have to start viewing substance addictions as a public health concern 
in Vermont and in other rural status, because it is. We have to dual 
with this issue now; our communities and our children are depending on 
us.

    Chairman Hatch. Thank you so much, Ms. Hewitt. That is a 
dramatic testimony, and we are grateful that you took the time 
to come down here and enlighten us and help us to understand.
    Senator Leahy. If I might, Mr. Chairman, I also want to 
thank Ms. Hewitt. She came also on an evening and spent a very, 
very long evening at an extensive public gathering in Vermont 
where she had everyone from law enforcement to addicts, 
parents, teachers, and everything else. I recall it had quite 
an effect on everybody there, and I thank you.
    Chairman Hatch. Thank you.
    Mr. Walton, we will turn to you now.

STATEMENT OF A. JAMES WALTON, JR., COMMISSIONER, DEPARTMENT OF 
      PUBLIC SAFETY, STATE OF VERMONT, WATERBURY, VERMONT

    Mr. Walton. Mr. Chairman, Senator Leahy, Senator Biden, a 
pleasure. Thank you for inviting me. Thank you, more 
importantly, for this bill.
    In today's world, no war could be won solely on the backs 
of just a well-trained, well-equipped army. Rather, it would 
require an equally well-trained, well-equipped navy and air 
force in order to successfully conduct such a war. I think a 
similar analogy could be applied to the war on drugs. Simply 
put, the war on drugs cannot be won on the backs of just a 
well-resourced and determined law enforcement community.
    Rather, a victory in the war on drugs will require an 
equally well-resourced and determined prevention and treatment 
community. Drug prevention and treatment are critical and 
crucial to eliminating the growing heroin problem facing us in 
Vermont. Police officers often tell me that there needs to be a 
treatment program for people in the criminal justice system, 
those with addictions.
    All too often, a heroin addict is arrested and asks for 
help, but there is none to give. The lack of treatment 
opportunities is talked about by prosecutors, by probation 
officers and judges when they try and deal with a drug-
dependent offender. Our goal must be to offer treatment to all 
drug-dependent persons in Vermont and throughout the Nation, 
and prevent new addictions particularly among our youth.
    Until recently, Vermonters have thought their children were 
safe from the ravages of heroin addiction. We were immune 
somehow. The death of a 16-year-old Vermont girl in New York 
City, hooked on heroin and forced into prostitution to support 
her addiction, has changed the public perception in Vermont and 
focused attention on what has been recognized by law 
enforcement and social and health personnel as a growing 
crisis.
    Heroin is in Vermont, and its abuse is becoming alarming. 
Our children and our families are vulnerable, and our 
communities are in danger of following in the footsteps of some 
of the larger cities across America. Vermont is a small and 
beautiful State that is seeing a dramatic increase in heroin 
cases. These statistics reflect a 132-percent increase in 
arrests for heroin since 1998 and a 126-percent increase in 
youth involved in the use of heroin. I believe this is a 
startling statistic for a rural State with a population of just 
600,000 people.
    It would appear that heroin is rapidly becoming the drug of 
choice among our youth. The street quality of heroin is 
increasing, making it more readily usable and attractive, and 
it is cheap. We are also seeing violent crime increasing, which 
we believe is synonymous with our increased drug usage, 
particularly heroin use. Armed robberies have increased 36 
percent in 2000 over the previous 5 years, and many of these 
robberies have been linked to heroin abuse.
    The goal of treatment is to return the individual to 
productive functioning in the family, workplace, and community. 
According to several studies, drug treatment reduces drug use 
by 40 to 60 percent and significantly decreases criminal 
activity during and after treatment.
    The need for treatment is a concern to the State of 
Vermont. The incidence of drug dependency has risen suddenly, 
especially for our youth. In 1999, not one of the self-
referrals to the University of Vermont Human Behavioral 
Psychopharmacology Clinic was under 25 years of age. In the 
first 2 months of 2001, more than half of the self-referrals 
were under 21 years of age. The number of persons across the 
State seeking treatment for heroin abuse alone has doubled 
since 1997. The fastest growing population of persons seeking 
treatment has been our youth, with nearly six times as many 
youth self-referring in 2000 compared to 1997 alone.
    We cannot solve the drug problem by treating it as if it 
were simply only a crime problem. A comprehensive approach 
focusing on prevention and treatment is a better solution. A 
strong enforcement effort that focuses on a zero tolerance 
policy should complement the prevention and treatment efforts 
of other professions dealing with the addiction problem.
    As has been so graphically demonstrated, heroin is a poison 
that not only destroys the individual who is addicted, but does 
serious damage to family, friends, and community. It is a 
public health problem. It will, I believe, only succumb to a 
comprehensive strategy. This bill, the Drug Abuse Education, 
Prevention, and Treatment Act of 2001, is such a comprehensive 
approach.
    Those of us in Vermont law enforcement strongly support 
Title II of this bill, Drug-Free Prisons and Jails, and Title 
VI, Federal Reentry Projects. However, we also strongly believe 
that just making prisons drug-free and focusing on treatment 
for addiction is not enough. We believe that a large investment 
in prevention before our youth become addicted to drugs, before 
the problem becomes criminal, is money well spent.
    So, Mr. Chairman, we in Vermont law enforcement support the 
use of alternative treatment instead of prison. We support 
treatment in prison, we support reentry programs after prison, 
and we strongly support a nationwide prevention effort.
    Thank you.
    [The prepared statement of Mr. Walton follows:]

 Statement of A. James Walton, Jr., Commissioner, Department of Public 
                        Safety, State of Vermont

    Thank you, Mr. Chairman. I am James Walton, Commissioner of Public 
Safety, for the State of Vermont. I speak to you in that role as head 
of the Vermont State Police, but I have also served as the Commissioner 
of Corrections in Vermont, as well.
    I will limit my remarks to the sections of the bill that are most 
relevant to Vermont.
    In today's world, no ``war'' could be won solely on the backs of 
just a well trained, well equipped Army. Rather it would require an 
equally well trained, well equipped Navy and Air Force in order to 
successfully conduct such a war.
    I think a similar analogy could be applied to the ``war'' on drugs. 
Simply put the ``war'' on drugs cannot be won on the backs of just a 
well resourced and determined law enforcement community, rather a 
``victory'' in the war on drugs will require the efforts of an equally 
well resourced and determined prevention and treatment community.
    Drug prevention and treatment are crucial to eliminating the 
growing heroin problem facing us in Vermont. Police officers often tell 
me that there needs to be a treatment program for people in the 
criminal justice system with addictions. All too often a heroin addict 
is arrested and asks for help but there is none to give. The lack of 
treatment opportunities is talked about by prosecutors, probation 
officers and judges when they try and deal with the drug dependent 
offender. Our goals must be to offer treatment to all drug dependent 
persons in Vermont and prevent new addictions particularly among our 
youth.

                THE DRUG ENFORCEMENT PROBLEM IN VERMONT

    Until recently, Vermonters have thought their children were safe 
from the ravages of heroin addiction. We were immune, somehow. The 
death of a 16-year-old Vermont girl in New York City, hooked on heroin 
and forced into prostitution to support her addiction, has changed the 
public perception, and focussed attention on what has been recognized 
by law enforcement, social, and health personnel as a growing crisis.
    Heroin is in Vermont, and its abuse is becoming alarming. Our 
children and our families are vulnerable, and our communities are in 
danger of following in the footsteps of larger cities across America.
    Vermont is a small (and beautiful) State that is seeing dramatic 
increases in heroin cases.
    These statistics (see Appendix) reflect a 132% increase in arrests 
for heroin since 1998 and a 126% increase in youth involved in the use 
of heroin. I believe this is a startling statistic for a rural state 
with a population of 600,000 people. It would appear that heroin is 
rapidly becoming the drug of choice among our youth. The street quality 
of heroin is increasing, making it more readily useable and attractive 
(snorted vs. injected), and it is cheap.
    We are also seeing violent crimes increasing, which we believe, is 
synonymous with our increased drug usage, particularly heroin use. 
Armed robberies have increased 36% in 2000 over the average for the 
previous five years. Between 1994-1999 Vermont averaged 78 armed 
robberies per year. In 2000 there were 106. Many of these robberies 
have been linked to heroin abuse. This increase cannot continue without 
people getting hurt or killed. Drug abusers can at times become 
desperate people.

                    DRUG TREATMENT ISSUES IN VERMONT

    The goal of treatment is to return the individual to productive 
functioning in the family, workplace and community. Measures of 
effectiveness typically include levels of criminal behavior, family 
functioning, employability, and medical condition. Overall, treatment 
of addiction is as successful as treatment of other chronic diseases, 
such as diabetes, hypertension and asthma. According to several 
studies, drug treatment reduces drug use by 40 to 60 percent and 
significantly decreases criminal activity during and after treatment. 
For example, a study of therapeutic community treatment for drug 
offenders demonstrated that arrests for violent and nonviolent criminal 
acts were reduced by 40 percent or more. Methadone treatment has been 
shown to decrease criminal behavior by as much 50 percent.\1\
---------------------------------------------------------------------------
    \1\ National Institute on Drug Abuse (October 1999), Principles of 
Drug Addiction Treatment, Page 15-16.
---------------------------------------------------------------------------
    The need for treatment is a concern for the State of Vermont. This 
incidence of drug dependency has risen suddenly, especially for our 
youth. In 1999, not one of the self-referrals to the University of 
Vermont Human Behavioral Psycho-Pharmacology clinic was under 25 years 
old. In the first two months of 2001, more than half of the self-
referrals were under 21 years old! In that clinic alone the number of 
self-referrals of teenagers for heroin addiction has gone from zero in 
1998 to 12 per month in 2001. The number of persons across the state 
seeking treatment for heroin abuse has doubled since 1997 (in Fiscal 
Year 1997 the number was 164; in FY2000, that number was 344). The 
fastest growing population of persons seeking treatment has been our 
youth with nearly six times as many youth self-referring in 2000 when 
compared to 1997.\2\
---------------------------------------------------------------------------
    \2\ Statistical information from the Vermont Department of Health.
---------------------------------------------------------------------------

               THE BROAD OUTLINES OF THE POLICY APPROACH

    As much of the rest of the nation has learned, we cannot solve the 
drug problem by treating it as if it were simply and only a crime 
problem. Attempting to punish the drug user by applying the force of 
law is not working; a comprehensive approach focusing on prevention and 
treatment is the better solution. A strong enforcement effort that 
focuses on a zero tolerance policy should compliment the prevention and 
treatment efforts of other professions dealing with the addiction 
problem. The other components of the criminal justice system, courts 
and corrections should work closely with treatment providers in placing 
drug dependant persons in treatment where needed and incarcerate them 
(to include treatment) where appropriate.
    As has been so graphically demonstrated, heroin is a poison that 
not only destroys the individual who is addicted, but does serious 
damage to family, friends, and community. It is a public health 
problem. It will, I believe, only succumb to a comprehensive strategy. 
This bill, the Drug Abuse Education, Prevention, and Treatment Act of 
2001, is such a comprehensive approach.
    The strength of this bill is that it attacks the dealers and the 
pushers with swift and sure incarceration, and at the same time 
provides treatment and reentry opportunities for offenders who are 
struggling to take responsibility for their lives and behavior. We know 
that in general, prison does little to make people better; indeed in 
all too many cases it makes people worse. At the same time, we know 
that they are returning to their homes and communities. It is incumbent 
on us, then, to do three things. One, we must keep out of prison, and 
into treatment, all those offenders who do not pose a threat to the 
public safety. Second, while they are in prison, it only makes sense to 
provide incentive and opportunity for offenders to participate in 
treatment, and simultaneously work to create drug-free prisons, so that 
the hard work of treatment is not undone upon return to the cellblock. 
Third, for those offenders who are leaving prison to return to live 
again in our communities, it is in our own self interest that they be 
prepared for reentry, provided with effective treatment programs, and 
support in the form of education, vocational training, jobs, and 
housing.
    Those of us in Vermont law enforcement strongly support Title II of 
this bill, Drug-free Prisons and Jails, and Title VI, Federal Re-entry 
Projects. We believe that not only must we prepare the offender for 
release to the community (and they all do come home, some day), but 
that we must also prepare the community to receive the offender. 
Empowering the community to participate in the release preparation for 
the offender, and giving the community a role in ensuring offender 
accountability, participation in treatment, and activity in the 
community are all measures that not only improve the likelihood of 
offender success, but also provide the citizens of the neighborhood 
with a restored sense of control over the quality of life in their own 
back yards.
    However, we also strongly believe that just making prisons drug-
free, and focussing on treatment for the addicted is not enough. We 
believe that a large investment in prevention, before our youth become 
addicted to this drug, before the problem becomes criminal, are money 
well spent. Programs that divert offenders from repeat crime are of 
great cost-benefit, both fiscally and socially. So, Mr. Chairman, we in 
Vermont Law Enforcement support the use of Alternative Treatment 
instead of Prison, we support Treatment in Prison, and we support 
Reentry programs after Prison, and we strongly support a nationwide 
prevention effort.
    This is not soft on crime. We not only enforce the law, we, too, 
live in Vermont. We have families here, and we know that the only way 
to be safe in our communities is to strengthen the capacity in the 
community to control its own destiny. This bill helps move in that 
direction, toward hope for success, and away from despair over the 
magnitude of the problem. Thank you.

                                APPENDIX

    STATISTICS \3\ (Statewide Drug Task Force Information)
---------------------------------------------------------------------------
    \3\ Statistical information obtained from the Vermont Department of 
Public Safety, Vermont Criminal Information Center.

                        Task Force Investigations
------------------------------------------------------------------------
        Year                Cases          Charges filed       Deaths
------------------------------------------------------------------------
            1995                   10                 7             11
            1996                   11                21              2
            1997                   11                 1              5
            1998                   23                28              4
            1999                    6                30             10
            2000                   65                79             14
------------------------------------------------------------------------


                                               Statewide arrests:
----------------------------------------------------------------------------------------------------------------
      Year           Arrests                     Gender                        Number of 15-21 dear olds
----------------------------------------------------------------------------------------------------------------
          2000              114   70 male, 44 female                         43 of these arrests are ages 15-21
          1999               57                                              22 of these arrests are ages 15-21
          1998               49   37 male, 12 female                         19 of these arrests are ages 15-21
----------------------------------------------------------------------------------------------------------------


    Treatment Statistics \4\
---------------------------------------------------------------------------
    \4\ Statistical information obtained from the Vermont Department of 
Health.

[GRAPHIC] [TIFF OMITTED] T6915.002


    Chairman Hatch. Thank you, Mr. Walton.
    We will finish with you, Ms. Walcott.

  STATEMENT OF DEBRA WALCOTT, RECOVERING DRUG-ADDICTED YOUTH, 
                   LAKE RONKONKOMA, NEW YORK

    Ms. Walcott. Good afternoon. My name is Debra Walcott, and 
I would like to thank the Senate Judiciary Committee for giving 
me the opportunity to testify today.
    I am a resident of the Phoenix House residential drug 
treatment program on Long Island, New York. Before I entered 
Phoenix House 18 months ago, I was 30 pounds underweight, I was 
addicted to cocaine, and I was on probation for grand larceny 
and computer tampering. It was the lowest point in my life and, 
sadly, I didn't even know it.
    I thought I was smart. Instead of shaping up and getting my 
life together, I continued to use drugs. Only now, I stopped 
using just before my monthly visit with my probation officer. 
But she was smarter. She made an unexpected visit and asked for 
a drug test. I tested positive for cocaine. As a result, the 
judge gave me two options: drug treatment or jail. I chose 
treatment.
    My drug use began when I was 15. I grew up in Dix Hills, 
Long Island. My parents divorced and I took it hard. Suddenly, 
my whole life had changed and I felt alienated from many of the 
kids in my school, particularly the in crowd. So I turned to a 
crowd that I felt wouldn't judge me, that is as long as I used 
drugs. Drugs numbed my pain and anxieties. Whether it was 
worrying about my complexion, an argument with my mother, a bad 
grade, drugs blocked out my worries.
    By the time I was 16, I was smoking marijuana everyday and 
drinking alcohol on weekends. After turning 17, I began 
experimenting with cocaine. Next came club drugs--ecstasy, GHB 
and Special K, whatever was available. I was able to keep my 
drug use from my mother, knowing how angry she would be if she 
found out.
    Right after graduating high school, I moved out of my home 
to get away from what I perceived as an overprotective parent. 
Now, I realize I just wanted the freedom to use drugs whenever 
I wanted, and I did. My drug use escalated rapidly and it 
didn't very long before I ran up against the criminal justice 
system.
    I had a job at a local pharmacy and I was stealing pills 
and money. I was arrested and placed on 3 years' probation as a 
youthful offender, but probation could not keep me away from 
drugs. I continued to use cocaine, alcohol, and club drugs, and 
I even started using heroin. Ironically, I wasn't even having 
fun using drugs anymore. I just couldn't stop using them.
    Looking back, I believe my arrest was the best thing that 
could have happened to me because I know I would not have 
entered treatment on my own. Treatment is not easy. It is 
difficult to live in a therapeutic community. It is a very 
structured environment and at first I resented knowing that 
treatment or jail were my only two choices. But after a while, 
I decided to go with the grain of treatment instead of against 
it. I decided to listen and really learn about my addiction. I 
began understanding the effect drugs had on me and my family.
    Treatment has made me do some very deep soul-searching to 
figure out who I really am. It has taught me to set goals and 
follow through with them, and to take responsibility for my 
actions. Mostly, I have learned to deal with my pain and 
anxieties because drugs do not take these feelings away; they 
just suppress them for a while.
    Since I have been in treatment, I have worked in regaining 
a relationship with my family. It is hard. We have had to 
overcome a lot of anger and resentment toward each other. I 
bear responsibility for most of it. It scares me to picture 
where I would be right now if I did not go into Phoenix House. 
I know I would be in jail or living on the streets. Phoenix 
House has given me the opportunity to turn my life around.
    Part of my treatment requires that I visit high schools and 
speak to students about my life and the effect that drugs have 
had on my life. There are times I wish I could talk to the 
parents and tell them how to be a part of their children's 
lives--know who their friends are, look for changes in their 
grades, their attitudes, and their behavior, and talk to your 
children about drugs and alcohol.
    In closing, I would like to tell you what a privilege it is 
to be here today. I am near the completion of my treatment at 
Phoenix House. On April 1, I will move in with my father and 
start a new stage in my life. It is an exciting time and 
Phoenix House has given me the tools I need to face life's 
challenges without drugs. I hope that by speaking before you 
today and by continuing to speak to young people at home, I can 
use my experiences with drugs and treatment and make a 
difference in someone else's life.
    Thank you.
    [The prepared statement of Ms. Walcott follows:]

           Statement of Debra Walcott, Long Island, New York

    Good morning. My name is Debra Walcott and I would like to thank 
the Senate Judiciary Committee for giving me the opportunity to testify 
today. I am a resident of a Phoenix House residential drug treatment 
program on Long Island, New York.
    Before I entered Phoenix House 18 months ago, I was 30 pounds 
underweight; I was addicted to cocaine; and I was on probation for 
grand larceny and computer tampering. It was the lowest point in my 
life, and sadly, I did not even know it. I thought I was smart. Instead 
of shaping up and getting my life together, I continued to use drugs--
only now I stopped using just before my monthly visit with my probation 
officer. But, she was smarter. She made an unexpected visit and asked 
for a drug test. I tested positive for cocaine. As a result, the judge 
gave me two options: drug treatment or jail. I chose treatment.
    My drug use began when I was 15. I grew up in Dix Hills, Long 
Island. My parents divorced and I took it hard. Suddenly, my whole life 
had changed and I felt alienated from many of the kids in my school, 
particularly the ``in crowd.'' So, I turned to a crowd that I felt 
wouldn't judge me--that is as long as I used drugs. Drugs numbed my 
pain and anxieties. Whether it was worrying my about my complexion, an 
argument with my mother, a bad grade--drugs blocked out my worries.
    By the time I was 16, I was smoking marijuana every day and 
drinking alcohol on weekends. After turning 17, I began experimenting 
with cocaine. Next came club drugs--Ecstasy, GHB and Special K--
whatever was available.
    I was able to keep my drug use from my mother, knowing how angry 
she would be if she found out. Right after graduating from high school, 
I moved out of my home to get away from what I perceived as an 
overprotective parent. Now, I realize I just wanted the freedom to use 
drugs whenever I wanted. And, I did.
    My drug use escalated rapidly, and it didn't take very long before 
I ran up against the criminal justice system. I had a job at a local 
pharmacy and I was stealing pills and money. I was arrested and placed 
on three years probation as a youthful offender. But, probation could 
not keep me away from drugs. I continued to use cocaine, alcohol and 
club drugs--and I even started using heroin. Ironically, I wasn't even 
having any fun using drugs anymore. I just couldn't stop using them.
    Looking back, I believe my arrest was the best thing that could 
have happened to me because I know I would not have entered treatment 
on my own.
    Treatment is not easy. It is difficult to live in a therapeutic 
community. It is a very structured environment, and, at first, I 
resented knowing that treatment or jail were my only two choices.
    But, after awhile, I decided to go with the grain of treatment 
instead of against it. I decided to listen and really learn about my 
addiction. I began understanding the effects drugs had on me--and my 
family.
    Treatment made me do very deep soul searching to figure out who I 
really am. It has taught me to set goals and follow through with them--
and to take responsibility for my actions. Mostly, I have learned to 
deal with pain and anxieties--because drugs do not take these feelings 
away. They just suppress them for a while.
    Since I have been in treatment, I have worked on regaining a 
relationship with my family. It's hard. We have had to overcome a lot 
of anger and resentment towards each other--and I bear responsibility 
for much of it.
    It is scary for me to picture where I would be right not if I did 
not go to Phenix House. I know I would be in jail or living on the 
streets. Phoenix house has given me the opportunity to turn my life 
around.
    Part of my treatment requires that I visit high schools and speak 
to students about my life and the effects that drug use has hod on my 
life. There are times I wish I could talk to parents as well and tell 
them how to be a part of their children's lives. Know who their friends 
are. Look for changes in their grades, their attitudes, and their 
behaviors. And, talk to your children about drugs and alcohol.
    In closing, I would like to tell you what a privilege it is to be 
here today. I am near the completion of my treatment at Phoenix House. 
On April 1, I will move in with my father and start a new stage of my 
life. It is a exciting time--and Phoenix House has given me the tools I 
need to face life's challenges without drugs. I hope that by speaking 
before you today--and by continuing to speak to young people at home--I 
can use my experiences with drugs and treatment to make a difference in 
someone else's life.
    Thank you.

    Chairman Hatch. Well, thank you. We appreciate your 
testimony.
    Senator Leahy, we will go to you.
    Senator Leahy. Thank you very much.
    Ms. Walcott, I think I can speak for Senator Hatch and 
Senator Biden and all the other members that we wish you 
continued success. April 1st is probably -you probably look 
forward to that day with mixed emotions, but I hope they are 
mostly good ones, and wish you well on that.
    Once you start that, if you feel the need to call back to 
Phoenix House or to call somebody, will you have any lifeline 
that you can go to, if needed?
    Ms. Walcott. Yes. They allow former graduates to come up to 
the House and visit any time that they want to for their own 
support and to give other people support.
    Senator Leahy. And if you felt the need, would you do that?
    Ms. Walcott. Definitely.
    Senator Leahy. Were you exposed to any kind of drug 
prevention or education programs before you began using drugs?
    Ms. Walcott. Yes, but it was way back when I was in 5th 
grade in school. It was the DARE program, and that was the only 
prevention that was in my school. My family didn't really talk 
to me much about doing drugs.
    Senator Leahy. So you don't feel that was adequate, your 
5th grade exposure?
    Ms. Walcott. It was too early.
    Senator Leahy. Would it have helped if that had been sort 
of ongoing, reflective of the ages you would be as you moved 
on?
    Ms. Walcott. Yes.
    Senator Leahy. If you hadn't undergone treatment, would you 
have been able to recover?
    Ms. Walcott. No.
    Senator Leahy. Mr. O'Connor, I compliment you for being 
here. I have heard you speak at a number of things, and as a 
parent myself I can only imagine how painful it must be every 
time you speak to remember your son.
    Do you know at what age he first began using drugs?
    Mr. O'Connor. Fourteen.
    Senator Leahy. Do you know whether there were any programs 
in the school that he was in or anything, any kind of an 
effective anti-drug program there? Obviously not effective in 
his case, but was there any kind of a drug program that you 
were aware of there?
    Mr. O'Connor. There was a drug program there and the 
program was all about the selling of drugs to the kids. They 
had a very good sales program going on in that school.
    Senator Leahy. I said anti-drug program.
    Mr. O'Connor. No, nothing punitive, Senator.
    Senator Leahy. Did your son go into any drug treatment 
programs?
    Mr. O'Connor. He did. He went into Betty Ford out here in 
California for about a month. That was a month program, a 
pretty expensive program.
    See, most of the people that write to me at my Web site 
don't have any money. There is nothing available. A woman wrote 
to me the other day and she had lost one daughter who had died 
and was going to lose another one, and she doesn't know where 
to turn. She can't get these kids to--she can't put them 
anyplace.
    In Oklahoma where she lives, there are some free centers, 
but the waiting list is 8, 9 months. That is why I say what we 
are really going to have, in my opinion, is free rehabilitation 
centers in all the counties of our Nation, all the States and 
counties of our Nation. It is a big, big item, and to start a 
thing like that is $1 billion. But as I also said, we have the 
money to do that now. We have to get on it. I don't think there 
is any other thing you can do. You have got to cure the wounded 
and the dying. That is what it comes down to.
    I don't understand our former drug czar who came on and 
said that usage is down. I don't know where they get those 
figures. I simply don't believe the figures that he gave.
    Senator Leahy. Well, let's say that there is one thing that 
we can agree on. There are, I feel, inadequate drug treatment 
programs, the numbers of them. Obviously, a private 
rehabilitation program is something in my State the vast 
majority of people could not afford, and I am sure, as you know 
from the people who access, Mr. O'Connor, your Web site, the 
same thing.
    I would ask Ms. Hewitt, for example, did your sons have any 
access to drug treatment during the time they had been in jail? 
I mean, here is one time, if you will excuse a terrible pun, 
you have a captive audience. I mean, is there a drug treatment 
program there?
    Ms. Hewitt. No, there isn't. Actually, my son does attend--
there is an AA meeting that is held there, but there is no 
treatment in that facility. Actually, I have say, Senator 
Leahy, when my sons went into jail, there were four other 
people who were actually arrested that day all suffering from 
the withdrawal of heroin, and they actually were offered 
aspirin in that correctional facility because they were not 
ready to deal with people withdrawing from heroin in our State 
at all. They just had no idea what was going to be happening 
there. So there was no medical treatment either for them.
    Senator Leahy. The other members of the panel don't 
understand just where Rutland is. I do, of course, but could I 
ask you this: Do you get the impression that because you live 
in a small city, in a rural State, that it is even more 
difficult to find effective treatment?
    Ms. Hewitt. Yes, I do. Actually, you have to travel to get 
treatment in regard to this issue. There is nothing in our 
county. I have to agree with what Carroll O'Connor just said. 
We have to put community-based services into place. You know, 
we are talking about Vermont and we don't have a lot of money 
there. That is my opinion. We are just kind of making a living.
    Senator Leahy. There are 600,000 people in the whole State. 
There is only so far you can stretch those resources.
    Ms. Hewitt. Right, and if we are talking about people 
addicted to a substance and we are going to offer the challenge 
of having them go seek treatment, transportation is a major 
issue. That is, I think, why there is such a controversy over 
the methadone clinic. That is one of the pieces right there 
because some people do not want people to take that home. But 
it is a medication that some people are going to have to have. 
So I just wish that in our State we get it together because 
what Mr. Walton said in regard to--it is here and it is time 
that we start addressing the issue.
    Senator Leahy. My time is up. I am going to come back with 
some other questions for Dr. DuPont and Mr. Walton on my next 
round.
    Chairman Hatch. Senator Biden, we will turn to you now.
    Senator Biden. Thank you, Mr. Chairman.
    I appreciate you all being here. Mr. O'Connor, I am an 
admirer. Having lost a child myself, not to drugs, I can't 
imagine what it is like having lost a child to something that 
you probably torture yourself into thinking maybe there is 
something I should have known or could have done. So I can't 
imagine the depth of the pain and the anger.
    Both of my colleagues have been supportive over the years 
back in the days when I used to chair this Committee. This is a 
stack of drug reports I have written since 1989, and there is 
the same theme that runs through all of them that we haven't 
addressed yet, in my view. One is the prevention side.
    Mr. O'Connor is right. I was rereading the report I wrote 
in 1990. I am the guy, Mr. O'Connor, who wrote the drug czar 
legislation, setting up one person to have control of all these 
agencies, which was an 8-year battle. From the very beginning, 
the call for an incredibly increased effort on demand reduction 
has gone unheeded right from the very beginning. So every year 
I write this report and every year we woefully underfund it.
    I want to make clear that none of us here that I am aware 
of are suggesting that we withdraw from the enforcement side of 
this. We are not reducing any dollars at all in what we are 
proposing, about $1 billion. We are not taking that out of 
money for cops, out of money for interdiction, out of money for 
other areas.
    But to get to the point, there are three things that it 
seems to me we should be focusing on and I would like Dr. 
DuPont to begin by commenting on them. One is a significant 
increase in treatment. In the report I wrote back in 1990, I 
pointed out that in New York City the number of people--my 
conservative friends used to say, you know, put them in jail 
because these people won't seek treatment. The number of people 
walking into a treatment center in New York City, raising their 
hand and saying the following, I am an addict, I have a disease 
of the brain, I can't control it and I am committing on average 
125 or 130 crimes a year, stop me, take me in, do something 
with me now, I am turning myself in--they were told you come 
back in 8 months, in 8 months.
    Now, I remember when Bill Bennett used to say we are not 
ready for treatment, we don't have the facilities, we can't do 
this--you know, our morality czar. And yet right now, of the 15 
million people who use drugs in this country, about 5.5 million 
are addicted, have a disease of the brain, can't do anything by 
themselves about it, and 2 million of the estimated 5 million-
plus are in some kind of treatment.
    Now, Dr. DuPont, I wrote a report 2 years ago saying heroin 
is coming. This is a big deal; high school students, hang on. 
This was 1999: hang on because here it comes. It is pure. Back 
when you were doing this, Dr. DuPont, as the drug czar, we were 
talking about heroin from Mexico that was about 6 to 12 percent 
purity. The stuff we are talking about now is 90 percent pure 
in my State, 90 percent pure.
    So now what they are doing, Mr. O'Connor, is they are doing 
a thing they used to call back in the early part of the last 
century, ``chasing the dragon.'' This stuff is so pure they can 
smoke it and inhale it like crack cocaine. It is so pure. So 
now what is happening is it is becoming the equal opportunity 
addicter.
    Beautiful young women like the young woman at the end, Ms. 
Walcott, who has a cocaine problem are now getting addicted in 
high school to heroin, because before they wouldn't take a 
needle and shove it in their arm or shove it in their hip 
because it was a problem. Now, all they have to do is smoke it. 
They eventually will main-line it. They will eventually shoot 
it in their arm. They will eventually be poly abusers, but it 
is a whole different world.
    Here is the question I have for you: I don't know of any 
program dealing with heroin addiction, or for that matter 
cocaine addiction, that has any efficacy that is less than 6 
months long. I have not heard of one. We keep trying to buy 
this stuff on the cheap. We say we have a 30-day treatment 
program, which is a detox facility. I have a lot of alcoholics 
in my family, Mr. O'Connor. I know about detox facilities. They 
are detox facilities; nothing else happens, period, and they 
are back out.
    I am the first guy to come along here and insist in the 
Biden crime bill that we finally passed that there be drug 
treatment in prison. Guess what? Dr. DuPont and others, Mr. 
O'Connor, pointed out to us years ago that there is no 
difference in the rate of success whether you are forced into 
treatment or you voluntarily go into treatment. This old thing 
about you have got to want it, you have got to decide now is 
the time for me to cure it, is malarkey.
    You get a success rate of treatment in prison. Yet, the 
States won't pony up the money even in the days when they have 
a lot of money. They talk about tax cuts and they talk about a 
whole bunch of other things. But we are doing it federally. You 
know, we are going to release from county and state prisons 
close to half a million people this year who, as they walk out 
the door and get their $10 ticket for the cab, are addicted to 
a drug as they walk out the door. They are all accidents 
waiting to happen.
    The last part of this is back in 1990, with your help, I 
proposed spending $1 billion a year on pharmacotherapy 
treatment. There is a lot of promise in antigens and 
antagonists that aren't silver bullets, but can put someone in 
a position where the total therapy that they are engaging in 
has a much greater chance of success. We have very promising 
operations--bupenorphine, carbomazepine, a whole range of drugs 
sitting out there that no drug company wants to deal with.
    Do you know why they don't want to deal with them? Even if 
they find a cure for cocaine, the folks who are on cocaine 
don't want to buy it. Maximum, there are no more than 15 
million of them, and you are in a position where it is going to 
cost them hundreds of millions of dollars to develop the drug. 
So they don't want any part of doing it. We do have first-rate 
scientists at the National Institute on Drug Abuse whom we can 
fund to do the kinds of things we need.
    So my question is this: How in God's name are we going to 
deal with this problem unless you take the captive audience 
that we already have in prison who, when you let them out, are 
going to commit a minimum of--I think the statistic is 89 or 
85, to a maximum of 190, depending on whose number you take, 
felonies a year to keep their habit going--how are we going to 
do anything with this problem unless we provide for a 
significant increase in the number of treatment facilities that 
are expensive, long-term treatment facilities?
    Thirdly, how are we going to make any real dent in the 
remainder of this gigantic problem we have if we are unwilling 
to provide for focusing on, as you said, at-risk youth, front 
end? You don't have to be a rocket scientist to figure this one 
out. What do we do? Are we going to make the next step here if 
we don't do those things, Dr. DuPont?
    Dr. DuPont. Senator, I think one area of tremendous 
opportunity is to harness the criminal justice system by 
linking it with treatment. I remember what Dr. Leshner said 
about that and what Ms. Walcott said. She made it very clear 
that without the force of the criminal justice system, she 
would not have gone into the Phoenix House program.
    The way the policy debate is emerging politically here is 
it is law enforcement versus treatment.
    Senator Biden. That is why I proposed drug courts.
    Dr. DuPont. And drug courts is a wonderful development 
because it brings them together. They need each other to 
succeed. Treatment needs law enforcement to succeed and law 
enforcement needs treatment to succeed, and this bill does a 
lot of that, which is very much to the bill's credit, I think.
    I believe that is the single greatest opportunity in the 
future, and it is not just prison. We keep talking about 
prison. It is parole and probation, which have much larger 
numbers of people.
    Senator Biden. That is right.
    Dr. DuPont. And to use those to enforce a drug-free 
standard and to link them to publicly funded treatment is a 
goal that I believe both parties can support with considerable 
enthusiasm. Rather than being break-the-bank expensive--and Mr. 
O'Connor is saying this--I think it is really affordable in 
relationship to our National concern about this problem.
    Senator Biden. Mr. Chairman, I realize my time is up. I 
would like to ask unanimous consent that figures I have on how 
and why treatment works and the definition of treatment working 
be entered in the record at this point.
    Chairman Hatch. Without objection, we will do that, Senator 
Biden.
    [The information referred to follows:]

                   TREATMENT & PREVENTION STATISTICS

Does Treatment Work?
    Drug addiction is a chronic relapsing disease. And as with other 
chronic relapsing diseases--such as diabetes, hypertension and asthma--
there is no cure, although a number of treatments can effectively 
control the disease. According to an article published in the Journal 
of the American Medical Association in October, the rate of adherence 
to the treatment program and the relapse rate are similar for drug 
addiction and other chronic diseases--meaning that treatment for 
addiction works just as well as treatment for other chronic relapsing 
diseases.
    The longer an addict spends in treatment, the greater the chances 
that the treatment will be successful. Treatment outcome studies 
suggest that a minimum of several months is necessary to maintain 
improvements after treatment. However, the link between outcomes and 
length of time in treatment may reflect the fact that more motivated 
patients may remain in treatment longer.
    Drug treatment is cost effective, even when compared with 
residential treatment, the most expensive type of treatment. 
Residential treatment for cocaine addiction costs about $12,500 a year, 
a substantial savings compared to probation (nearly $17,000/year), 
incarceration (nearly $40,000/year), or untreated addiction (more than 
$43,000/year). That means that untreated addiction costs more than 
three times as much (3.4 times to be exact) as residential treatment.
    Unfortunately, only two million of the estimated five million 
people who need drug treatment are receiving it. The Drug Abuse 
Education,
    Prevention and Treatment Act takes steps to close this ``treatment 
gap'' by targeting drug treatment to rural and economically depressed 
areas, funding adolescent treatment and residential treatment centers 
for women with children, and increasing funding for the National 
Institute on Drug Abuse--whose scientists conduct 85 percent of the 
world's research on drug abuse--to conduct clinical trials on new 
treatments for addiction.

    Senator Biden. I will wait for a second round here.
    Chairman Hatch. Dr. DuPont, Ms. Hewitt mentioned that her 
son attends AA meetings in jail. What are your thoughts as to 
how AA, Narcotics Anonymous, and other 12-step programs 
complement long-term treatment programs or whether they are 
really effective? Are these programs sufficient on their own or 
are they just adjuncts to treatment?
    Dr. DuPont. The 12-step programs are not treatment. They do 
not think of themselves as treatment and they are not 
treatment, and I think it is extremely important for us to be 
very clear about that. So when we are talking about treatment, 
we are not talking about 12-step programs.
    Having said that, I believe the 12-step programs are, as I 
have called it, the secret weapons in the war on drugs. That is 
how real people get well and stay well.
    What real treatment does is help people understand the 
disease that they suffer from, take responsibility for their 
behavior, and then enlist in the 12-step programs and not just 
stop using drugs. They don't just change their lives by stop 
using drugs; they change all aspects of their lives, especially 
in terms of their spiritual development. That is what the 12-
step programs are about and they are a modern miracle.
    The best treatment integrates the 12-step programs into it, 
but they are not the same. You cannot simply say to a drug 
addict, just go to a meeting and that is the end. Most will 
need treatment to get there. I would like to hear Ms. Walcott 
talk about what her after-care plans are, and I would be 
willing to bet, having not heard anything, that the 12-step 
programs are a very central part of her plan to stay off drugs 
and have a better life for herself.
    Chairman Hatch. How about that, Ms. Walcott? We are so 
pleased to have your testimony, because you are telling a lot 
of young people all over this country to never get involved in 
this stuff. You are also telling them that if they do, there 
may be some hope. So your testimony is extremely important here 
today.
    What do you have to say about that?
    Ms. Walcott. Well, my plan when I leave treatment is to 
continue treatment through an outpatient basis, which I would 
go twice a week and still go to groups and all that kind of 
stuff for about 6 months, and continue to go to NA meetings to 
build a positive support network.
    Chairman Hatch. Well, that is good.
    Senator Biden. NA meetings are similar to AA meetings, 
correct?
    Ms. Walcott. Correct.
    Dr. DuPont. Let me just say about the 12-step programs, 
there are three basic components. One is AA, which was the 
beginning to deal with alcohol problems. And then because AA 
had what they called the singleness of purpose that only dealt 
with alcohol, it was necessary to create NA, which everything 
else is under NA, and then Al Anon, which is for the family. So 
between the three, you cover the whole spectrum of alcohol, 
other drugs, and family.
    Chairman Hatch. Well, a while back I was informed by law 
enforcement officials--I had one of the leading people in the 
country come to me and say, ``My son was convicted for 
methamphetamine addiction, and he served time in jail and he 
got out. But they just picked him up again because he set up a 
meth lab for his own use, and I need your help.'' And I said, 
well, it sounds pretty bad to me. And he said, ``I am not 
asking you to keep him out of jail. I am asking you to see if 
we can find some treatment program that will help him.''
    So I spent some time looking at that and talking to law 
enforcement officials and experts in the field, and the 
consensus seemed to be--and, see, the new scourge, in addition 
to cocaine, heroin, and so forth, is methamphetamine. For 
methamphetamine addiction, the consensus seemed to be that it 
would take up to 3 years of Federal rehabilitation to get them 
to a point where they can handle the problem. They will never 
get rid of the desire; it is just a matter of being able to 
handle it.
    Is that consistent with your experience, Dr. DuPont?
    Dr. DuPont. I think it is a prolonged treatment, not 
necessarily all residential.
    Chairman Hatch. But it takes years, is the point.
    Dr. DuPont. Years of treatment. Again, to go back to Ms. 
Walcott's statement, she is talking about a residential program 
of 18 months, I believe, and then following that with 6 months 
of intensive outpatient after-care, and then she is going to go 
to these meetings. That is the kind of scale that we are 
talking about where you integrate a residential program with an 
outpatient program, and where the eventual direction is to the 
12-step program.
    Chairman Hatch. Well, I only cite that to warn people out 
there in America that this is a tremendous set of problems and 
that there are no simple, easy, immediate answers. What this 
bill is trying to do is get help for these people.
    Now, Mr. O'Connor, you have suggested that we try to get 
treatment facilities and treatment programs in virtually every 
large county or heavily populated county in the country. Since 
you have had so much experience in this and the heartaches in 
your life have been so severe, I would like you to take some 
time and tell parents out there who are watching this what you 
think they should do for their children as they come into the 
ages where they might be tempted to be in this drug culture.
    Mr. O'Connor. Well, one of the things that I think is 
lacking in the drug education at the moment is education of the 
parents. Trying to work on the kids and telling them don't do 
it, don't do it, don't do it--kids aren't paying attention to 
that. ``Just say no''--that doesn't work.
    They have to understand and the parents have to understand 
that the use of these drugs changes the cells in the brain. It 
just changes people. You go on with this and you are a new 
person. The kid that shot himself in the head was not my son. 
That was an entirely different person, a new personality. He 
had taken leave of conscience, he had taken leave of love. He 
could talk about all these things and mouth all these things, 
but they didn't mean anything to him. ``Yes, I love you, pop,'' 
and so forth and so on. He didn't anymore; he was another 
person. He wasn't my kid.
    Young people have to understand that they are putting 
themselves in harm's way very much so. Their personalities are 
going to change. They are going to become different. They are 
not going to have the same life and they are going to get worse 
and worse and worse.
    Now, of course, Senator, you gave us a figure a while back 
of something like $400 billion this is costing the country 
annually. Did I hear that right?
    Chairman Hatch. That is right, if you add everything, law 
enforcement and everything else.
    Mr. O'Connor. Well, you know, that is the reason we ought 
to be ready to spend a lot of billions now to cut that out.
    But, anyway, we have got to educate the parents, and 
parents have got to educate the kids and talk to the kids on a 
fairly sophisticated level. There ought to be meetings in 
schools on all of this, and charts should be shown. I saw these 
charts up there at the University of San Francisco, charts 
showing cross-sections of the brain showing how the cells 
mutate, and they might not ever come back. Over the course of 
treatment, some of them come back. They are reshaped, they are 
revived. But some of them stay distorted forever.
    So you have got to say to your kids, do you want to become 
a different person? Do you want to just cut yourself off from 
everybody, from us, from love, from honor, from conscience? 
This is what is going to happen if you become an addict.
    Of course, you know, as our young lady there will tell you, 
there is no cure. She has to go on for the rest of her life 
controlling this thing. That is all she can do is control and 
function, but she is going to do that and she is going to live 
a normal life and she is going to become a contributing member 
of the community. This is what we have to do, some programs to 
educate parents as well as educate the kids.
    There is one other thing I would like to throw in. The last 
time we met in Washington, Senator, I proposed this to you and 
you said ``I think we would have a little trouble with that 
one,'' and that was the proposition of these drug pushers on 
the streets, you know, going all around; my favorite pusher out 
here who helped get rid of my son. They don't pay taxes; they 
don't even file any returns. They haven't got time. They are 
too busy pushing.
    They are making so much money, they get apartments and 
drive fancy cars around. They don't pay a dime for the 
privilege of life in our country. They don't even file returns. 
Well, now, that is a Federal rap; that is not just a little 
dope rap. There should be some way to be able to get to these 
people and say, did you make out a return? Oh, you did. Well, 
let me go over to the car here and we will just check you out 
on the computer.
    And if one of these bums hasn't made a return, there should 
be something, you know. Come down to Federal court; here is a 
ticket, the same as if you weren't carrying your draft card in 
time of war. Any cop could ask you, what are you doing for the 
war effort? I think cops should be able to say to these pushers 
once they identify them, what are you doing for the effort? Did 
you make out a tax return? Have you got any proof of filing a 
return?
    We ought to send some of them away to Federal pens on tax 
returns. There has got to be another way to assist law 
enforcement in arresting and putting these guys away. Some of 
them are women, too.
    Chairman Hatch. We are going to do our best on that, I will 
tell you. That is one suggestion, and it is one that I think we 
will follow.
    But I am going to bet, like you do, on Ms. Walcott. I think 
she is going to be just fine, and she is going to be a 
productive member of society. I can certainly believe in that 
and tell you that.
    Ms. Walcott. Thank you.
    Chairman Hatch. Senator Leahy? My time is up.
    Senator Leahy. Thank you.
    Dr. DuPont, you spoke about there being a heavier 
concentration on drug treatment during the time when you were 
drug czar as a part of our anti-drug policy. Why do you feel 
that ratio has changed? Why do you feel that there has been a 
deemphasis on drug treatment, and what should we be doing? 
Also, what treatment programs do you think might be most 
effective if we were to put added funding in?
    Dr. DuPont. Thank you for that question, Senator. What I 
said was the percentage was highest in that era. Most people 
talk policy and they talk percent instead of dollars. The 
dollars weren't the highest in that era, so I will clarify that 
point.
    I think it was very dramatic at that moment in history, and 
this was described in the book called The Fix, by Michael 
Massing. The new idea was to reduce demand by treatment, and 
the concept was treatment on demand. The very thing this 
Committee is talking about was the mantra of the time, and we 
got away from that.
    Instead, what has happened over the years is an increased 
focus on law enforcement. I think the sad fact is that we have 
tended to think about this as either/or. We have tended to 
think about it as either we are going to help, we are going to 
rehabilitate, or we are going to punish, and it is going to be 
this or that. I think the new thinking that needs to come 
around is to put those things together. That, to me, is the new 
frontier.
    What kind of treatment works? I think there are a lot of 
different approaches and I don't think there is going to be any 
one that is going to be the answer. There has been an interest 
in the bill--and I was to encourage this--for accountability 
for treatment because I think treatment can be not very good. I 
think it is very important to score treatment and encourage the 
treatment programs to do follow-up studies of the people who 
are in the programs so that we get some sense of what the value 
is for the investment of that treatment dollar. But I think 
that all can be done, and it can be done at costs that are 
quite affordable in relationship to the priority the people of 
this country put on the problem.
    Chairman Hatch. Let me interrupt for just a second, Dr. 
DuPont, with the permission of Senator Leahy. If we could put a 
wide variety of rehabilitation centers out there, do we have 
enough personnel, do we have enough skilled, educated people 
who understand these issues well enough to be able to make a 
difference and to be able to staff these various facilities?
    Dr. DuPont. I think we do. The world has changed very 
dramatically. About two-thirds of drug treatment in this 
country--the total bill for drug treatment in this country is 
about $7.5 billion a year. That is what is being spent now, and 
two-thirds of that is public money and one-third of that is 
private insurance money.
    One of the things that has happened with managed care is 
they have closed down most of the inpatient treatment programs 
in the private sector, putting large numbers of talented 
people, I think, out of work. And I think they could be 
recruited in very large numbers into these programs.
    I think that the issue that people don't realize is how 
motivated recovering drug addicts and alcoholics are to 
contribute in this effort and what they can offer. There are 
very large numbers of those people, plus, as Dr. Leshner was 
saying, the field has become much more attractive to 
professionals of a broad range. So I think the answer is you 
could definitely recruit all the people, both the recovering 
part and the professional part, to fill all the places that 
would be put up.
    Senator Leahy. And I think the other point you make about 
having a method of accountability should be really thought 
about, to be able to go back and test and check and see what is 
working. Again, it is like somebody saying we are going to have 
a crime bill because we are all against crime. Well, I think we 
should just somewhere, maybe he first day of the Congress, say 
we will pass a resolution that we are all against crime and 
that we are all against drug addiction, and that we really want 
to help the teenagers in this country, because we all do.
    Sometimes, though, in trying to prove it, we pass things 
that look very simplistic and we don't go back and look at 
whether they work or not. I think some of the reassessment of 
mandatory minimums is going to come about because while it may 
have seemed like a great idea, and in some instances may have 
been, we found a lot of instances where it was not. So I keep 
stressing the question of accountability when we set these 
programs up.
    Commissioner Walton, again I appreciate your coming down, 
as you have other times on hearings here. It is helpful because 
as Commissioner of Public Safety in Vermont, you can probably 
best speak to the problems of a rural area. Again, as I 
mentioned earlier, our largest city is less than 40,000 people.
    One thing, though, that every State has, whether large or 
small, is prisons. Could you tell me how serious a problem is 
drug use and drug addiction among Vermont's prison population? 
And if we had money to support drug testing and treatment in 
prisons, going back to something I discussed with Ms. Hewitt 
earlier, would that help with the recidivism rate?
    Mr. Walton. Mr. Senator, I don't think there is any 
question but that treatment programs in Vermont prisons or any 
prisons reduce recidivism rates. I think close to 80 percent of 
those people who are discharged from prisons have some sort of 
dependency problem. Now, a substantial portion of that would be 
the drug alcohol, but nonetheless there is a dependency problem 
among many of the persons released from our prisons. 
Absolutely, treatment in prison would make a difference. It 
would reduce recidivism. It will reduce crime while they are 
out if we can curb the addictions.
    I think I heard Dr. DuPont say earlier that one of the 
statistics that exists today is that most of the people who get 
into drugs get into drugs in their young, teenage years. As 
much as we have said about treatment here today, I think we 
would not want to leave this panel without reemphasizing the 
importance of prevention. We must take steps, I believe, as a 
State, as a Nation as a whole, to prevent those addictions. 
Whatever efficacy there is in terms of treating someone who has 
become addicted, there must be even greater efficacy for us to 
stop the addiction before it starts.
    You know, I am not sure that there is one point that Mr. 
O'Connor and I might not agree on. I heard him say earlier that 
he doesn't believe in the ``just say no'' approach to dealing 
with children and young people. But when I looked at the 
statistics some years back in terms of the drug curve among our 
youth, when we were as a society in the late 1980's saying no 
on a regular basis to kids and using PSAs--I still recall the 
PSA with a frying brain on it, and many other people do.
    When we were putting those kinds of messages out over 
television and every other medium we could do for our young 
people, I think it had an impact on our youth. I think, first, 
it allowed us, I think, to get a handle on a growing drug 
problem in this country. And I think when we moved away from 
that ``just say no'' approach in its many forms, I think we 
lost some ground, and I think that lost ground is coming back 
to bite us today with a new group of youth who have not been 
exposed to that, who don't understand the addictiveness of 
heroin, for example, and that taking this first smoke that 
Senator Biden talked about earlier--within one smoke or two 
smoke's exposure, they are addicted. That is how quick heroin 
addiction grabs you, and perhaps some of the other drugs are 
just as deadly.
    That is how quickly it can happen for our youth, and I 
think we have to get the message out. Yes. Ms. Walcott, I think 
we have to get it out in the 5th grade and 6th grade, but the 
problem with our DARE program was resources. We cut it off 
after the 5th and 6th grade. Even though there was a program 
for some of the older kids, in most cases it was not put forth.
    I think we have to have some continuity in those drug 
prevention programs, and I think we have to get out there and 
we have to pitch it from television, on the Net, in every forum 
that we can find, in teen centers with posters, with 
counselors, with school counselors, and with others. We have to 
tell our young people drugs are deadly, and help them 
understand what the impact can be on their lives.
    I think this bill opens the door to that. It certainly 
opens the door to treatment. I think it opens the door to 
prevention. I guess if I said we only had once choice--
prevention, treatment, or law enforcement--we could only spend 
our money one way, I would say you spend it on prevention.
    Chairman Hatch. That is interesting.
    Senator Leahy. If I can just close on this, I think we all 
agree, and one of the reasons why Senator Hatch and I have put 
so much emphasis on it is it not something you can just step 
into, talk about it now and then way away. I think as Ms. 
Walcott and Ms. Hewitt have said, and both you and Dr. DuPont 
have said, if you have somebody who has sought treatment and 
has received treatment, this is not something you can say, OK, 
now you are cured, goodbye; we don't need to have any support, 
we don't need to have any follow-up, we don't need to do 
anything else. We are talking about a lifetime situation.
    Thank you.
    Chairman Hatch. Senator Biden?
    Senator Biden. By the way, as you might guess, Senator 
Leahy, your Commissioner is absolutely right. Let me give you 
the statistics on drug treatment in prisons. In the Federal 
system, the only place where we have it universally, in the 
year 2000 there 12,541 inmates who participated in drug 
treatment programs. And over the period since this began, there 
are statistics that have been assembled that show that someone 
who participated in a drug treatment program in prison is 73 
percent less likely to be re-arrested than the rest of the 
prison population when they are released and 44 percent less 
likely to use drugs than prisoners who did not participate in 
the system. How many cops does it take to reduce the drug-
consuming population by 54 percent? There are certain things 
that are just obvious.
    I want to speak to the prevention piece for just a second. 
We all pussy-foot around this, and I have found myself doing 
it, too. I have spent the bulk of my political career dealing 
with this issue, and will never forget a briefing in 1989 that 
I got from two professors at Yale Medical School. I asked why 
do people start using drugs in the first place? What is the 
reason? And the answer was because it feels good and they want 
to feel good.
    And there was given a heck of an example by this doctor, 
which I won't repeat, who was not a sexist at all about how 
young women or men participate in sexual activity. If the first 
time was in the back of a car and it was horrible and they 
didn't like it, they are not rushing to do it the next day. But 
if the first time somehow was at the skilled hand of someone 
who knew what they were doing, they were back the next morning. 
So some people are lucky; they try it and don't like it. I know 
this sounds silly, but let's be honest about this. They like 
it, it works. Other people try it and they don't like it. It 
doesn't work and they stop.
    Now, every study I have ever read has said the following: 
there are certain gateway activities. If a kid at 13 is 
smoking, they are going to be more likely to smoke a marijuana 
cigarette. The kid who never had a cigarette in his mouth, a 
normal cigarette, is going to feel funny smoking that cigarette 
for the first time, that joint for the first time.
    Kids who start to use alcohol when they are 12, 13 or 14, 
even though it is not a medical connection--I am not making the 
argument that you use alcohol and that means you are going to 
be addicted to drugs. And I asked again, why is it? And they 
said, you know, the kids who most likely get addicted are the 
kids who have the most talent and the kids who are the ones who 
are willing to take the most risk, the same kid you told, don't 
cross that highway, when he was 5 years old and he was sure he 
could negotiate it and he would cross that darn highway.
    Other kids, you say ``don't cross the highway,'' and they 
say ``I am not going anywhere near the highway,'' not merely 
for fear that the parent will be angry, but because they are 
not sure they can cross the highway and not get hit. So the 
chance-takers are also the kids who are the most susceptible. 
We lose probably the best of our young people because they are 
the ones who take the chances. The same person who wants to 
take a chance on, figuratively speaking, going to the moon or 
going to Mars is the same kid who will take the chance, the 
same instinct on trying for the first time.
    So here is my question. I think we should, in fact, as a 
society face up to the fact as parents that there have to be 
consequences for your child in their early teen years for 
smoking or drinking. My kids went to a very good parochial 
school in my State, academically literally rated the best 
school in the State. You know, it was hard to get the parents 
to sign a pledge that they would not allow alcohol to be 
consumed in their homes while they were there and they would 
not allow their homes to be used by their high school child 
when they were not there.
    Mothers would say ``my daughter won't be invited; she will 
never have parties here if we have that zero tolerance for 
alcohol.'' Think about that. Think about how many parents of my 
generation, the Vietnam generation, said, ``oh, man, you know, 
so my kid is smoking a joint; everybody did that.'' Well, this 
ain't your father's marijuana. This is a heck of a lot more 
potent than any marijuana that was ever produced or consumed 
back in the 1960's.
    But there is a mind set, and I think my generation, and I 
am the baby boom generation, is partially responsible for it. 
We seem to think that as long as our kids are doing tobacco and 
alcohol and maybe a joint, we shouldn't worry about it.
    Am I correct that there is evidence that the younger the 
person is when they begin to consume tobacco or alcohol or 
marijuana, there is an exponentially greater prospect that they 
will become hard-core addicts down the road? Is that correct, 
Dr. DuPont, or not?
    Dr. DuPont. That is completely correct, and the other side 
of that is if they decide not to use those gateway drugs, they 
are not going to use the later drugs. So it is absolutely the 
younger they use, the worse the prognosis. And what you said is 
exactly right; there need to be consequences.
    Senator Biden. I don't mean criminal consequences.
    Dr. DuPont. No, no, I understand that, something that gets 
them uncomfortable and gets them convinced, including 
education. I think community service, getting them to go to a 
drug treatment program to meet people like Ms. Walcott, could 
be the kind of consequence for a positive drug test.
    Senator Biden. Well, I don't know how we get a handle on 
the remainder of this problem until we get a handle on--Debra, 
did you smoke tobacco?
    Ms. Walcott. Yes.
    Senator Biden. When did you start?
    Ms. Walcott. Thirteen.
    Senator Biden. When was the first time you had a drink, 
alcohol?
    Ms. Walcott. Fifteen.
    Senator Biden. When was the first time you got drunk that 
you know, that you can think of?
    Ms. Walcott. Fifteen.
    Senator Biden. Thank you.
    Chairman Hatch. Thank you, Joe.
    Let me just ask, since I am the last one to question here, 
just a couple of questions of you, Ms. Walcott.
    I think every one of you witnesses have been great here 
today. I mean, it has been very interesting to us and we are 
very appreciative of the testimony you have given us.
    In addition, Ms. Walcott, to your fear of going to jail, 
what other factors help you in your day-to-day struggle with 
your addiction?
    Ms. Walcott. The fact that I see how much my life has 
changed without using drugs, and I have had that period of time 
to stay away from the drugs and I see the different way my 
family looks at me now, the respect I have from them, and just 
the fact that I can get things out of life without using drugs 
and I can deal with myself as a person without using drugs. I 
know that I don't have to use drugs.
    Chairman Hatch. That is terrific. Did you see the movie 
``Traffic?''
    Ms. Walcott. Yes.
    Chairman Hatch. What did you think of it? Putting it into 
the context of your experience, the totality of your experience 
as a young person who has an addiction, what did you think of 
that movie?
    Ms. Walcott. I thought it was good and I--
    Chairman Hatch. Good in what way?
    Ms. Walcott. It proves a point that drug addiction for 
young people is a problem, and it also showed how the parents 
weren't really involved with her life.
    Chairman Hatch. It shows the depths of degradation, pretty 
well too, doesn't it?
    Ms. Walcott. Yes.
    Chairman Hatch. Well, there has been a lot of criticism of 
the movie and a lot of praise for the movie. My personal belief 
is that you can't see that movie as a young person without 
realizing that you don't want to touch drugs. Was that 
basically the conclusion you drew?
    Ms. Walcott. Yes.
    Chairman Hatch. I appreciated the remarks of Dr. DuPont in 
criticizing some of the aspects, but overall it was a movie 
that was pretty troubling and pretty convincing of how bad the 
drug world is.
    Wouldn't you agree, Dr. DuPont?
    Dr. DuPont. Yes, sir. I think the only objection I would 
have is concluding it is hopeless, and I think that that was a 
message of the movie.
    Chairman Hatch. That bothered me, too.
    Dr. DuPont. But other than that, the fact that it is very 
serious and the heroic views of treatment, I thought it was a 
wonderful presentation, and the law enforcement. Those, I 
thought, were positive. It was just the message that it was 
hopeless that I thought was unfortunate.
    Chairman Hatch. Well, this has been a wonderful hearing. It 
has been helpful to us. We are trying to do what is right. It 
is about time that we really emphasize these areas more than 
they have ever been emphasized before. We would like any 
additional comments that you care to make.
    Dr. DuPont, I would like you to answer in writing the 
question of just what should we do. Is Joe Califano right about 
having a new institute on addiction, or should we phase that 
into the National Institute on Drug Abuse and SAMHSA and other 
currently available agencies that he feels are fractionated?
    I would like to have you, in writing, give us your best 
views on that, and you, as well, Mr. Walton. You have had a lot 
of experience in this area. I would like to have you give us in 
writing your ideas on that, as well, because this is the time 
to make these points because we are going to pass this bill. We 
think it is time for everybody in America to realize that we 
are not just worried about interdiction and we are not just 
worried about the supply side. We are worried about the demand 
side as well, and we don't want Debra Walcott and all kinds of 
young people like Debra to not have a chance in this world.
    We are proud that you do have a chance now and that you 
have had this kind of treatment, and we hope and pray that you 
will continue down that pathway because I think you really have 
a great future if you will do that.
    Ms. Hewitt, your comments about your sons have hit the mark 
here. We will see what we can do. Even with this bill, I don't 
think it would be enough money to solve all the problems, but 
it is certainly a step in the right direction. It sends the 
right message, and hopefully we can get cooperation to pass it 
this year and actually fund it the way we would like to have it 
funded. So if we are able to do all of that, it will be 
primarily because of the testimony all of you have given here 
today.
    Mr. O'Connor, thanks again. It is always great to be with 
you. We respect you and appreciate you, and appreciate the 
efforts that you make in this area.
    Mr. O'Connor. Thank you, Senator.
    Chairman Hatch. Thanks for being with us.
    With that, we will adjourn until further notice.
    [Whereupon, at 12:58 p.m., the Committee was adjourned.]
    [Submissions for the record follow:]

                       SUBMISSIONS FOR THE RECORD

  Statement of Hon. Maria Cantwell, a U.S. Senator from the State of 
                               Washington

    I want to thank the Chairman and Ranking Member for bringing these 
issues to the Committee so early in the Session. I also want to thank 
you for working so hard, and in a bipartisan fashion to craft 
legislation to address drug use prevention and treatment. It is good to 
see these bold steps being taken--fundamental steps to reducing crime 
and improving the quality of life for Americans. And the legislation is 
timely, as we see an explosion in the use of cheap, easily manufactured 
and highly dangerous drugs such as methamphetamine. Eleven percent of 
U.S. high school seniors have used this deadly drug. Just as we begin 
reducing the number of users of one dangerous drug, the numbers 
increase for another.
    In my state of Washington we have seen a more-than-exponsential 
rise in the manufacturing and use of methamphetamine. In fact, 
Washington has become the second largest producer of methamphetamine in 
the U.S. In 1998 we had ``only'' 349 methamphetamine labs. That number 
is expected to top 2,000 this year. By 2002, it is projected that there 
will be 2,600 labs in my state alone.
    The problem in Washington is hardest on the rural areas, as it is 
for many states across the country. Drug manufacturers are finding it 
easier to hide in rural regions rather than in urban centers. SO they 
are moving their operations, and their way of life, into these 
communities. Since methamphetamine, known as the ``poor man's 
cocaine,'' is cheap to purchase, it is most rapidly growing in 
popularity among our poorest populations, which includes some of our 
rural communities.
    Very simply put, the drug problem has fast become a rural problem. 
We must do more to curb the demand for illegal drugs. The drug 
education and rehabilitation programs that this bill promotes are 
imperative to keeping our kids off of drugs and rehabilitating drug 
users. And I am particularly pleased to see that you have provided 
special funding for programs in the rural parts of our country.
    I applaud the efforts of the Senators from Utah and Vermont to 
bring these provisions into law as promptly as possible and look 
forward to the testimony of the witnesses.

                                <F-dash>

Statement of Hon. Russell D. Feingold, a U.S. Senator from the State of 
                               Wisconsin

    Thank you, Mr. Chairman. I commend the Chairman and ranking member 
for holding this hearing and taking the lead in urging Congress to 
start a new chapter in our nation's fight against drugs.
    As the legislation introduced by Senators Hatch and Leahy shows and 
I hope this hearing will illustrate, it is time for our nation to move 
away from thinking of the drug problem as simply a ``War on Drugs,'' as 
if all that is needed to fight illegal drugs is beefed-up international 
and domestic policing efforts. Yes, we need effective law enforcement 
to stem the production and distribution of illegal drugs. Yes, we need 
to continue to work with foreign governments to stem the tide of 
illegal drugs flowing into the U.S.
    But, Mr. Chairman, as you know, this isn't just about fighting the 
supply of drugs. We need to fight, firmly and passionately, the demand 
for drugs. To do so effectively, we need an increased emphasis on drug 
prevention, treatment and research. I'm pleased to see this increased 
emphasis reflected in the HatchLeahy legislation, S. 304, the ``Drug 
Abuse Education, Prevention and Treatment Act of 2001.'' It 
appropriately focuses primarily on efforts to strengthen drug 
prevention and treatment.
    I'd like to touch on one issue that I'm particularly pleased to see 
the bill begin to address: the effectiveness of mandatory minimum 
prison sentences for non-violent drug offenders. The bill directs the 
U.S. Sentencing Commission to submit to Congress, no later than one 
year after enactment of the bill, a report on mandatory minimum 
sentences for illegal drug offenses. This report will include an 
analysis of the frequency and appropriateness of such sentences for 
nonviolent offenders in contrast with other approaches like drug 
treatment programs, and whether such sentences have a disproportionate 
impact on ethnic or racial groups. This step is a much overdue 
reexamination of our mandatory minimum sentencing policies.
    I, however, have some concerns with the Hatch-Leahy bill as it 
relates to charitable choice--allowing churches, synagogues, mosques 
and other religious organizations to compete for federal dollars under 
the provisions of the bill on the same basis as non religious 
organizations. This raises serious First Amendment concerns. I 
understand a hearing on this subject will be held soon.
    In the meantime, Mr. Chairman, this hearing is a good start on the 
road to enacting comprehensive and effective drug legislation. Again, I 
commend the Chairman and ranking member for their leadership on this 
issue. Thank you, Mr. Chairman.

                                <F-dash>

  Statement of Hon. Strom Thurmond, a U.S. Senator from the State of 
                             South Carolina

    Mr. Chairman: I am pleased that we are holding this hearing today 
on the importance of a comprehensive approach to the drug threat.
    Drugs are a terrible menace to society. They destroy the lives of 
far too many promising young people. They also cost our country and our 
economy heavily in lost productivity and in crimes that are committed 
because of drug use.
    We have known for many years that drugs are an enemy that America 
must fight with great determination. We fight the war on drugs on many 
fronts, including prevention, treatment, prosecution and interdiction.
    Some say that the drug war can never be won and that we should 
change our priorities. They argue that we should focus our efforts on 
preventing drug abuse and treating abusers simply as people with a 
health care problem.
    I do not agree. I believe we should fight the drug war on all 
fronts. It is true that we probably will never win the war on drugs 
outright, but that does not mean we should surrender.
    In our fight, criminal prosecution must always be a cornerstone. 
Maintaining aggressive prosecution and serious penalties on drug use 
and distribution show that society will not tolerate illegal drugs. 
Legalization is a terrible idea that is periodically raised and must be 
consistently rejected.
    The fact is that many avoid drugs because they want to follow the 
law and are afraid of the punishment that will result if they do not. 
Also, punishment and interdiction help reduce the supply of drugs. If 
drugs are more scarce, they are more expensive, less pure, and harder 
to obtain.
    This is not to say that prevention and treatment are unimportant. 
They are essential to success. The Drug Abuse Education, Prevention, 
and Treatment Act, S. 304, will help maintain and strengthen our 
resolve in this area.
    The fact is that people often enter treatment because of the 
criminal justice system, either as an alternative to prison or while 
they are in prison. Treatment programs that are based on coercion are 
often longer and more successful in the long run.
    For example, S. 304 authorizes funding for a drug treatment 
alternative to prison or DTAP program. Senator Schemer and I have 
introduced this as separate legislation. This program is run by 
prosecutors and has proven to be successful. It gives non-violent drug 
offenders a second chance, but it requires that they complete a 
specific term of imprisonment if they fail treatment. Treatment 
programs in the criminal justice system must include punishment for 
those who do not stay off drugs.
    I look forward to the testimony of our witnesses regarding this 
most important issue.

                                <F-dash>

    Statement of Joseph A. Califano, Jr.\1\, the National Center on 
          Addiction and Substance Abuse at Columbia University

    Mr. Chairman and members of the Committee:
    It is a privilege for me as the President of CASA-The National 
Center on Addiction and Substance Abuse at Columbia University--to 
submit this statement in support of S. 304, The Drug Abuse Education, 
Prevention and Treatment Act of 2001.
---------------------------------------------------------------------------
    \1\ Mr. Califano, an attorney, is founding Chairman and President 
of The National Center on Addiction and Substance Abuse at Columbia 
University. He was Secretary of Health, Education, and Welfare from 
1977 to 1979 and President Lyndon Johnson's top assistant for domestic 
affairs from 1965 to 1969.
---------------------------------------------------------------------------
    Mr. Chairman, you, Senators Joseph Biden, Patrick Leahy, Michael 
DeWine and Strom Thurmond have done a great service in introducing this 
bill, which is the most comprehensive legislation on substance abuse 
ever introduced. This bill is the first significant legislation to 
strengthen all four legs of the effort to combat substance abuse and 
addiction-research, prevention, treatment and law enforcement.
    During a campaign speech on October 6, 2000, President George W. 
Bush pledged that in his administration, ``the threat of drugs won't be 
confronted by bursts of government activity, followed by years of 
neglect.'' He recognized the need to reduce the demand for drugs in 
this country-``America should not blame other nations for the narcotics 
trade. We are the market that sustains it. And we have a responsibility 
to confront this problem''--and he pledged to place new emphasis on 
drug abuse prevention, work to create drug free schools, increase 
funding for treatment in underserved areas, provide treatment in 
prisons, help keep prisons drug-free and increase funding for drug 
courts. The President can take a major step to fulfill his campaign 
pledges by supporting S. 304.
    Substance abuse and addiction is implemented in virtually every 
social ill: crime and violence, teen pregnancy, welfare dependence, 
spousal and child abuse, the spread of AIDS and other sexually 
transmitted diseases, the deterioration of public housing and urban 
schools, and the rising costs of health care and social security 
disability. By addressing the problem of substance abuse and addiction 
so comprehensively, this bill offers the hope of reducing crime and 
health care costs and the amounts of tax payer funds needed to deal 
with these social ills.
    CASA's 2001 report, Shoveling Up: The Impact of Substance Abuse on 
State Budgets, found that states spend 13.1 percent of their budgets on 
substance abuse and addiction. On average, of every such dollar states 
spend, 96 cents goes to shoveling up the wreckage, only 4 cents to 
prevent and treat substance abuse and addiction. By focusing on 
research, prevention and treatment, this legislation will save states 
and the federal government billions of dollars and set in motion the 
next significant wave of crime reduction in America.
    CASA's 1998 report, Behind Bars: Substance Abuse and America's 
Prison Population, revealed that 80 percent of the almost two million 
federal, state and local inmates either have a history of alcohol 
abuse; been regular drug users; committed crimes such as rape, assault 
and murder while high on alcohol or drugs; stolen to get money to buy 
drugs; violated drug or alcohol laws, or share some combination of 
these characteristics.
    The provisions in S. 304 to help make our prisons drug-free and 
provide substance abuse treatment for inmates (as well as assistance 
for the reentry of recovering criminal offenders into local 
communities) take advantage of this captive audience to open up a 
second front in the war on crime. This bill recognizes that being tough 
on crime and mandating treatment of offenders are mutually supportive. 
If the objective of our criminal justice and prison system is to 
protect the public safety by incarcerating incorrigible offenders and 
reducing recidivism, providing treatment for substance abusing inmates 
is just as essential as holding them strictly accountable for their 
actions.
    CASA's research has found that criminal recidivism is very much a 
function of drug and alcohol abuse. The more often an individual is 
imprisoned, the likelier he is to be a drug or alcohol addict or 
abuser. Forty-one percent of first-time offenders have a history of 
regular drug use, compared with 63 percent of those with two prior 
convictions and 81 percent of those with five or more prior 
convictions. Well-designed prison-based treatment, such as that 
contemplated in S. 304, can reduce drug and alcohol relapse and 
consequent criminality, especially when combined with training and 
community-based aftercare services, including treatment, assistance 
with housing, education, employment and health care. Since a drug-
addict commits about 100 crimes per year, for every 10,000 drug-
addicted inmates who upon release become productive citizens there will 
be a reduction of one million crimes a year.
    CASA found that an estimated 31 percent of federal inmates in 
federal prisons were hooked on drugs, but, in 1996, only 10 percent 
were in treatment. Up to 85 percent of state prison inmates need 
substance abuse treatment; in 1996, only 13 percent of such inmates got 
any. Individuals who enter treatment under legal pressure have outcomes 
as favorable as those who enter treatment voluntarily. Hundreds and 
thousands of the nation's substance-involved inmates would be working 
citizens and responsible parents if they lived sober lives.
    Proposing to provide treatment to prisoners makes economic sense. 
We have found that the cost of providing treatment for inmates, 
accompanied by appropriate education, job training and health care, 
would average about $6,500 a year. For each inmate who successfully 
completes such treatment and becomes a tax-paying, lawabiding citizen, 
the annual economic benefit to society-in terms of avoided 
incarceration and health care costs, salary earned, taxes paid and 
contribution to the economy-is $68,800, a tenfold return on investment 
in the first year. If a year of such comprehensive treatment turns 
around only ten percent of those who receive it, it would still pay for 
itself within one year. Even with the difficult inmate population, 
success rates are likely to be higher.
    The reestablishment of drug courts called for under Title V of this 
bill will reduce crime and lessen the burden on the prison system. 
CASA's seminal analysis of 77 drug courts, conducted by our Senior 
Research Associate Steven Belenko, Ph.D., found they are effective in 
reducing drug abuse among nonviolent offenders, helping them become 
law-abiding, tax-paying citizens, and cutting the burden that drug 
related cases impose on the criminal justice system. Drug courts 
provide better supervision, increase the rates of retention in 
treatment, and reduce drug use and criminal behavior of participants. 
Recidivism for participants remains low for drug court graduates. The 
provision in the bill to establish juvenile substance abuse courts 
builds on this experience.
    The drug treatment alternatives to prison for non-violent offenders 
with drug and alcohol problems proposed in section 301 of S. 304 is 
another way proven to be effective to channel addicts into treatment 
and reduce crime. The Drug Treatment Alternative to Prison Program 
(DTAP), conceived by the District Attorney of Kings County (Brooklyn), 
New York, Charles J. Hynes offers defendants arrested for a felony drug 
sale who have a drug abuse problem and one or more prior nonviolent 
felony convictions the option of deferring prosecution and entering 
residential drug treatment for 15 to 24 months. Those who complete the 
program have the charges against them dismissed; dropouts are 
prosecuted on the original charges. CASA's evaluation of this program 
reveals that among DTAP participants, arrest rates are lower; and even 
when arrested, DTAP graduates are involved in less serious offenses.
    The Drug Abuse Education, Prevention and Treatment Act of 2001 
recognizes that funding for treatment in rural areas and economically 
depressed communities is of vital importance. CASA's 2000 report, No 
Place to Hide: Substance Abuse in Rural America, found that, contrary 
to popular belief, drugs are not just an urban problem. Meth has come 
to Main Street. Indeed, eighth graders in America are 83 percent 
likelier than those in urban centers to use crack cocaine, 50 percent 
likelier to use cocaine and 34 percent likelier to smoke marijuana. Yet 
smaller communities lack the resources to provide accessible drug 
treatment and attract trained substance abuse professionals, school 
nurses and counselors. Section 304 authorizes funding for treatment 
that these rural and impoverished communities with high rates of drug 
addiction desperately need. I recommend that this Committee consider 
similar support for law enforcement in rural areas since small 
communities do not have the police capacity needed to deal with illegal 
drug distribution networks.
    The battle against substance abuse is all about children. Before 
completing high school, every American boy and girl will have to make a 
conscious choice whether to smoke, drink or use drugs; many will face 
that choice in middle school. The most important finding of our nine 
years of research is this: a child who gets through age 21 without 
using illegal drugs, smoking or abusing alcohol is virtually certain 
never to do so. Preventing substance abuse and addiction among children 
and adolescents is the road to the drug-free society we all seek.
    Especially for children, availability of drugs spawns use. The 
increased penalties for drug offenses involving juveniles in Title I of 
this bill are a vital part of keeping drugs out of the hands of our 
children. Drug offenses committed in the presence of children, 
distributing drugs to minors and trafficking drugs in or near a school 
or other protected location are offenses that savage our children by 
placing drugs within the circle of their lives. CASA research has found 
that the earlier an individual uses marijuana, the more likely that 
person is to experiment with cocaine, heroin and other illicit drugs 
and the likelier that individual is to become a regular adult drug user 
and addict. A child who uses marijuana before age 12 is 42 times 
likelier to use cocaine, heroin and other drugs than one who first uses 
marijuana after age 16. In light of these findings, it is essential we 
do all we can to deter individuals from involving minors in drug 
trafficking.
    The funding for the expansion of substance abuse education and 
prevention efforts proposed in section 303 of this bill is vital. CASA 
research shows that schools are second only to parents in their 
influence on the risk of teen drug use. The risk of substance abuse for 
a teen who attends a drug-free school is less than half the risk of a 
teen who attends a school where illegal drugs are used, kept and sold. 
Teens who attend drug-free schools are four times less likely to smoke 
marijuana than teens who attend schools that are not drug-free. Sadly, 
more than 60 percent of our nation's teens say drugs are used, kept and 
sold at their high schools.
    The counseling, training and mentoring for children of prisoners 
provided for in Title IV can save those at high risk from becoming 
addicts and criminals. Children of substance-involved inmates are at 
especially high risk of addiction and incarceration. Many of these 
children are abused and neglected. CASA's 1999 report, No Safe Haven: 
Children of Substance-Abusing Parents, found that substance abuse and 
addiction are the primary causes of the dramatic rise in child abuse 
and neglect since the mid-1980s. Substance abuse causes or exacerbates 
seven out of ten cases of child abuse or neglect. Children whose 
parents abuse drugs and alcohol are almost three times likelier to be 
abused and more than four times likelier to be neglected than children 
of parents who are not substance abusers.
    Identifying children at risk early and providing them with 
counseling, training and mentoring is key to preventing later 
involvement with drugs and crime. CASA's comprehensive intervention 
program CASASTART (Striving Together to Achieve Rewarding Tomorrows) is 
a community based, school-centered program. CASASTART combines, under 
one umbrella, teachers, police, health and social workers and full time 
mentors to prevent substance abuse and delinquency among high-risk 8 to 
13 year olds. Children in this program demonstrate better academic 
performance and were significantly less involved in drug use and 
selling, violent crime and disciplinary problems.
    Research is the base upon which all of what we know about effective 
substance abuse treatment and prevention rests. Recent research into 
how addiction affects the brain led to the development of new substance 
abuse treatments. Biomedical research has revealed that nicotine, 
alcohol, marijuana, cocaine, heroin and other drugs affect brain levels 
of dopamine (the substance that gives us pleasure) in similar ways. 
CASA's six Teen Surveys, and other social science research, have 
demonstrated how important parent power is to reducing a child's risk 
of substance abuse. Our demonstration programs have shown what services 
can help prevent at-risk children from becoming addicted. This bill's 
provision for expanded research into substance abuse's affects on the 
human body and brain, risk factors, protective factors, connection with 
mental health and teen suicide and other causes and correlates will 
ensure that we stay on the cutting edge of substance abuse treatment 
and prevention.
    In closing, Mr. Chairman, I congratulate you, Senators Biden and 
Leahy and the other cosponsors for introducing such a remarkable bill. 
If passed, this legislation will go a long way to help our kids grow up 
drug-free.
    I appreciate the opportunity to submit this statement and CASA-The 
National Center on Addiction and Substance Abuse at Columbia 
University-and I stand ready to assist this Committee and its staff in 
any way we can.

                                <F-dash>

The Washington Post

A Turning Point on Drugs By Joseph A. Califano Jr., Tuesday, March 13, 
                             2001; Page A21

    President Bush has an opportunity to lead a budding revolution in 
the nation's policy on substance abuse. For the first time in the 
nation's many wars on drugs, the forces are there to balance and 
strengthen all four legs of the effort against abuse and addiction: 
research, prevention, treatment and law enforcement.
    During his trip to Mexico, Bush showed he recognized that drugs 
come to America by invitation, not by invasion. The problem we've 
neglected, he stressed, is reducing demand. That same week, a 
surprising bipartisan group of senators -Republican conservatives Orrin 
Hatch, Strom Thurmond and Mike DeWine; Democratic liberals Joe Biden, 
Patrick Leahy and Edward Kennedy--introduced legislation to provide an 
additional $900 million for research, prevention and treatment and to 
toughen criminal laws to protect kids.
    The scientific stars are also aligned for revolution. Several years 
ago, the National Center on Addiction and Substance Abuse at Columbia 
University (CASA) identified the statistical relationship, especially 
among young teens, between smoking, drinking and using marijuana and 
the move to harder drugs. Recently scientists have found that all 
substances - nicotine, alcohol, cocaine, heroin, marijuana--similarly 
affect brain levels of dopamine (the substance that gives pleasure). 
Coupled with CASA's finding that an individual who gets through age 21 
without smoking, abusing alcohol or using illegal drugs is virtually 
certain never to do so, these scientific discoveries point to more 
effective ways to battle substance abuse and addiction.
    First, we must stop ricocheting from nicotine to alcohol to 
marijuana to LSD to heroin to cocaine to crack to amphetamines to 
ecstasy. The problem is addiction. Finding a teen on marijuana or 
harder drugs who didn't start with cigarettes and beer is like 
searching for a grain of sand at the beach. The sharp 48 percent 
decline in teen nicotine smoking in Florida has been accompanied by a 
38 percent drop in teen marijuana smoking. Most individuals in 
treatment are hooked on more than one substance.
    In research, we need a National Institute on Addiction that 
combines the current fragmented institutes on drug abuse (illegal drugs 
and nicotine) and alcohol abuse and alcoholism. Such a combination 
would strengthen our research efforts and provide a better return for 
our tax dollars.
    In prevention, the prime targets are children and all substances. 
Prevention, education and media campaigns should target alcohol and 
tobacco as aggressively as illegal drugs. Congressional restrictions 
that confine the White House drug policy director to illegal drugs 
should be lifted. That means taking on the tobacco and alcohol lobbies 
on Capitol Hill and in state legislatures.
    The movie ``Traffic'' vividly captures the crude corruption that 
undermines law enforcement attempts to curb illegal drug distribution 
and sales. But our campaign finance laws provide cover for polished 
tassel-loafer corruption by the beer, liquor and tobacco industries. 
Their campaign contributions and high-priced Washington lobbyists have 
killed Sen. John McCain's tobacco legislation, proposals to label the 
dangers of alcohol on bottles of beer, wine and liquor, and cigarette 
and alcohol tax hikes to increase the price of these drugs and thus 
reduce initiation of teen smoking and drinking.
    As for treatment: It's time to take advantage of captive audiences 
where so much drug and alcohol addiction is concentrated: prison 
inmates and individuals receiving benefits from Medicaid, welfare, 
child welfare and other public assistance programs. Of the 2 million 
Americans in prison for felonies, more than a million have drug and 
alcohol abuse and addiction problems. Hundreds of thousands can benefit 
from treatment, but precious little is available. Since on average an 
addict commits at least 100 crimes a year, for each 10,000 successfully 
treated, 1 million crimes will be eliminated.
    Motivation is the key here. Drug courts help. Mandatory sentences 
hurt. Where the entire sentence must be served, the carrot of early 
release is not available to encourage a prisoner to seek treatment; 
where there is no parole, the stick of immediate return to prison is 
lost as an incentive to continue treatment and aftercare upon release. 
Beneficiaries of public assistance programs who have drug and alcohol 
problems should be required to enter treatment as a condition of 
receiving benefits.
    In law enforcement, it's time to concentrate on making illegal 
drugs less available to kids and to expand the policing horizon. For 
teens, illegal drugs are the tip of the iceberg and at the end of the 
substance abuse journey. Alcohol is implicated in far more teen 
violence, suicide and deadly accidents than all illegal drugs. Teens 
learn how to inhale on nicotine cigarettes before smoking pot. Laws 
prohibiting sale of alcohol and cigarettes to minors should be 
toughened. Their reach should be extended to cover adults who purchase 
beer and cigarettes for minors and tobacco and beer companies that 
distribute their products to outlets that sell to minors.
    Much more energetic efforts should be devoted to enforcing those 
laws and punishing those who violate them. President Bush's statements 
on demand reduction, treatment and protecting our children are as 
refreshing as Lyndon Johnson's words on alcohol in his 1967 Message on 
Crime in America. There LBJ urged that ``drunkenness [then America's 
number one crime] should be regarded as a criminal offense only when it 
is accompanied by disorderly conduct.'' That signal kicked off a 
revolution in how our nation viewed and confronted drunkenness.
    The Texan in the White House today has the opportunity to spark the 
same kind of revolution in how the nation views and confronts all 
substance abuse and addiction.
    The writer, president of the National Center on Addiction and 
Substance Abuse at Columbia University, was President Lyndon B. 
Johnson's special assistant for domestic affairs from 1965 to 1969.

                                <F-dash>

   Statement of Jan K. Carney, M.D., Vermont's Commissioner of Health

    I want to thank Chairman Hatch and the Ranking member, Senator 
Leahy, for the opportunity to provide testimony regarding the Drug 
Abuse Education, Prevention, and Treatment Act of 2001. My name is Jan 
K. Carney, MD. I have been Vermont's Commissioner of Health for more 
than a decade. I believe that drug abuse, whether we are talking about 
tobacco, alcohol, marijuana, or heroin, is a public health problem: it 
is common, serious, and potentially preventable. To address what is a 
huge national problem, as well as one we are seeing in Vermont, a 
comprehensive strategy is needed that includes prevention, treatment, 
and law enforcement. These efforts must be coordinated with federal, 
state, and local agencies if we are to be successful.
    Heroin use is a growing problem in Vermont. In our 1999 Vermont 
Youth Behavioral Risk Factor Survey, 4 percent of Vermont 8-12th 
graders reported ever using heroin. When looking at information 
obtained from publicly funded treatment programs in Vermont, there has 
been an overall increase in the numbers of individuals treated for 
heroin use, but the most dramatic rate of increase has been among 18-24 
year olds. This is clearly a growing public health problem in Vermont.
    In order to successfully prevent and treat heroin use in Vermont 
and other states, we need to remember that adolescents and young people 
don't wake up one morning and begin using heroin, there is nearly 
always prior use of alcohol, and marijuana. Vermont 8-12th graders, who 
report any alcohol use, alcohol use before age 13, or binge drinking 
are at increased risk for use of marijuana, cocaine, inhalants, 
methamphedamine, hallucinogens, and heroin. Although we must focus 
interventions specifically aimed at the prevention and treatment of 
heroin use, if we are to be successful in the long run, we must link 
our public health prevention efforts for alcohol and marijuana, to 
those specific to heroin. It is well documented and logical that use of 
alcohol and marijuana during adolescence sets up patterns of behaviors 
that put children and young adults at increased risk for other drug 
use.
    I wholeheartedly agree with the bill's emphasis on community 
prevention. Vermont is one of five states that received State Incentive 
Grants from the Center for Substance Abuse and Prevention (CSAP) 
designed to apply proven science based strategies to reduce alcohol and 
marijuana use. Evaluation for Vermont's program will be completed in 
the fall of 2001, and we are optimistic that our community-based 
prevention strategies, including involving local coalitions, and 
targeting specific outcomes, will help provide a national framework and 
community models that can be used across the county to reduce alcohol, 
marijuana, and other drug use. Prevention strategies in schools, 
including science-based curriculum from kindergarten through grade 12 
is something we must have in every school, reaching every child. There 
are also proven strategies to promote positive youth development, 
emphasizing such positive aspects as involvement in school and 
community, which have been shown to help protect our young people from 
substance abuse.
    I also agree with the need for additional treatment. In Vermont we 
are seeing a growing need for heroin treatment and are currently in the 
process of implementing a law passed by the Vermont legislature and 
signed by the Governor in 2000 to begin opiate addiction treatment in 
Vermont hospitals. In addition, there are growing treatment needs in 
prisons, and specific treatment needed for heroin, alcohol, and other 
drugs for adolescents. Treatment programs designed and implemented for 
adolescents are different than those that are designed for adults, and 
must reflect and be responsive to the specific developmental needs of 
our young people.
    I enthusiastically support the comprehensive approach of this bill. 
In order to successfully deal with heroin and other substance abuse, we 
need a combined focus on prevention, treatment, and law enforcement. In 
Vermont, at the direction of Governor Dean, I am chairing the heroin 
action Committee, a broad-based group focusing on prevention, 
treatment, and law enforcement that has a goal of eliminating heroin 
use in Vermont. It is apparent to us that federal legislation and 
resources are needed and essential if we are to achieve our goals. 
Thank you.


</pre></body></html>
